<html>
<title> - SUDAN AND TERRORISM</title>
<body><pre>[Senate Hearing 105-223]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-223

 
                          SUDAN AND TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              May 15, 1997

                               __________

       Printed for the use of the Committee on Foreign Relations



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                 ______

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                   JOHN, ASHCROFT, Missouri, Chairman

ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
BILL FRIST, Tennessee                PAUL S. SARBANES, Maryland

                                  (ii)

  
?



                            C O N T E N T S

                              ----------                              
                                                                   Page

Emerson, Steven, Middle East Affairs Analyst, Author, and 
  Terrorism Expert, Washington, DC...............................    41
    Prepared statement...........................................    43
Maikish, Charles, Vice President for Facilities Management, 
  Columbia University, New York, New York........................    13
McCollum, Hon. Bill, U.S. Representative from Florida............     6
    Prepared statement...........................................     9
McKune, Kenneth R., Acting Coordinator for Counterterrorism, 
  Department of State............................................    22
    Prepared statement...........................................    24
Moose, George E., Assistant Secretary of State for Africa........    17
    Prepared statement...........................................    19
Newcomb, R. Richard, Director, Office of Foreign Assets Control, 
  Department of the Treasury.....................................    25
Smith, Ed, Hamilton Hallmark, Woodland Hills, California.........    48
Winter, Roger, Director, U.S. Committee for Refugees, Washington, 
  DC.............................................................    49

                                Appendix

Responses to Questions Submitted by Members of the Committee.....    61
    Responses of Assistant Secretary of State George Moose to 
      Questions Submitted by Senator Feingold....................    61
    Responses of Roger Winter, Director, U.S. Committee for 
      Refugees to Questions Submitted by Senator Feingold........    64
Statement of the Embassy of the Republic of Sudan Regarding Sudan 
  and Terrorism..................................................    66
Statement of the Sudan Peoples Liberation Movement...............    68
Appendix to Testimony of Steven Emerson..........................    81
Amnesty International Report: Sudan--A New Clampdown on Political 
  Opponents......................................................    87

                                 (iii)

  


                          TERRORISM AND SUDAN

                              ----------                              


                         THURSDAY, MAY 15, 1997

                                       U.S. Senate,
                           Subcommittee on African Affairs,
                                  Committee on Foreign Relations,  
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:48 in room 
SD-419, Dirksen Senate Office Building, Hon. John Ashcroft 
(chairman) presiding. Present: Senators Ashcroft, Grams and 
Feingold.

  STATEMENT OF HON. JOHN ASHCROFT, U.S. SENATOR FROM MISSOURI

    Senator Ashcroft. The committee will now come to order. I 
want to thank all of you for your patience. We were winding up 
a vote on the Senate floor and would otherwise have been more 
prompt. I do not want to allege ever that the Senate is totally 
prompt, but we would have been more prompt, and I thank you 
very much.
    We welcome all of the witnesses today, both from the 
administration, the U.S. Congress, and from the private sector.
    Just as a way of orienting us this morning, we would like 
to begin this morning's hearing with a brief video 
presentation. The video will feature speeches by Hassan Turabi, 
the leader of the National Islamic Front Party in Sudan and one 
of the most infamous supporters of international terrorism in 
the world.
    Osama bin Laden's call for a jihad against the U.S., and 
particularly against U.S. soldiers in Saudi Arabia, will also 
be featured. Bin Laden was harbored by Sudan for almost 5 
years, and was involved in attacks on U.S. soldiers in Somalia, 
Saudi Arabia, specifically in Riyadh and Dhahran.
    The video will close with some footage from the World Trade 
Center bombing, the most poignant reminder of the war 
international terrorists are committed to waging against the 
United States. If we could please--we will start the video and 
hope everyone has a chance to see it clearly from their 
position.
    [A videotape was shown.]
    Senator Ashcroft. In the post cold war world the United 
States no longer faces the threat of bipolar cataclysm that 
defined U.S.-Soviet relations. The collapse of the Soviet Union 
ended the greatest menace to freedom in the 20th century, but 
in this dawn of a new era in international relations, however, 
the horizon is dotted with new national security threats that 
will demand our constant vigilance.
    One of the most serious of these new national security 
threats is the rise of international terrorism. We are holding 
this hearing today in the Subcommittee on African Affairs to 
address the menace of terrorism as sponsored by the Government 
of Sudan. Since first being designated a State sponsor of 
terrorism in 1993, Sudan has risen quickly in the ranks of 
infamy to join Iran as the worst of State sponsors of 
terrorism.
    Sudan harbors elements of the most violent terrorist 
organizations in the world: Jihad, the armed Islamic group, 
Hamas, Abu Nidal, Palestinian Islamic Jihad, Hizbollah, and the 
Islamic Group are all present in terrorist training camps in 
Sudan. These terrorist groups are responsible for hundreds of 
terrorist attacks around the world that have taken thousands of 
lives.
    Abu Nidal alone has been responsible for 90 terrorist 
attacks in 20 countries which have killed or injured almost 900 
people. Jihad is responsible for the assassination of Egyptian 
President Anwar Sadat, and Jihad's leader, Sheikh Omar Abdel 
Rahman, was the ideological ringleader of the terrorists that 
attacked the World Trade Center and plotted to bomb the United 
Nations in New York.
    Another terrorist organization, the Islamic Group, attacks 
westerners in Egypt, and claimed responsibility for the failed 
assassination attempt on President Hosni Mubarak during his 
visit to Ethiopia in 1995.
    In addition to harboring terrorist organizations, Sudan has 
given refuge to several of the most notorious individual 
terrorists, including Imad Moughniyeh and Osama Bin Laden. 
Moughniyeh is believed to be responsible for the 1983 bombing 
of the marine barracks in Beirut which killed 241 U.S. troops. 
Bin Laden is the most infamous financier of terrorists in the 
world, and has recently stated that U.S. soldiers in Saudi 
Arabia, as you saw in the video, will be the principal target 
of his terrorist attacks.
    Sudan is not simply a favorite vacation spot for 
terrorists. The Sudanese Government is an active supporter of 
these terrorist activities. Sudan reportedly provided weapons 
and travel documentation for the assassins who attacked 
President Mubarak. Two Sudanese diplomats at the United Nations 
in New York conspired to help Jihad terrorists gain access to 
the U.N. complex to bomb the building.
    The plot to bomb the U.N. was just one in a series of plots 
to bomb numerous locations around New York, including the 
Lincoln and Holland Tunnels, the George Washington Bridge, and 
U.S. military installations. Five of the original 12 defendants 
convicted in the series of terrorist plots were Sudanese 
nationals.
    Thankfully, this series of plots was thwarted by U.S. 
authorities, but one of the earlier terrorist attacks, the 
World Trade Center bombing, killed six individuals, injured 
over 1,000 more, and caused $600 million in damages. The 
terrorists responsible for the World Trade Center bombing 
expressed regret that the twin towers were not toppled, a 
catastrophe that would have taken the lives of tens of 
thousands of people.
    In addition to supporting international terrorism, Sudan 
supports insurgencies against secular governments in northern 
Africa, and wages a war of domestic terror against its own 
people. Sudan supports extremist rebels and terrorist groups in 
Algeria, Uganda, Tunisia, Kenya, Ethiopia, and Eritrea.
    The military regime of Omar al-Bashir has used genocide, 
mass starvation, and slavery to pillage southern Sudan. Mere 
children are drafted into Sudan's army to feed the flames of 
the Government's hatred. Southern rebel leaders are guilty of 
human rights atrocities as well, and the civil war has taken 
the lives of 1.5 million people and displaced over 2 million 
more in the last decade.
    The malevolent character of Sudan's government makes it 
patently clear why the U.S. has designated some nations as 
State sponsors of terrorism and has imposed upon them the most 
severe penalties and sanctions provided by U.S. law.
    While it may seem obvious to all of us here today that 
Sudan is deserving of our harshest censure, the Clinton 
administration has had to be pushed and pulled into adopting an 
aggressive stance against the terrorist State of Sudan. Only 
under congressional pressure did President Clinton add Sudan to 
the terrorist list in 1993, and now the Clinton administration 
is failing to enforce U.S. antiterrorism law against this 
terrorist State.
    The Anti-terrorism and Effective Death Penalty Act of 1996, 
passed by Congress and signed into law by the President last 
April, contained a provision, section 321, prohibiting 
financial transactions with State sponsors of terrorism. The 
Clinton administration was given the opportunity to issue 
regulations for section 321, and President Clinton blatantly 
disregarded the clear language of the legislation and permitted 
almost all financial transactions with some terrorist States to 
proceed.
    I do not understand this inconsistency in the President's 
antiterrorism policy. In a speech at George Washington 
University on August 5, 1996, just days before the regulations 
for section 321 were issued, the President stated, and I quote:

    The United States cannot and will not refuse to do what we 
believe is right. That is why we have maintained or 
strengthened sanctions against States that sponsor terrorism, 
Iran, Iraq, Libya, and Sudan. You cannot do business with 
countries that practice commerce with you by day while funding 
or protecting the terrorists who kill you and your innocent 
civilians by night. That is wrong.

    The Congress of the United States has worked extensively in 
a bipartisan manner to provide the American people with the 
antiterrorism tools they need to defend themselves and isolate 
these rogue regimes, and I am amazed that we are having to 
revisit this antiterrorism legislation to force the President 
to cutoff financial transactions with State sponsors of 
terrorism.
    Representative Bill McCollum, the original sponsor of 
section 321, has introduced legislation in the House, H.R. 748, 
to close the administration's regulatory loophole. I plan to 
introduce companion legislation to H.R. 748 in the Senate. I am 
thankful that America has been relatively isolated from most of 
the world's terrorist violence, but just as terrorists have 
targeted Americans abroad, they are now targeting Americans at 
home.
    International terrorism is one of our greatest national 
security threats, and yet another example of a national 
security threat that the administration is failing to address.
    I want to thank the witnesses who will be testifying here 
today for their assistance, and I hope that this hearing will 
promote a frank and open discussion of the issues surrounding 
the enforcement of our antiterrorism law.
    I would call on the ranking minority member of the 
committee, Senator Feingold.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you very much, Mr. Chairman. This 
is the first Africa Subcommittee hearing we are holding 
together, and I am pleased to have the opportunity to work with 
you and to continue into my fifth year of service on this 
subcommittee, which I consider to be an important part of the 
Foreign Relations Committee, and an important subcommittee in 
the Senate.
    As the chair notes, you and I share two subcommittee 
jurisdictions. He is also chair of the Judiciary Subcommittee 
on the Constitution, of which I am also the ranking member, so 
I know we will be working together, having, in effect, quality 
time together in the Senate throughout the 105th Congress, and 
I look forward to it.
    Mr. Chairman, I also want to thank you for holding a 
hearing on the subject before us today, terrorism in the Sudan. 
This is a vitally important topic for two reasons. One, as the 
chairman has indicated, is terrorism itself, and the other is 
the Sudan.
    Terrorism is clearly one of the most vexing threats to our 
national security today. Terrorist groups, by seeking to 
destabilize or overthrow governments, serve to erode 
international stability. By its very nature, terrorism goes 
against everything we understand to be part of the 
international system, challenging us with methods we do not 
necessarily comprehend.
    People, and all too often they are innocent bystanders, die 
as a result of terrorism. Buildings are destroyed, and all of 
us feel less safe after the fact.
    According to the State Department's most recent Patterns of 
Global Terrorism report, although the number of international 
terrorist incidents in 1996 actually fell to 296, the lowest 
annual total in 25 years, the death toll from these acts rose 
from 163 in 1995 to 311 last year.
    Approximately one-fourth of these acts were aimed 
intentionally against the United States. In 1996, 24 U.S. 
citizens were killed as a result of terrorism, a number that 
unfortunately was twice as high as the previous year. So yes, 
indeed, this is a vitally important subject for the Congress to 
look at very carefully.
    Mr. Chairman, I would also like to note the tremendous 
importance, or at least the potential importance of the Sudan 
in Africa. It is the largest country on the continent, and has 
a population of 29 million people, with cultural and geographic 
ties to both Arab North Africa and to black Sub-Saharan Africa.
    The Sudan has the potential to play a significant role in 
East Africa and the Gulf region, but unfortunately during its 
41 years of independence, Sudan has only seen about 11 years of 
peace. Instead, a brutal civil war between the largely 
Christian and animist south and the Muslim-Arab north continues 
to rage on.
    This seemingly endless conflict has taken the lives of more 
than 1.5 million and resulted in well over 2 million displaced 
persons or refugees. Perhaps the saddest consequence of the war 
is that there are thousands of teenagers who do not remember a 
peaceful period, and who know better the barrel of a gun than 
the inside of a classroom.
    The international community has done the best that it can 
with this situation. There are approximately 40 national and 
international humanitarian organizations providing millions of 
dollars annually in food and development assistance. For its 
part, the U.S. Government has provided more than $600 million 
in food assistance and nonfood disaster assistance since the 
mid-1980's.
    The United Nations' Operation Lifeline Sudan (OLS), which 
maintains a unique agreement with the parties to the conflict, 
has been instrumental in allowing humanitarian access to 
displaced persons in the southern Sudan.
    I want to just take a moment to commend the humanitarian 
organizations operating in the region, who daily face not only 
enormous technical and logistical challenges in serving the 
Sudanese population, but obviously the all-too-frequent threat 
of another offensive nearby.
    Unfortunately, throughout this conflict both sides have 
been engaged in all-too-frequent human rights violations. 
According to the most recent State Department human rights 
report, the Khartoum Government maintains not only regular 
police and army units but also internal and external security 
organs, a militia unit, and a parallel police called the 
Popular Police, whose mission includes enforcing ``proper'' 
social behavior.
    In 1996, according to the report, Government forces were 
responsible for extrajudicial killings, disappearance, forced 
labor, slavery, and forced conscription of children. Basic 
freedoms--of assembly, of association, of privacy--are 
routinely restricted by the Government. Worse, imposition of 
Islamic law on non-Muslims is far too common.
    Perhaps the Government's most egregious behavior, though, 
is its involvement in terrorism, as the Chairman has well 
pointed out. The State Department's 1996 Pattern of Global 
Terrorism report noted that Sudan continued to serve as a 
refuge, nexus, and training hub in 1995 for a number of 
international terrorism organizations. As the Chairman has 
already described, the Government continues to harbor members 
of several international terrorist and radical Islamic groups.
    Mr. Chairman, this is not a regime that should be included 
in the community of nations. As Assistant Secretary Moose will 
recall, I first became interested in this particular subject in 
May 1993, during an Africa Subcommittee hearing chaired by then 
chairman of the subcommittee Senator Paul Simon.
    During that hearing, I questioned Secretary Moose regarding 
Khartoum's relationship specifically with Hamas, an all-too-
well-known terrorist organization. Since much of that 
information could not be disclosed in a public forum, I asked 
him to brief me on these connections in private, and I later 
encouraged the administration to take a hard line in its 
efforts to curtail Sudan's involvement and support for 
terrorist activity.
    Shortly thereafter, in August, the President placed Sudan 
on the official list of nations supporting terrorism, and I 
just have to say for myself, Mr. Chairman, that when I asked 
for the administration's response, it was not only adequate it 
was swift, and considering I was the least senior member of the 
entire committee, I was impressed that there was that kind of 
response, and I fully supported this decision, and of course 
continue to support Sudan's inclusion on the list.
    The United States should not tolerate repugnant acts by 
groups or governments, which is why, Mr. Chairman, the Congress 
mandated the so-called terrorist list in the first place.
    So again, I really do commend the Chairman for having a 
significant hearing on this subject, and I look forward to 
listening to the testimony.
    Senator Ashcroft. I want to welcome Senator Grams of 
Minnesota as a member of the committee as well, and thank him 
for being here.
    We are a bit under a time constraint as a result of the 
vote, which delayed our beginning, so I would like to call our 
first witness before the committee.
    Our first witness is United States Congressman Bill 
McCollum from the State of Florida. As I indicated in my 
opening remarks, he has proposed legislation which would 
provide a way to deal with State-sponsored terrorism and States 
that sponsor terrorism.
    He is the author of the measure which was contained in the 
Antiterrorism and Effective Death Penalty Act of 1996. He 
serves in the House as chairman of both the Crime Subcommittee 
and the Intelligence Committee's Subcommittee on Human 
Intelligence Analysis and Counterintelligence, and it is a 
pleasure to welcome him to the committee. Congressman McCollum.

   STATEMENT OF HON. BILL McCOLLUM, U.S. REPRESENTATIVE FROM 
                            FLORIDA

    Mr. McCollum. Thank you very much, Mr. Chairman. It is a 
great pleasure being here with you, and I commend you and 
Senator Feingold and Senator Grams for your effort in working 
with respect to this issue. I think it is extraordinarily 
important.
    With your permission, I would like to ask unanimous consent 
that my entire statement be put in the record. I would like to 
simply summarize so as to save you some time.
    Senator Ashcroft. It will be so ordered.
    Mr. McCollum. I have the privilege, as you have indicated, 
of serving as chairman of two key subcommittees that are 
relevant to this matter in the House, and prior to that I was 
the chairman of the Republican Task Force on Terrorism and 
Unconventional Warfare. Everything you have described today--
through both the video and your statements--with regard to 
Sudan and the terrorist activities is true in spades.
    I became aware of these matters long ago, but frankly the 
issue of what was in section 321 of the antiterrorism bill was 
not something I really focused on until Louis Farakhan went 
over to the Middle East and came back with money from Libya and 
elsewhere, or it looked like he had a deal to do that.
    Some of us began looking into the rules and regulations 
regarding the financial transactions that could be done, and 
discovered that while there were some executive orders 
governing such transactions, they were not comprehensive. As a 
result, this provision was drafted.
    It was drafted with two purposes in mind, (1) prohibiting 
some American citizen from going abroad to obtain 
contributions, but more directly, prohibiting any foreign 
nation that is identified as a terrorist country--one of the 
seven that are out there, not just Sudan--from being able to, 
as the government of that country, contribute money. It would 
be wrong for us to take that money.
    And then the other way around. That is, financial 
transactions between both U.S. citizens and U.S. permanent 
resident aliens and the governments of those foreign countries 
were to be prohibited, and that is what section 321 was all 
about.
    Well, along the way the Treasury Department expressed its 
concern to me that the diplomatic relationships we might have 
could be strained. There were all kinds of possible exceptions, 
all kinds of problems that would be there.
    And since financial transactions are administered by the 
Treasury Department, albeit with some consultation with the 
Secretary of State, the decision was made, because of the 
complexity, or the potential complexity of this, to give them a 
broad basis for regulatory relief with the assumption that the 
Treasury Department would write some regulations that would 
specifically provide for diplomatic opportunities where the law 
would not be that harsh.
    Well, I want to tell you that what came out of the Treasury 
Department's regulations was very, very disappointing, and I am 
going to refer to my statement with regard to this.
    In August of last year, I learned that the Treasury 
Department had published these regulations. To my surprise, I 
discovered that the regulations reversed the effects of the 
prohibitions on the aforementioned financial transactions. 
These regulations permit all financial transactions with Sudan 
and Syria other than those which pose a risk of furthering 
domestic terrorism.
    I must say, so we understand it now, that we have economic 
restrictions against the other five countries officially in 
place but economic restrictions are not officially in place 
against the Sudan or Syria, even though this provision in the 
antiterrorism bill was designed to stop financial transactions 
with all terrorist list countries. So this issue became far 
more important, perhaps, because there were no other economic 
sanctions in place against these two terrorist States.
    At any rate, the regulations that the Treasury Department 
issued prohibit U.S. persons from receiving unlicensed 
donations and from engaging in financial transactions with 
respect to which the United States person knows, or has 
reasonable cause to believe that the financial transaction 
poses a risk of furthering terrorist acts in the United States.
    My cosponsor, Mr. Schumer, recently said that this is a 
loophole big enough to drive a car bomb through. The reality, 
Mr. Chairman, and I think I have got to make this very, very 
clear, was not my intention, nor was it that of Mr. Schumer nor 
anyone else connected with drafting these provisions in the 
antiterrorism bill, that the regulatory authority provided 
should be exercised in this manner.
    If I had known the administration was going to choose to 
render the prohibition meaningless, I would not have agreed to 
the broad authority that was placed there. This business-as-
usual policy represents a step backward in the efforts to 
isolate terrorist States, particularly the terrorist activities 
in the Sudan and Syria.
    So, in my judgment, the regulations could also permit 
transactions with other nations if the current executive order 
should ever be lifted. That is why H.R. 748 was introduced in 
the House and why, I gather, that you are going to consider it 
here in the Senate. It was to close this loophole.
    The bill strips the executive branch of the authority to 
issue regulations exempting transactions from the prohibition. 
It establishes instead a legislative exception only for 
transactions incident to routine diplomatic relations among 
countries. By this, we mean those transactions which arise when 
citizens of this country or representatives of a terrorist 
supporting country travel or engage in activities for 
diplomatic purposes.
    For example, a cab ride from Kennedy Airport to the United 
Nations building would not be included. Similarly, an American 
diplomat traveling to Syria or Sudan on official business could 
perform the financial transactions necessary for that trip.
    Mr. Chairman, I think that is what we intended to begin 
with, but that is not the way the Treasury Department has 
allowed the enactment of section 321 of the antiterrorism bill 
to work. If we are going to isolate these terrorist States, 
section 321 must be enacted as intended.
    Finally, I want to make one last comment. I know there are 
those who believe that the targeted countries--Sudan, in 
particular--are at the point now where they are ripe for 
changing their ways, and there are those who think they have 
already changed; that may be true. I would love to believe that 
those nations will change in the future.
    But I know it was only a few weeks ago that I had a visit 
from the Ambassador from Sudan. We had a long conversation in 
which we discussed a lot of the activities he said they had 
done in Sudan to correct the problems and not allow terrorist 
activities to be done. He encouraged me to be supportive and 
open to the possibility of opening trade and removing the 
restrictions, et cetera.
    Although I cannot reveal all of the details, because I 
serve on the Intelligence Committee, I can tell you that when I 
went back to the Intelligence Committee and asked my 
Intelligence Committee sources about the Ambassador's 
statements, I found that the great majority of them were simply 
unfounded and not true.
    So I am very suspicious when I hear people say that the 
Sudan is ready to cooperate, considering its past history of 
human rights violations as well as terrorist encouragement.
    It is one of those things that I will remain, and I trust 
you will, too, very skeptical of as we listen to those who say 
they have improved the situation.
    That is not to say that we would not like to see the 
targeted nations change in those ways, but the changes need to 
be open, demonstrable, and clearly felt so that we can actually 
see terrorist activities are no longer supported. That is 
simply not the case today, and until that is the case, I would 
certainly urge the enactment of H.R. 748 in the House and your 
companion legislation in the Senate so that we may send it to 
the President, because it needs to be law, Mr. Chairman.
    [The prepared statement of Mr. McCollum follows:]

Prepared Statement of Hon. Bill McCollum, A Representative in Congress 
                              From Florida

    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to appear before you today to discuss this critical issue 
of international terrorism and Sudan. I commend you for taking the time 
to focus on this important matter, and in particular, Mr. Chairman, for 
your leadership in the Senate in shaping U.S. policy toward terrorist 
sponsoring governments.
    I have the privilege of serving in the House as chairman of both 
the crime subcommittee and the Intelligence Committee's Subcommittee on 
Human Intelligence, Analysis and Counterintelligence. These assignments 
have presented me with the opportunity to receive extensive information 
on the nature and extent of the threat posed by international 
terrorism.
    In my view, the forces of militant extremism in the Middle East and 
Africa are among the greatest international dangers currently facing 
America and its vital interests. The deadly threat posed by 
international terrorists must not be underestimated.
    We have all seen the pictures of bloody slaughter caused by these 
violent criminals. Yet, if hatred and coldheartedness were all that 
these killers needed, the world would be even more endangered than it 
already is. But terrorists need more than desire. They need support; 
they need infrastructure. And that's why the presence of terrorist 
supporting countries is so harmful to the world community.
    A handful of pariah States--Cuba, Libya, North Korea, Iran, Iraq, 
Syria and Sudan--have been designated by the State Department, pursuant 
to section 6(j) of the Export Administration Act, as terrorist 
sponsoring countries or ``Terrorism List Governments.'' No one should 
discount the significance of this designation. Without the support of 
these countries, terrorists would literally not have a home, much less 
the active assistance of government officials.
    With regard to Sudan specifically, I would remind the Subcommittee 
of how U.N. Ambassador Bill Richardson described this country only a 
few months ago in connection with his confirmation. He said, ``The 
Sudanese Government destabilizes its neighbors, supports terrorists, 
commits human rights abuses against it own citizens, and pursues civil 
war in the south.'' Clearly, the training and support of terrorists 
occurring in Sudan are major contributors to the untold human suffering 
cause by religious extremists in this region of the world.
    Mr. Chairman, there should be no higher priority for the United 
States in the battle against terrorism than the elimination of foreign 
government support for terrorists. This is why section 321 of the 
Antiterrorism and Effective Death Penalty Act of 1996 is a vital tool 
in this battle.
    The clear and unambiguous language of the statute addresses the 
problem of financial support to terrorist sponsoring countries: Whoever 
. . . knowingly or having reasonable cause to know that a country is 
designated . . . as a country supporting international terrorism, 
engages in a financial transaction with the government of that country, 
shall be fined under this title, imprisoned for not more than 10 years, 
or both. The term ``financial transactions'' is defined very broadly to 
include virtually all transfers of monetary instruments or a thing of 
value.
Section 321 of the Anti-Terrorism Act
    I became aware of the need for legislation in this area last year 
when I learned through news reports that the Rev. Louis Farakhan had 
traveled to Libya, and received a personal pledge of significant 
financial support from Col. Moammar Gadhafi. Like most Americans, I was 
outraged that a well known supporter of terrorism and enemy of the 
United States such as Col. Gadhafi would be able to provide financial 
support to a U.S. citizen.
    After reviewing the relevant statutes and regulations, I learned 
that the principle means for restricting most economic transactions 
with terrorist supporting countries was through executive order, and 
that not all governments known to support terrorists were covered by 
such orders. I therefore concluded that a permanent ban on financial 
transactions between U.S. persons (a term which includes both 
individuals and corporate entities) and countries which support 
terrorism was necessary.
    This ban, which became section 321 of the Antiterrorism Act, was 
offered as an amendment to the bill on the House floor by Congressman 
Charles Schumer, the ranking minority member of the crime subcommittee 
and myself, and it was adopted on a voice vote.
    It was drafted with a dual purpose in mind. First, it prohibits 
financial support from terrorist countries to U.S. persons, thus 
attempting to prevent the long-arm of terrorism from reaching the 
shores of the United States through domestic entities. Second, and more 
broadly, it prohibits all financial transactions by U.S. persons with 
these countries, regardless of where these transactions take place. The 
obvious goal of this language is to cutoff terrorist sponsoring 
governments from the economic benefit of doing business with U.S. 
companies.
    Since five of the seven terrorism list governments are already 
subject to economic sanctions as a result of executive order, the 
immediate impact of the ban related to Sudan and Syria.
    While we were preparing the amendment, we were advised by the 
administration that the broad wording of the prohibition could have 
unintended consequences, particularly in the area of diplomacy. I 
agreed to authorize the Department of the Treasury, in consultation 
with the State Department, to issue regulations which provided some 
exceptions to the ban. We intended these regulations to exclude various 
innocuous transactions that occur in the course of diplomatic 
activities and other related official matters
31 CFR Part 596
    In August of last year, I learned that the Treasury Department had 
published its regulations in relation to section 321. To my great 
disappointment, I discovered that the regulations reversed the effect 
of the new prohibition. These regulations permit all financial 
transactions with Sudan and Syria, other than those which pose a risk 
of furthering domestic terrorism. The regulations prohibit U.S. persons 
from receiving unlicensed donations and from engaging in financial 
transactions with respect to which the United States person knows or 
has reasonable cause to believe that the financial transaction poses a 
risk of furthering terrorist acts in the United States. As my 
cosponsor, Mr. Schumer, recently said, this is a loophole big enough to 
drive a carbomb through it.
    Mr. Chairman, let me make this point as clearly as I can. It was 
not my intention then, nor is it now, that the regulatory authority 
provided in section 321 should be exercised in this manner. Had I known 
that the administration would chose to render the prohibition 
meaningless with its regulations I would not have agreed to give it 
such broad authority. This ``business as usual'' policy represents a 
step backward in the effort to isolate Syria and Sudan. The regulations 
could also permit transactions with the other nations if the current 
executive orders should ever be lifted.
H.R. 748
    I have introduced H.R. 748 along with Mr. Schumer to close this 
loophole and to prohibit transactions other than those that are 
specifically connected to diplomatic activities. The bill strips the 
executive branch of the authority to issue regulations exempting 
transactions from the prohibition. It establishes instead a legislative 
exception only for transactions ``incident to routine diplomatic 
relations among countries.'' By this we mean only those transactions 
which arise when citizens of this country or representatives of a 
terrorist supporting country travel or engage in activities for 
diplomatic purposes. For example, a cab ride from Kennedy airport to 
the United Nations building would not be included. Similarly, an 
American diplomat traveling to Syria on official business would not be 
included. I realize that this legislation could affect many law-abiding 
U.S. companies doing business in the affected countries. Under current 
law, such business may be entirely lawful. But in my view, the only way 
we are going to eliminate the governmental support terrorist 
organizations desperately need, is to take a firm stance against 
economic relationships with these countries.
    Again, I thank the Subcommittee for inviting me to testify on this 
issue, and I look forward to working with you on legislation that will 
deter the spread of terrorism in the world.

    Senator Ashcroft. Thank you, Congressman McCollum. I call 
on Senator Feingold.
    Senator Feingold. I have no questions. I just want to join 
the chairman in welcoming the Representative. I appreciate his 
interest, and I hope we can work together between the two 
Houses to further our concern about Sudan itself and in 
particular Sudan's activities with regard to supporting or 
abetting terrorism.
    Thank you.
    Mr. McCollum. Thank you.
    Senator Ashcroft. Senator Grams.
    Senator Grams. Representative McCollum, what has been the 
administration's reaction to this? Are they supportive of 748?
    Mr. McCollum. No, they are not. I think you will find that 
they believe there should be much more flexibility with this 
legislation. If we can come up with specific exceptions within 
certain bounds I would be open to them, as I think you should 
be, but to say, ``a plague on your house, we do not want this 
kind of restrictive prohibition,'' is not acceptable and that 
is apparently their position.
    You are going to hear from them today, but that is how I 
understand their position.
    Senator Grams. So despite evident concern by the Sudanese 
about lifting some of the restrictions and some of the comments 
they have made, and you have found them not to be completely 
true, if at all, the administration would basically be ignoring 
this?
    Mr. McCollum. Well, at least the arms of the administration 
dealing with this bill are ignoring it. I think that there are 
people in the administration, in the intelligence community, 
and others who could tell me that the Sudanese are not on the 
up and up right now.
    I am also concerned because a lot of businessmen in America 
say, ``hey, we need these financial transactions. We are going 
to be isolated. We are going to be cutoff. We are not going to 
be able to do business. Somebody else is going to do the 
business.''
    I have heard that argument about every time the Congress 
has proposed an economic sanction. There are times when 
economic sanctions are a bad idea, and there are times when 
they are absolutely necessary.
    This is not an economic sanction in the true sense, but it 
is a specific restriction on financial transactions. Some 
American business interests certainly could complain that the 
restriction hurts them, but we have got to do something about 
terrorist States, and there is no other way to do it. If they 
want to do business with us, as some of them profess they want 
to do; then they must change their ways, modify their ways, 
stop their terrorist support.
    But I think the administration is only listening to the 
business community that wants to continue its policies in 
trading with Sudan, or expand its trade with Sudan.
    Senator Grams. Thank you. Thank you, Mr. Chairman.
    Senator Ashcroft. Representative McCollum, your proposed 
legislation, would it stop businesses from doing any business 
in Sudan, or does it stop business from doing business with the 
Sudanese Government?
    Mr. McCollum. With the Sudanese Government, Mr. Chairman. 
It would not prohibit private transactions among private 
citizens. It is strictly with the Government, and it is limited 
to financial transactions with the Government.
    Senator Ashcroft. Is it your intention to continue to make 
it possible for relief organizations in the event of disasters 
or other compelling circumstances or exigencies to be able to 
provide that relief?
    Mr. McCollum. Absolutely. I certainly hope that the 
Sudanese Government would permit humanitarian relief and not 
hide behind this restriction in some manner. Humanitarian aid 
from a relief organization does not require a financial 
transaction with the Sudanese Government. Thus, such relief is 
not automatically restricted by this prohibition.
    Senator Ashcroft. Well, section 321 is originally designed 
to make sure that our transactions there did not result in 
sponsoring or funding or otherwise contributing to a capacity 
to injure us or others in terrorist acts.
    Mr. McCollum. That is exactly correct. The objective of 321 
and the objective of 748 are both the same: To impair the 
Government of the Sudan from furthering terrorism and to 
restrict its financial transactions with United States 
citizens, be it individuals or businesses, that could be in 
furtherance of such terrorism. I do not believe, Mr. Chairman, 
that you can simply narrow that down and say only those 
transactions that pose that risk. Treasury's regulation is just 
too narrow. As Mr. Schumer said, you can drive a car bomb 
through it. You can drive a lot of things through it.
    Senator Ashcroft. Are there any examples of transactions 
which occurred or were discussed or could have occurred during 
the interim which you might point out might have substantially 
benefited or enhanced the capacity of Sudan?
    Mr. McCollum. There was a lot of discussion about an oil 
deal with one of our American companies. I understand that 
there have been those who have back-tracked from the deal 
saying, ``Oh, this really did not or was not going to happen,'' 
but it would have been directly with the Government of Sudan. 
It would have been a new financial transaction with a 
substantial amount of money involved.
    Senator Ashcroft. Hundreds of millions of dollars?
    Mr. McCollum. Hundreds of millions of dollars. However, it 
did not take place.
    Senator Ashcroft. So those are the kinds of things that our 
State Department said would have been justified?
    Mr. McCollum. That is correct, because they said that such 
a deal does not pose a direct threat to terrorism. In other 
words, we cannot say that this deal is directly financing the 
terrorist activity itself.
    Senator Ashcroft. So the charge has been made that the 
Sudanese gave the machine guns to those to assassinate Hosni 
Mubarak in Ethiopia?
    Mr. McCollum. That is correct.
    Senator Ashcroft. And our State Department would have said 
well, that is OK, because buying machine guns for that is not a 
threat to terrorism in the United States?
    Mr. McCollum. I do not know if I would want to go that far, 
but it could be interpreted that way, Mr. Chairman.
    I think that you have got to recognize that there are 
indirect means of supporting terrorism. That is why the 
financial transactions are so important. Why should we, as the 
Government and as citizens of the United States, allow money to 
flow from our country to the Government of Sudan, knowing that 
it could be used to sponsor terrorism? That is really what the 
issue is all about.
    It is not that we want to cutoff the private citizen's 
business deals. However, all money is fungible. So if the 
Sudanese Government gets money from our people, from our 
citizenry, it can use that money for a variety of activities--
including terrorism, and we have no way of knowing which money 
the Government is using for what.
    Senator Ashcroft. If we have no way of knowing where any 
money goes once it goes into their accounts, whether the same 
money comes back out, would that not mean the interpretation 
currently undertaken through the regulations by the 
administration gives section 321 no effect whatever?
    Mr. McCollum. That is right. It just renders it 
meaningless. That is why the bill is so important that you are 
about to sponsor here in the Senate.
    Senator Ashcroft. I thank the Congressman for his good 
work.
    Mr. McCollum. Thank you very much, Mr. Chairman. I 
appreciate it.
    Senator Ashcroft. This morning, Assistant U.S. Attorney 
General Andy Foyce called my office to make a special request 
in regard to this hearing. The Justice Department requested 
that Mr. Charles Maikish, one of our private witnesses, testify 
first because he has to appear in an important trial concerning 
the World Trade Center bombing in New York this afternoon. It 
is not our custom to put private witnesses ahead of individuals 
who represent the State Department, but we felt that in this 
situation, at the request of the Attorney General's Office, it 
would be important to do so.
    I want to thank the members of the State Department for 
their willingness to defer for this one private witness. The 
other private witnesses will testify after the administration 
panel as planned. I apologize for this change in the schedule. 
It is, however, critical to the trial, and it is important to 
accommodate the Attorney General's Office in this respect.
    It is my pleasure now to call Charles Maikish, the former 
building manager of the World Trade Center. He was the building 
manager of the World Trade Center when the bombing occurred.
    I welcome you to this hearing and thank you for your 
willingness to testify.

  STATEMENT OF CHARLES MAIKISH, VICE PRESIDENT FOR FACILITIES 
      MANAGEMENT, COLUMBIA UNIVERSITY, NEW YORK, NEW YORK

    Mr. Maikish. Thank you, Senator. It indeed is a privilege 
and an honor to be able to address this committee on the issue 
of foreign terrorism, having experienced it personally.
    I was the senior executive responsible for the World Trade 
Center Complex in February 1993. Four years ago at 12:18 in the 
afternoon, this country received a rather startling wake-up 
call. For the first time, a major foreign terrorist act was 
committed on U.S. soil, and not only on U.S. soil, but it was 
targeted at the heart of our free economic system.
    At 12:18 that day, on a snowy afternoon, a massive 
explosive device equivalent to 1,500 pounds of explosives was 
detonated below the World Trade Center in the heart of this 
Nation's and the world's financial capital.
    It is clear that the intent of the foreign group was to 
inflict massive loss of human life, and a lasting and permanent 
disruption of our economic system and our way of life. To fully 
appreciate the impact of this act and the threat it still 
poses, I need to set it in a context by describing for you the 
World Trade Center complex, its purpose, its location, and its 
component parts.
    The trade center is located in the heart of Lower Manhattan 
in the world financial district. It is the single largest 
international commercial complex in the world. It is owned and 
operated by the Port Authority of New York and New Jersey as a 
facility for international trade and commerce, and the port 
authority was created by the U.S. Congress 75 years ago.
    It contains seven buildings surrounding a 5-acre plaza on a 
16-acre site. You best know it for its twin towers, which are 
emblematic of New York and this country worldwide. These towers 
rise 1,350 feet in the air, being the second and third tallest 
structures in the world.
    The complex in fact is equivalent to a small or medium-
sized American city. It houses 50,000 workers on any one 
particular day, and it can have as many as 80,000 visitors, for 
a population of about 130,000.
    It contains 12 million square feet of commercial office 
space, the size of downtown Cleveland's commercial office 
district. It has 3 million square feet of space below grade. It 
has a 400,000 square foot shopping center, the equivalent of a 
major shopping center.
    It has three subway lines and the Path Interstate 
Railroads, which stop in it as a major transit hub. It has a 
major ticketing center. It has an 826-room international hotel. 
It has the world-famous observation deck, which is visited by 2 
million international visitors a year, and of course Windows on 
the World, the famous restaurant on top of the other tower.
    It is a major hub for media. It houses the broadcasting 
facilities for the major TV, 22 stations, with the antenna, 
which is the major broadcasting facility for the region in New 
York.
    Below the trade center is its operating guts and parking 
for 2,000 vehicles.
    It has 375 commercial leases and over 1,000 businesses, 
international businesses that engage in trade and commerce on a 
daily basis. To give you some examples, the New York 
Commodities Exchange is located in the trade center. Those are 
the five exchanges that set the market for world oil, the COMEX 
Exchange, the NYNEX Exchange, the exchanges that set the world 
market for precious metals, gold, et cetera, the exchanges that 
set the market for cotton and textiles, and the exchanges that 
set the market for other types of metals and futures.
    It is a banking and international center. Eighty percent of 
all U.S. treasuries are traded or brokered through facilities 
at the World Trade Center.
    It is an international phone exchange, with all of the 
international phone lines and all the phone lines serving the 
financial district going through its bowels. The loss of those 
phone lines would mean a major disruption in world 
communications of financial data. It would also mean, for 
instance, the loss of the three airports because of the air 
traffic control system telecommunications going through that 
facility.
    It represents the home for business and governments from 60 
countries, and State and Government agencies, including U.S. 
Customs, Secret Service, et cetera. The Government of Thailand, 
the Republic of China, the Government of France, et cetera, are 
all located there.
    The bomb was placed at the Trade Center between the two 
towers. I have two graphics here which display this for you. 
The crater itself was absolutely enormous. It was half the size 
of a football field, and what this particular photograph shows 
you is the south wall of the north tower.
    The bomb was placed immediately adjacent to the south wall 
of the north tower, 1,500 pounds of explosives intended by 
those that placed it there to cause the tower to topple. 
Fortunately, they were not successful in their goal of doing 
that.
    As Judge Duffy commented in the sentencing in the first 
trial, they were intending on killing everybody in the complex, 
130,000 people.
    Found within the locker where the explosives were contained 
was also a barrel of cyanide, and there was cyanide missing. 
The speculation was that they tried to lace the bomb with 
cyanide as well to assure the death of the people in the Trade 
Center.
    It resulted in the loss of six lives and one unborn child. 
If they had succeeded they would have killed tens of thousands 
and injured many more.
    More than that, though, it would have been a total 
disruption to our system here in this country and the economic 
loss would have been measured in the billions, not just the 
$600 million that we talk about now, because the businesses and 
the economic activities would have been disrupted for a long 
period of time to come.
    What was and should our response be? The Governor of the 
State of New York when he saw this responded on what does he 
tell the 16 million people in the State of New York as to how 
they continue to go on in the face of this, and he answered his 
own question. He said normalcy was the rule of the day, that we 
needed to establish a normalcy and continue our way of the 
life.
    Mitigation of the act. We brought the Trade Center back in 
3 weeks. We brought its businesses back, we had the Governor 
move back, and businesses continue. We mitigated the economic 
loss and the human tragedy.
    I must commend ATF and the FBI for the work they did in the 
quick investigation, determining who was responsible for this, 
the apprehension, and the quick prosecution and punishment.
    Last, constant vigilance, balancing our need to preserve 
and protect our free society and its personal freedoms and our 
market economy with the measures which are necessary to 
preserve it at its core.
    An example of this is, the Trade Center is no longer an 
open access facility. There is controlled access to the towers. 
We are ringed with very heavy planters to give us a hard core 
exterior. There is no public parking. There is perimeter 
security. There is the use of modern technology to ensure the 
security within the complex, patrols and the use of human labor 
to do that as well.
    We are trying to preserve the sense of free movement and 
avoid the perception of an armed camp. We are trying to stop 
the threat at the perimeter of the Trade Center, rather than 
allowing it in.
    When you visit New York and the World Trade Center, it will 
always be there standing tall for you to see. When you look 
upon it, let it reawaken you to the ever present danger of 
global terrorism.
    Thank you for the opportunity.
    Senator Ashcroft. Thank you, Mr. Maikish, for bringing to 
us your unique perspective on this specific incident and on the 
challenge which we all face.
    I would call on Senator Feingold if he has any questions or 
comments.
    Senator Feingold. I have no questions. I just want to 
express my appreciation for that very vivid account of this 
horror that was perpetrated in our country, and my sympathies 
to you and all the people that were affected by it, and 
obviously we recognize the connection by this hearing between 
what we do internationally and what happens within this 
country. Thank you.
    Senator Ashcroft. Mr. Maikish, I understand that you need 
to leave promptly, so I will just ask one or two questions 
myself.
    I want to clarify what you are saying. What would have been 
the cost in human life and injury if the first tower had 
toppled into the second tower as the terrorists had hoped would 
be the case?
    Mr. Maikish. Literally, tens of thousands of people would 
have been killed in such an event. The towers themselves handle 
about 20,000 in each of the towers, so you had 40,000 I think 
directly vulnerable to the loss of their life. The complex 
itself had 130,000. You would have had severe and extended 
injury to a good portion of that population that was in the 
complex if, in fact, the towers had come down.
    Senator Ashcroft. Do you know if the New York City or other 
authorities have taken steps that you could discuss that would 
help prevent this kind of situation from happening again?
    Mr. Maikish. There are organized steps that have been 
calculated to both receive early warning as well as to secure 
against this type an event. I would rather not discuss the 
particulars.
    Senator Ashcroft. Do you have any idea about whether or not 
the United States should continue to engage in the full range 
of commercial dealings with terrorist governments?
    Mr. Maikish. Senator, my only comment on that is to the 
extent that these activities are well-funded, then our job 
becomes a lot harder in terms of preventing it or stopping it 
at our borders, and it causes us to expand a lot more in 
financial resources and human resources in terms of prevention. 
To the extent that they continue to be funded well, to that 
extent the threat grows.
    Senator Ashcroft. Thank you very much for taking your time 
to be with us, and thank you for going out of order. You are 
not out of order, but----
    Mr. Maikish. Senator, I appreciate the courtesy.
    Senator Ashcroft. Thank you very much, and I wish you a 
safe trip.
    It would be my pleasure now to introduce the panel of 
witnesses from the administration. I call the Hon. George 
Moose, Assistant Secretary of State for Africa, the Hon. Ken 
McKune, Deputy Coordinator for Counterterrorism for the 
Department of State, and R. Rick Newcomb, Director of the 
Office of Foreign Assets Control, Department of Treasury.
    I am grateful for the fact that you all have been willing 
to appear before us today. You have visited with us and 
conferred with us in our offices, and I am eager to have your 
contributions to this subject matter before the committee at 
this time.
    It is my pleasure to call upon Ambassador Moose for remarks 
in the first instance.

STATEMENT OF GEORGE E. MOOSE, ASSISTANT SECRETARY OF STATE FOR 
                             AFRICA

    Ambassador Moose. Thank you very much, Mr. Chairman. I 
welcome this opportunity this morning to appear before the 
subcommittee and to discuss the broad range of our policies and 
concerns with respect to Sudan, and particularly on the issue 
of Sudan's support for international terrorism.
    Mr. Chairman, I have prepared a longer written testimony, 
which I would request be included in the record of the hearing.
    Senator Ashcroft. It will be included in the record, and 
thank you for your willingness to hit the highlights and carry 
us to the most important, salient features of your testimony.
    Ambassador Moose. Thank you, Mr. Chairman.
    If I could briefly summarize the matters of great concern 
to the United States with regard to Sudan. U.S. foreign policy 
objectives with respect to Sudan are clear and unequivocal. 
They are to isolate the Sudanese Government and to contain its 
efforts to sponsor international terrorism and, second, to 
oblige the Sudanese Government to change other unacceptable 
aspects of both its domestic and its international behavior.
    Our ongoing diplomatic contacts with the Sudanese 
Government are aimed at making our serious objections known 
directly to senior levels of the Khartoum Government. Our 
concerns and our responses fall into four broad categories. 
They are terrorism. They are regional destabilization. They are 
human rights. And they are the continuing prosecution of the 
Sudanese civil war.
    With regard to terrorism, Mr. Chairman, the Sudan 
Government continues to support international terrorism, 
primarily in providing a safe haven for terrorist elements. It 
was for that reason that the Clinton administration, in 1993, 
placed Sudan on the list of State sponsors of terrorism. And in 
accordance with that designation, we have applied a range of 
unilateral sanctions to oblige the Sudanese Government to cease 
and desist in its support for terrorism.
    Since 1995, the Sudanese Government has failed to extradite 
to Ethiopia three suspects in the assassination attempt against 
President Mubarak of Egypt. The United States has led the 
efforts in the United Nations Security Council to adopt 
Security Council resolutions. As a result of Sudan's failure to 
comply with those resolutions, particularly Resolution 1044, 
the U.S. Government has reduced the number of Sudanese 
diplomats in this country and restricted their travel within 
the United States. We have imposed a restrictive visa regime 
for the government and military officials. And we are actively 
pursuing continuing efforts in the Security Council to impose 
additional sanctions.
    In the face of this mounting international pressure, Sudan 
has taken some steps to respond to the concerns that we and 
others have raised regarding their involvement in international 
terrorism. Its most significant action was the expulsion of 
exiled Saudi terrorist financier Osama bin Laden, and many of 
his so-called Arab-Afghan followers. However, as others have 
pointed out this morning, Mr. Bin Laden continues to maintain 
links to a number of businesses in Sudan, and he retains ties 
to some leaders of the National Islamic Front.
    Khartoum has also taken steps to tighten its previously lax 
controls on the movements of foreigners into and through its 
territory by establishing visa requirements and other 
restrictions.
    Mr. Chairman, these actions, however, do not constitute an 
adequate or a satisfactory response to the concerns that we and 
others have raised. We consider them largely tactical, and 
Sudan has far to go to meet the concerns that we and others 
have raised with regard to its support for international 
terrorism.
    Our second set of concerns, Mr. Chairman, has to do with 
Sudan's support for groups in the region who actively seek to 
destabilize neighboring countries, particularly, but not 
exclusively, Uganda, Ethiopia and Eritrea. Despite numerous 
regional efforts to promote mediation both within Sudan and 
with its neighbors, Sudan's regional policies have, to date, 
frustrated the efforts to achieve any reasonable accommodation.
    To help these neighboring States contain Sudan-sponsored 
insurgencies, President Clinton, in 1995, authorized the 
transfer of some $15 million in nonlethal defensive military 
assistance to Uganda, Ethiopia and Eritrea. That was in fiscal 
year 1996. And a further transfer of $4.75 million of similar 
equipment is authorized for this fiscal year.
    The aid to date has consisted of such items as boots and 
backpacks, field rations and tents. The first shipments of this 
assistance for Eritrea and Ethiopia arrived in February of this 
year.
    Our third major set of concerns with regard to Sudan has to 
do with Sudan's egregious human rights record. Indeed, Khartoum 
has one of the worst human rights records in the world. It is 
responsible for numerous abuses in both the north and the south 
of the country, and it has allowed the continuing practice of 
slavery in certain parts of the country. The United States has 
taken the lead in the U.N. Human Rights Commission, in the 
General Assembly, in denouncing these human rights violations. 
And we have also mounted a significant effort, in 1996, to gain 
access to Sudan on the part of U.N. human rights rapporteurs, 
whose efforts have helped to uncover and publicize the extent 
of Sudan's human rights abuses.
    Last, Mr. Chairman, we remain deeply concerned by the 
Khartoum Government's continued prosecution of a very costly 
and devastating civil war in the South, rather than seek a just 
solution that recognizes the rights of all of Sudan's citizens. 
The 14-year conflict has taken an estimated 1.5 million lives, 
and generated approximately 2 million internally displaced 
persons. Active northern opposition now to the National Islamic 
Front regime indicates clearly the extent to which Khartoum's 
radical policies have alienated large segments of Sudanese 
society.
    The U.S. Government does not provide any support to any 
party in the civil war. We have, however, supported efforts to 
achieve a negotiated settlement in a manner that recognizes the 
legitimate interests and the rights of all Sudanese, and we do 
seek to mitigate the devastating impact of the civil war on the 
Sudanese people. We are the largest single provider of 
humanitarian assistance to Sudan. Since 1988, we have provided 
more than $600 million in humanitarian assistance, primarily to 
the war-affected people in southern Sudan.
    Mr. Chairman, certain of the abhorrent policies and 
practices are not new or unique to this current Sudanese 
regime, and our approach to Sudan must take into account that 
long history and the root causes of conflict. However, a 
complex reality in no way absolves the current NIF-led regime 
of responsibility for its own actions.
    To date, the Sudanese response to our concerns and the deep 
concerns expressed by others have been inadequate, intended 
primarily to relieve domestic and international pressure, 
rather than to reflect a real reconsideration of policy. Our 
objective remains the same. It is to isolate this regime 
diplomatically and otherwise, and to oblige it to pursue 
policies and actions that will change its unacceptable 
behavior. Failing that, we have made it clear to Sudanese 
authorities that they will face growing international pressure 
and that our own bilateral relationship will continue to 
deteriorate.
    In conclusion, Mr. Chairman, I would just say that when I 
first assumed my responsibilities in 1993, one of the first 
official acts or responsibilities that I was called upon to 
perform was to advise Secretary of State Christopher on the 
question of whether Sudan should be put on the list of State 
sponsors of terrorism. And I recall very clearly my 
conversation with Senator Feingold at that time.
    I will say that there was unanimity within the State 
Department that Sudan fully deserved and merited to be put on 
that list. I cannot speak for others, but certainly in terms of 
my own participation in that decision, there was no need for 
any external pressure or exhortation in order to convince us 
that that was the right and the appropriate decision.
    Since that time, I would simply say, Mr. Chairman, that 
there is no government in the world that has taken a stronger 
stance or applied more specific measures with regard to Sudan's 
behavior generally and specifically with regard to its support 
for international terrorism. Our leadership on this issue has 
been critical not only in terms of our bilateral actions, but 
also in terms of our efforts to mobilize international opinion 
to support broader measures to deal with Sudan's continuing 
support for terrorism.
    Thank you, Mr. Chairman.

    [The prepared statement of Ambassador Moose follows:]

            Prepared Statement of Ambassador George E. Moose

    Mr. Chairman and Members of the Committee:
    I welcome the opportunity to participate in this hearing on U.S. 
counterterrorism policy towards Sudan. My colleague, Acting Coordinator 
for Counterterrorism Ken McKune, will address the particulars of our 
counterterrorism policy. I would like to complement his presentation by 
describing the broader concerns we have with Sudan and the numerous 
actions we have taken in response, including our fight against 
terrorism.
Background
    Sudan is the largest country in Africa, as large as the eastern 
portion of the United States. Its 27 million people belong to numerous 
ethnic and religious groups, many of which fit together uneasily. The 
most distinct division in the country is between a predominantly Arab/
Muslim north and a predominantly non-Arab/non-Muslim south. The desire 
of many southerners for greater autonomy, control of resources, and 
liberation from the imposition of Islamic law lies at the heart of 
Sudan's continuous civil strife. Since independence in 1956, only the 
period between 1972 and 1983 saw a country at peace with itself. We 
estimate that the conflict has taken about one and a half million 
lives. Today there are approximately two million internally displaced 
persons in Sudan, as well as several hundred thousand Sudanese refugees 
living in neighboring States.
    The tragedy of Sudan is compounded by the fact that a potentially 
prosperous nation has failed its own people and contributed negatively 
to the region's welfare. Decades of economic mismanagement have 
resulted in an inflation rate of more than 100 percent and the largest 
arrears to the International Monetary Fund of any country in the world. 
Endowed with the potential to generate food surpluses, poor policies 
and civil war make Sudan a net food importer. The threat Sudan poses to 
its neighbors has forced those countries to divert scarce resources 
from productive to military ends.
Sudan Under the NIF: Fundamental Problem
    Since 1989, when military officers aligned with the National 
Islamic Front (NIF) overthrew Sudan's last democratically-elected 
government, Sudan has implemented a wide range of policies which have 
further alienated it from its citizens and earned it the opprobrium of 
the international community. Our concerns, and our responses, fall into 
four broad categories:
    First, the NIF regime supports international terrorism, primarily 
by providing safe-haven to terrorist elements. We have taken unilateral 
actions and worked through the UN Security Council to mobilize 
international action on this issue.
    Second, Khartoum actively seeks to destabilize its neighbors by 
providing material support and haven for violent insurgent groups. 
President Clinton's response is to provide the neighboring States of 
Uganda, Ethiopia and Eritrea with non-lethal defensive military 
assistance in 1996 and again this fiscal year.
    Third, Khartoum has one of the worst human rights records in the 
world, inflicting numerous abuses in both the north and the south of 
the country and allowing slavery to continue in certain parts of the 
country. The United States has urged Sudan to wipe out slavery and we 
have taken the lead in the UN Human Rights Commission and General 
Assembly denouncing its human rights violations.
    Fourth, the NIF has prosecuted a costly civil war rather than seek 
a just solution that recognizes the rights of all its citizens. In its 
conduct of the war, Sudan also hinders the delivery of humanitarian 
assistance to war-affected civilians. Since 1988 we have provided more 
than $600 million in humanitarian assistance, primarily to the war-
affected people in southern Sudan.
    Certain of these abhorrent policies and practices are not new or 
unique to the current regime, and our approach to Sudan considers the 
root causes of conflict. A complex reality, however, in no way absolves 
the NIF-led government of responsibility for its actions. Our objective 
is to isolate and contain the threat that the NIF regime poses as well 
as to try to compel it to change its unacceptable behavior. Failing 
that, we have made it clear to Sudan that they will face growing 
international pressure, and that our bilateral relationship will 
further deteriorate.
    I now would like to go into greater detail on each of our concerns 
and actions we have taken in response.
Terrorism
    In 1993, the Clinton Administration placed Sudan on the list of 
State sponsors of terrorism and we have applied unilateral sanctions 
consistent with that designation. Sudan was known to provide refuge, 
logistical support such as training facilities, travel documents, and 
weapons to a variety of radical terrorist organizations.
    Since 1995, Sudan has failed to cooperate with the international 
community to help extradite to Ethiopia three suspects in the 
assassination attempt in Addis Ababa against Egyptian President Hosni 
Mubarak. After demands from the organization of African Unity (OAU) 
that Sudan facilitate their extradition to Ethiopia went unheeded, the 
U.S. played a leading role last year in the adoption of three U.N. 
Security Council resolutions. Resolution 1044 required that Sudan act 
``to extradite to Ethiopia for prosecution'' the three suspects and 
that it ``desist'' from ``activities of assisting, supporting and 
facilitating terrorist activities and from giving shelter or sanctuary 
to terrorist elements.'' The United States emphasized at the time that 
we would consider Sudan responsible for extradition of the suspects 
even if they allowed them to leave the country, as may now have 
occurred.
    As a result of Sudan's failure to comply with Resolution 1044, the 
Council considered and adopted Resolution 1054, calling on member 
States to adopt travel restrictions on Sudanese government officials, 
and Resolution 1070, which conceived of a ban on flights by Sudanese 
Government-controlled aircraft. The United States Government reduced 
the number of Sudanese diplomats in this country, restricted their 
travel here, and imposed a restrictive visa regime for government and 
military officials.
    In the face of mounting international pressure, Sudan has taken 
some steps to respond to concerns about its involvement in 
international terrorism. Its most significant action was the expulsion 
of exiled Saudi terrorist financier Osama bin Laden and many of his so-
called ``Arab Afghan'' followers. However, bin Laden remains linked to 
a number of businesses in Sudan and retains ties to some NIF leaders. 
Khartoum also took steps to tighten what has been an extremely porous 
border, establishing new visa requirements to control foreign travel 
into and out of the country. However, we consider these largely 
tactical steps. Sudan has far to go to meet our concern that it cease 
its support for international terrorism.
Regional Stability
    A central U.S. objective is that Sudan end its sponsorship of 
insurgent groups which seek to destabilize the neighboring countries of 
Uganda, Ethiopia, and Eritrea. Despite regional efforts to promote 
mediation, both within Sudan and with its neighbors, Sudan's regional 
policies have to date frustrated efforts to achieve a reasonable 
accommodation.
    To help these neighboring countries contain Sudanese-sponsored 
insurgencies, in late 1995, President Clinton authorized the transfer 
of $15 million in non-lethal defensive military assistance to these 
countries for FY96. A transfer of $4.75 million of such equipment is 
taking place this fiscal year. The aid to date has consisted of boots, 
backpacks, field radios, and tents. The first shipments of this 
assistance for Eritrea and Ethiopia arrived in February 1997.
Human Rights
    In April, the United States and other members of the UN Human 
Rights Commission passed a consensus resolution expressing ``deep 
concern at continued serious human rights violations by the Government 
of Sudan.'' The Resolution identified a litany of ongoing abuses by the 
government, including ``extrajudicial killings, arbitrary arrests, 
detentions without due process, enforced or involuntary disappearances, 
violations of the rights of women and children, slavery and slavery-
like practices, forced displacement of persons and systematic torture, 
and denial of the freedoms of religion, expression, association and 
peaceful assembly.'' The Commission expressed ``serious concern'' over 
reports of ``religious persecution, including forced conversion of 
Christians and animists, in government controlled areas.''
    Last year, we succeeded, through the actions of the Human Rights 
Commission, in getting Sudan to readmit the UN Special Rapporteur for 
Human Rights in Sudan. As a consequence, the Special Rapporteur was 
able to produce important information on ongoing abuses in Sudan that 
contributed to the international consensus on Sudan's record.
Civil War and National Reconciliation
    Key southern and northern opposition forces have recently formed 
the National Democratic Alliance (NDA). Their avowed aim is to oust the 
NIF from power. This is an important development in Sudan's civil war 
which has historically been a struggle by southern Sudan's socially 
distinct, non-Arab population against what they see as northern 
government policies of ``Arabization,'' ``Islamicization,'' and 
political exclusion. Active northern opposition to the NIF regime 
indicates the extent to which its radical policies have alienated large 
segments of Sudanese society. Rebel forces recently engaged and 
defeated GOS forces in several areas of southern and eastern Sudan 
separated by hundreds of miles.
    The U.S. Government does not provide any support to any party to 
the civil war. We have supported efforts to achieve a negotiated 
settlement in a manner that recognizes the legitimate interests and 
rights of all Sudanese. We do seek to mitigate the devastating impact 
of civil war on the Sudanese people and are the largest provider of 
humanitarian aid to Sudan. We continue to protest frequent Sudanese 
bans on the type and destination of relief aircraft, based on 
allegations, which we consider unfounded, that the assistance will go 
directly to rebel groups.
    I would like to note here that we remain very skeptical that 
movement towards resolving the civil war will emerge from a Peace 
Agreement signed on April 21 between the Government and a number of the 
smaller rebel groups. Although the Agreement contained a positive step 
in its recognition of Sudan's multi-racial, -ethnic, and -religious 
nature, it did not spell out how and to what extent these rights would 
be respected in the context of the current NIF policies and practices. 
The GOS professions of a desire to negotiate, moreover, must be viewed 
against the backdrop of repeated, failed mediation efforts. As in the 
past, the most important elements of the opposition, in this case the 
NDA, have not been persuaded that the process or the Agreement itself 
will satisfy their legitimate interests.
    I would also like to mention President Carter's trip to the region 
last month. President Carter undertook this mission in his capacity as 
a private citizen, and his efforts carried no official U.S. Government 
sanction. At the same time, we welcome his interest in Sudan's 
continuing conflict and his efforts to promote a just solution. The 
insights he gained during his travel have been considered with interest 
by the Secretary.
The Importance of a Comprehensive Domestic Peace
    The U.S. Government believes that the NIF government is fully 
culpable for the abuses it has inflicted on its people, the aggressive 
acts it has committed toward neighbors, and the support it has given 
international terrorism. We believe that it can and must cease these 
activities.
    It may be, however, that the radicalism of the current regime will 
continue as long as the NIF-controlled government represents an 
embattled and narrowly based segment of society. A just resolution of 
Sudan's internal conflict--one that gives a voice in government to more 
moderate elements in the north and to the major political and ethnic 
forces in the south--would thus do much to eliminate the sources of 
Sudan's unacceptable domestic and international behavior. For this 
reason, our own contribution to regional and international efforts to 
resolve Sudan's civil war can contribute to the achievement of our 
other goals vis-a-vis Sudan as well.
U.S.
    U.S. objectives are clear and unequivocal: to isolate Sudan and to 
contain its support for insurgents and terrorists and to oblige the 
Sudanese Government, by exacting a price for unacceptable behavior, to 
change its domestic and international conduct.
    Our ongoing diplomatic contacts with Sudanese officials are aimed 
at making our serious objections known directly to senior levels in 
Khartoum. As the Secretary said in another context, ``engagement does 
not mean acceptance.''
    Ambassador Carney and others have expressed our concerns in detail 
to the Government of Sudan. To date, the Sudanese responses have been 
inadequate and appear to have been largely tactical, intended primarily 
to relieve domestic and international pressure rather than to reflect a 
real reconsideration of policy.
    The international community has made it clear that it will not 
accept cosmetic changes from Khartoum and will insist on real 
improvement in Sudan's domestic and international behavior. It remains 
our hope that Sudan, in the face of this pressure, will recognize the 
need to make such a fundamental change. Failing such a change, as I 
said earlier, we have made it clear to the Government of Sudan that 
they will face growing international pressure and that our bilateral 
relationship will further deteriorate.

    Senator Ashcroft. Thank you.
    I would now call upon the Hon. Kenneth R. McKune, who is 
the Associate Coordinator for Counterterrorism in the 
Department of State. Thank you very much, Mr. McKune.

    STATEMENT OF KENNETH R. MCKUNE, ACTING COORDINATOR FOR 
             COUNTERTERRORISM, DEPARTMENT OF STATE

    Mr. McKune. Mr. Chairman, Senator Feingold, thank you for 
this opportunity to testify today on our counterterrorism 
policy toward Sudan.
    I have submitted a longer statement for the record. I will 
summarize the policy and the Sudanese parts and leave off the 
sanctions.
    Senator Ashcroft. It is a pleasure to assure you that it 
will be made a part of the record, and to welcome your remarks 
highlighting the testimony.
    Mr. McKune. Thank you.
    Before commenting on Sudan specifically, I would like to 
briefly provide the context by outlining several key elements 
of our overall counterterrorism policy. They apply to Sudan and 
to other countries on the terrorism list and to individual 
terrorists.
    First, a fundamental principle of U.S. policy is to make no 
concessions to terrorists. We have a longstanding policy of not 
giving in to terrorists' demands and not making concessions 
that would reward terrorist actions, including payment of 
ransom for hostages. Of course, we will use every appropriate 
resource to gain the safe return of American citizens held 
hostage, but without making concessions.
    These principles have guided our counterterrorism policy 
and actions for many years. We urge other governments to follow 
these principles, and we apply them in practice.
    Second, we treat terrorists as criminals, consider their 
acts of violence as crimes, and make every effort to apprehend 
international terrorists who attack U.S. citizens or interests, 
so that they are prosecuted according to the rule of law.
    Third, regarding countries that support terrorists, we seek 
to bring pressure on them to end their assistance by imposing a 
variety of economic, diplomatic and political sanctions. Sudan 
was brought under this sanctions regime in August 1993, when 
the Secretary of State formally designated it as a country that 
has repeatedly provided support to groups engaged in acts of 
international terrorism. Sudan thus joined six countries 
already on the list: Iran, Iraq, Libya, Syria, North Korea, and 
Cuba.
    Sudan was designated under section 6(j) of the Export 
Administration Act and related foreign assistance and arms 
control legislation, because it provided--and continues to 
provide--safe haven to terrorist groups, training facilities 
and a transit point for these groups. Although we do not have 
information that Sudan provides the level and type of 
assistance and active support for specific operations as do 
some countries on the State sponsors list, the type of 
hospitality Sudan grants to terrorist groups makes it easier 
for them to maintain their viability, train and to carry out 
terrorist actions, such as the June 1995 attack by Al-Gama'at 
al-Islamiyya against President Mubarak in Addis Ababa.
    Sudan harbors a number of terrorist groups. They include an 
old line secular group, the Abu Nidal organization, but most of 
them are militant Islamic extremist organizations. Among them 
are Hamas, Hezbollah, the Palestinian Islamic Jihad, and Al-
Gama'at al-Islamiyya. The Sudanese Government also supports 
Islamic and non-Islamic opposition groups in Algeria, Uganda, 
Tunisia, Ethiopia, and Eritrea.
    Sudan did take a positive step last year by expelling ex-
Saudi financier Osama bin Laden and expelling members of some 
terrorist groups. However, Sudan has yet to comply with U.N. 
Security Council Resolutions 1044, 1054 and 1070, which call on 
Sudan to extradite to Ethiopia the three suspects in the June 
1995 assassination attempt against President Mubarak, and to 
end its support for terrorism. Sudan has not cutoff its support 
for terrorist organizations that continue to have a presence 
there.
    The United States has the most stringent set of laws of any 
country in imposing trade and other sanctions against State 
sponsors of international terrorism. There are more than a 
dozen such measures imposed against the seven countries 
designated by the Secretary as State sponsors, including Sudan.
    And here I will skip over the portion about the sanctions 
and just conclude by saying that the United States believes 
that the Government of Sudan, which is dominated by the 
National Islamic Front, has not taken sufficient steps to stop 
its support for terrorist extremist groups or expel them from 
its territory. Until Sudan ends such support, it will remain on 
our State sponsors of terrorism list.
    Mr. Chairman, that concludes my statement. Thank you.
    [The prepared statement of Mr. McKune follows]

                Prepared Statement of Kenneth R. McKune

    Mr. Chairman:
    Thank you for the opportunity to testify today on our 
counterterrorism policy toward Sudan.
    Before commenting on Sudan specifically, I would like to briefly 
provide a context by outlining several key elements of our overall 
counterterrorism policy. They apply to Sudan and other countries on the 
terrorism list, and to individual terrorists.
    First, a fundamental principle of U.S. policy is to make no 
concessions to terrorists. We have a long standing policy of not giving 
in to terrorists' demands, and not making concessions that would reward 
terrorist actions, including payment of ransom for hostages. Of course 
we will use every appropriate resource to gain the safe return of 
American citizens held hostage, but without making concessions.
    These principles have guided our counterterrorism policy and 
actions for many years. We urge other governments to follow these 
principles, and we apply them in practice.
    Second, we treat terrorists as criminals, consider their acts of 
violence as crimes, and make every effort to apprehend international 
terrorists who attack U.S. citizens or interests so that they are 
prosecuted according to the rule of law.
    Third, regarding countries that support terrorists, we seek to 
bring pressure on them to end their assistance by imposing a variety of 
economic, diplomatic and political sanctions.
    Sudan was brought under this sanctions regime in August, 1993, when 
the Secretary of State formally designated it as a country that has 
repeatedly provided support to groups engaged in acts of international 
terrorism. Sudan thus joined six countries already on the list: Iran, 
Iraq, Libya, Syria, North Korea and Cuba.
    Sudan was designated under section 6(j) of the Export 
Administration Act and related Foreign Assistance and Arms Control 
legislation because it provided--and continues to provide--safe haven 
to terrorist groups, training facilities, and a transit point for these 
groups. Although we do not have information that Sudan provides the 
level and type of assistance and active support for specific operations 
as so some countries on the State sponsor list, the type of hospitality 
Sudan grants to terrorist groups makes it easier for them to maintain 
their viability, to train and to carry out terrorist actions--such as 
the June 1995 attack by Al-Gama'at al-Islamiyya against President 
Mubarak in Addis Ababa.
    Sudan harbors a number of terrorist groups. They include an ``old 
line'' secular group, the Abu Nidal Organization, but most of them are 
militant Islamic extremist organizations. Among them are: HAMAS, the 
Lebanese Hizballah, the Palestinian Islamic Jihad (PIJ) and Egypt's Al-
Gama'at al-Islamiyya. The Sudanese government also supports Islamic and 
non-Islamic opposition groups in Algeria, Uganda, Tunisia, Ethiopia and 
Eritrea.
    Sudan did take a positive step last year by expelling ex-Saudi 
financier Osama bin Laden and expelling members of some terrorist 
groups. However, Sudan has yet to comply with the UN Security Council 
Resolutions 1044, 1054 and 1070 which call on Sudan to extradite to 
Ethiopia the three suspects in the June 1995 assassination attempt 
against Egyptian President Mubarak and end its support for terrorism. 
Sudan has not cut off its support for terrorist organizations that 
continue to have a presence there.
    The United States has the most stringent set of laws of any country 
in imposing trade and other sanctions against State sponsors of 
international terrorism. There are more than a dozen such measures 
imposed against the seven countries designated by the Secretary as 
State sponsors, including Sudan.
    These measures include the Export Administration Act, which curbs 
the sale of dual-use items that could enhance a designated country's 
military capability or its ability to support acts of terrorism, as 
well as provisions prohibiting economic assistance, export of military 
equipment, and GSP trade treatment.
    Furthermore, as noted on U.S. income tax forms, U.S. individuals 
and companies are denied any foreign income tax credits for doing 
business in terrorist list countries. Judging by the inquiries we 
receive from companies and law firms in the course of a year, this 
seems to be a considerable disincentive to establishing a business 
relationship with a country, such as Sudan, that has only a minimal 
trade with the United States, about $30 million, each way.
    Other sanctions which apply to Sudan and the other terrorist list 
governments include using our voice and vote against loans or grants by 
international financial institutions. In addition, U.S. laws also 
prohibit American economic assistance to governments that provide 
economic aid or lethal military equipment to Sudan and other 
governments on the terrorism list. We have been monitoring whether 
there is any such assistance to Sudan and if we find such cases we will 
take appropriate action.
    These measures are aimed at the potential pressure points of State 
supporters of terrorism: foreign assistance, international loans and 
items which might have military use. The combined weight of these 
measures imposes severe limits on the U.S. relationship with Sudan and 
are designed to persuade Sudan to change its behavior in supporting 
terrorists. Already our trade relationship with Sudan is relatively 
minor; we mainly import gum arabic, which is used to provide the 
backing for stamps and post-it notes.
    With these economic sanctions as a background, we have continued 
our efforts to put political and other pressures on Sudan. One arena, 
as I mentioned, is in the United Nations. But we also work bilaterally, 
both in our contacts with Sudan and with other governments that have 
relations with Sudan, to persuade the Sudanese leadership to end their 
support for terrorism.
    The United States believes that the Government of Sudan, which is 
dominated by the National Islamic Front (NIF), has not taken sufficient 
steps to stop its support for terrorist extremist groups or expel them 
from its territory. Until Sudan ends such support, it will remain on 
our State sponsors of terrorism list.
    Mr. Chairman, at this point, that concludes my overview and I would 
be pleased to answer any questions you may have.

    Senator Ashcroft. Thank you, Mr. McKune.
    I now call on Mr. Newcomb.
    Mr. Newcomb is the Director of the Office of Foreign Assets 
Control in the Department of the Treasury.
    Mr. Newcomb.

 STATEMENT OF R. RICHARD NEWCOMB, DIRECTOR, OFFICE OF FOREIGN 
           ASSETS CONTROL, DEPARTMENT OF THE TREASURY

    Mr. Newcomb. Thank you, Mr. Chairman, Senator Feingold. 
Thank you for inviting me to testify in your hearing today.
    The Office of Foreign Assets Control administers economic 
sanctions and embargo programs against targeted foreign 
countries or groups to further U.S. foreign policy and national 
security objectives. In administering these programs, Foreign 
Assets Control generally relies upon Presidential authority 
contained in the Trading with the Enemy Act or the 
International Emergency Economic Powers Act or upon specific 
legislation to prohibit or regulate commercial financial 
transactions with specific countries or groups.
    Examples of our current Trading with the Enemy Act programs 
include comprehensive asset freezes and trade embargoes against 
North Korea and Cuba. Examples of our current IEEPA programs 
include similarly broad sanctions against Libya, Iraq, the Cali 
cartel in Colombia, and certain terrorist groups, as well as 
comprehensive trade sanctions against Iran.
    Alternatively, sanctions may be imposed by Congress 
directly through legislation. Administration of sanctions 
within the executive branch in these cases is usually delegated 
to the relevant enforcement agency, depending on the nature of 
the restrictions. Between 1986 and 1991, for example, OFAC 
administered the trade and investment prohibitions against 
South Africa, mandated by the Comprehensive Anti-Apartheid Act. 
Similarly, Foreign Assets Control has been delegated 
administration of section 321 of the Anti-terrorism and 
Effective Death Penalty Act, which was signed into law by 
President Clinton on April 24th of last year.
    Section 321 of the Act prohibits financial transactions by 
United States persons with the governments of terrorist-
supporting nations designated under 6(j) of the Export 
Administration Act. Effective August 22nd of last year, except 
as provided in regulations issued by the Treasury Department, 
which were issued in consultation with the Secretary of State, 
the Act prohibited financial transactions of U.S. persons with 
North Korea, Cuba, Iran, Libya, Iraq, Syria, and Sudan. All but 
Syria and Sudan were the subject of existing comprehensive 
financial and trade embargoes at the time of enactment.
    In accordance with foreign policy guidance provided to 
Treasury by State, existing sanctions programs against North 
Korea, Cuba, Iran, Libya, and Iraq were continued without 
change. This permitted the specific policies developed over 
time with respect to each of these countries to remain in 
effect, including the exceptions to each embargo dictated by 
unique humanitarian, diplomatic, news gathering, intellectual 
property, and other concerns that we have had in the life of 
these programs.
    New regulations, known as the Terrorist List Government 
Sanctions Regulations, were issued to impose the prohibitions 
on financial transactions with regard to Syria and Sudan. The 
new regulations, drafted in accordance with foreign policy 
guidance provided by the State Department, authorized financial 
transactions with the Governments of Syria and Sudan except for 
transfers from these governments in the form of donations and 
transfers with respect to which a U.S. person knows or has a 
reasonable cause to believe that the financial transaction 
poses a risk of furthering terrorist acts in the United States. 
Regulations are consistent with the legislative history of 
section 321 of the Act.
    From a sanctions enforcement perspective, the Act and 
implementing regulations are important, because they provide 
the Office of Foreign Assets Control comprehensive jurisdiction 
over all financial transactions between U.S. persons and the 
Governments of Syria and Sudan. We now have authority, for the 
first time, to act to stop or impede any particular suspicious 
transfer to or from these governments by informing U.S. persons 
handling the transfer that a reasonable cause exists to believe 
that the transaction may pose a risk of furthering terrorist 
activity in the United States or any other questionable 
activity inconsistent with the Act's anti-terrorist purpose.
    We believe the Act's authority provides a significant new 
tool in the war against terrorist funding.
    Thank you. I am pleased to take any questions you may have.
    Senator Ashcroft. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    I have a number of questions, and let me begin with a few 
for Mr. Moose. Do you think the regulations developed for 
section 321 accurately reflected United States policy toward 
Sudan at the time they were promulgated?
    Ambassador Moose. I do, Senator. And, again, I think the 
issue at the time was whether the legislation required the 
administration to take additional measures with respect to 
Sudan. The people who were involved in making that 
determination, the lawyers, particularly at the State 
Department and the Department of the Treasury, were very 
closely involved and followed very closely the consideration of 
the legislation at the time and, indeed, provided our views 
about the legislation.
    It was their considered judgment that the regulations 
issued by the administration were consistent with the 
legislative history and the legislative intent.
    Senator Feingold. Let me just follow on that and just ask 
more generally if the United States considers Sudan to be a 
rogue State, why should commercial transactions be allowed to 
take place at all?
    Ambassador Moose. Senator Feingold, we are obliged, I 
think, as we can do our work in all of these areas, to make 
distinctions, and sometimes fine distinctions. As my colleague, 
Mr. McKune, pointed out, Sudan is certainly an egregious 
violator of a number of international norms, certainly with 
respect to its support for international terrorism. And it was 
for that reason that this administration took the initiative of 
placing Sudan on the list of State sponsors.
    We have significant evidence of Sudan's direct support for 
groups that are involved in terrorism. In the case of others 
that are on that list, we have evidence that goes beyond that--
evidence of their actual direction, organization and targeting 
of terrorist activities.
    Our objective must always be, it seems to me, to take those 
actions, those measures which we believe have a chance of 
changing the behavior, the conduct of States like Sudan. In the 
case of Sudan, one would say that there is at least evidence 
that they are not immune, not insensitive to the kinds of 
pressures that we have been able to mobilize, both unilaterally 
and multilaterally.
    At the same time, we have made it quite clear that if 
Sudan's actions persist, if its attitudes and its behavior 
persist, we are quite prepared to consider tougher measures, 
both unilaterally and multilaterally. We would much prefer, 
frankly, to try to mobilize international support, because our 
experience has been we really want to have an impact, and that 
impact is likely to be greater if we can organize others to 
join us in taking those kinds of actions.
    But I think that we have tried to pursue a tough but 
calibrated--if you will, graduated--policy with respect to 
Sudan, with the objective of trying, to the best of our 
ability, to persuade this government to cease and desist its 
acts and actions in support of international terrorism.
    Senator Feingold. Thank you. I will have a question near 
the end of my questioning, again, on 321. But let me ask you a 
few questions about the situation in Sudan itself for a minute 
for background.
    I understand on April 21, a so-called peace agreement was 
signed between Khartoum and some of the smaller rebel groups. 
The Sudan People's Liberation Army did not participate in the 
agreement. What do you make of this agreement, first? Is there 
anything new or significant here?
    Ambassador Moose. Frankly, we are intensely skeptical about 
the seriousness of the Government of Sudan's intentions here to 
seek a genuine political solution to the conflict. We have 
seen, unfortunately, other situations in which the Khartoum 
Government has sought to engage in half measures, if you will, 
efforts, not with a serious intent of reaching a settlement, 
but, frankly, with the intent of deflecting both domestic and 
international pressure.
    Our concern about this most recent agreement is exactly 
that. That concern is heightened by the fact that the 
Government has not seriously engaged either the principal 
southern opposition group, the SPLA, nor the broadly based 
National Democratic Alliance, which is an alliance of both 
northern and southern groups. The exclusion of those groups 
from participation in this so-called peace agreement raises in 
our minds very serious doubts about its viability and about the 
intent of the Sudan Government.
    Senator Feingold. Is there anything in that agreement, 
whether it be lip service or not, that reflects an intention to 
allow non-Muslims to be able to be free to practice their own 
religion?
    Ambassador Moose. There is in that agreement, I think, an 
important statement of principle that says that the Government 
would respect the rights of people throughout the country to a 
certain degree of autonomy with regard to, for example, 
religious freedom, et cetera. Again, I would say that we need 
to look at that against the backdrop of the specific actions 
the Government has taken in the past and the lack thus far of 
any practical implementation of those principles.
    Senator Feingold. But you cannot point to any particular 
actions following up on that?
    Ambassador Moose. As of this stage, no, we cannot, Senator.
    Senator Feingold. Could you speculate for a minute, Mr. 
Moose, about what would happen if the NIF-led Government were 
to fall sometime soon? What would be your analysis about what 
would happen in Sudan?
    Ambassador Moose. Senator, I really do hesitate to 
speculate on that. I would say that there is nothing in our 
current assessment of the situation which leads us to conclude 
that such an event is imminent. On the other hand, we have made 
it quite clear, in both our public pronouncements and our later 
actions with the Government, our belief that they need to take 
actions, not only with respect to the south of Sudan but to the 
north, that would accommodate the legitimate concerns, 
grievances of the citizens of Sudan. Whether in fact this 
current regime could do so and still survive is, I think, a 
very good question.
    Senator Feingold. One more question for you at this moment 
just having to do with our diplomatic relationships there. The 
United States pulled its embassy staff out of Khartoum early in 
1996 and moved some of its embassy's operation to Nairobi 
because of security concerns. What is the current status of the 
embassy, and under what circumstances would we reopen the 
embassy?
    Ambassador Moose. We did indeed, Senator Feingold, suspend 
our presence in Khartoum in early 1996 precisely because of 
concerns about threats to the security of our people at the 
embassy and our mission. Part of that concern, frankly, was the 
continued presence in Sudan of representatives of the terrorist 
groups that we have mentioned to you today. The question about 
when and under what circumstances we might resume our presence 
I think is a broad question that relates not only to security 
but also to policy. And it is something, I think, that our new 
Secretary of State will have to decide in the context of our 
overall relationship and its evolution in Sudan.
    Senator Feingold. Thank you, Mr. Moose. I will come back to 
you in a moment.
    Now, just briefly, Mr. McKune, to review, there are 
currently seven countries on the terrorist list: Cuba, Iran, 
Iraq, Libya, North Korea, Sudan, and Syria. Can you review with 
us again which sanctions are immediately applied upon 
designation of these countries on that list, and in the context 
of that designation, are all seven countries treated the same? 
I think we know the answer pretty well, but I would like to 
just make that clear on the record.
    Mr. McKune. The Export Administration Act curbs the sale of 
dual-use items that could enhance a designated country's 
military capability or its abilities to support acts of 
terrorism, as well as provisions prohibiting economic 
assistance, export of military equipment and GSP trade 
treatment. On our U.S. income tax forms, U.S. individuals and 
companies are denied any foreign income tax credits for doing 
business in terrorist list countries.
    We have sanctions against Sudan and other terrorist list 
governments, including using our voice and vote against loans 
or grants by international financial institutions. We are 
prohibited from providing American economic assistance to 
governments that provide economic aid or lethal military 
equipment to designated State sponsors. That is the character 
of our sanctions against all State sponsors.
    Senator Feingold. Prior to the passage of the Anti-
Terrorism Act, what other laws imposed sanctions on these 
groups of countries? And, in particular, was there a 
distinction made with regard to Sudan and Syria from the rest 
of the group in any of those circumstances?
    Mr. McKune. Senator, my understanding of the distinction is 
that it evolved because different countries were put on the 
list at different times, under differing circumstances, and 
legislation in effect, such as the Trading With the Enemy Act, 
at those times varied. It is a historical fact. That is 
essentially what it is.
    There is also, apart from the historical fact, if you look 
at the question of Sudan, the character of the reasons why it 
was designated as a State sponsor, that is, the support it gave 
to terrorist organizations. If you compare that to why Iran is 
on the list, the evidence we have against Libyan support for 
terrorism against U.S. interests, what evidence we have against 
Iraq for its support of terrorism against U.S. interests, you 
make that kind of close look at the evidence we have, there is 
a different kind of evidence, if you will. They are all State 
sponsors. We condemn them all. That is why they are on the 
list.
    It is a grave judgment, and we take it very seriously and 
we follow it up very seriously. But there is not the same kind 
of evidence, as I said in my statement, we have regarding 
direct Sudanese Government activity and sponsorship of 
terrorism, that we have against the countries I mentioned.
    Senator Feingold. All right. Just a question in terms of 
the way in which the designation as a terrorist country is 
used, Mr. McKune. Has the administration ever used the 
possibility of getting taken off the list as a diplomatic 
carrot?
    Mr. McKune. We have discussed with the Sudanese and with 
other governments on the list from time to time what is 
necessary to get off the list, how you are removed, how these 
sanctions are removed. The Sudanese, at various times, in our 
discussions with them, in which we have pressed them very hard 
about this, have expressed some interest in knowing what is 
necessary to do. I believe this may be part of the reason that 
they have taken some tactical steps. But we have not been 
satisfied.
    Senator Feingold. Let me just confirm with Mr. Moose; that 
is the case that this is used sometimes as a potential carrot?
    Ambassador Moose. Well, very definitely. I recall, Senator 
Feingold, that even before the final designation was made, we 
had numerous conversations with the Sudanese Government and 
their authorities, which signaled the fact that we were 
intending to put them on the list.
    Senator Feingold. Prior to the designation?
    Ambassador Moose. Prior to the designation. Because of 
their failure to respond to our repeated expressions of concern 
about their practices. In essence, giving them an opportunity, 
should they have chosen that opportunity, to signal to us that 
they were intent on changing practices and policies that would 
have kept them off the list.
    Since then, we have indeed--they have, as Mr. McKune has 
said, actually asked us, sought our advice as to what it would 
take to get them off the list. We have been quite clear about 
what our expectations are. And as Mr. McKune has said, we have 
also been quite clear that the steps that they have taken to 
date do not satisfy us with regard to the fundamental concern 
of their support for terrorism.
    Senator Feingold. I am beginning to wind up, Mr. Chairman. 
Thank you for your generous time on this.
    Let me just ask Mr. Newcomb, in the process of developing 
the regulations for section 321, what type of contact did your 
office have with congressional offices?
    Mr. Newcomb. As in this program and other programs, we 
worked closely with the State Department for foreign policy 
guidance. We are the implementing office. With regard to the 
contact with the Hill, we relied on the contact that the State 
Department had made with the relevant Hill offices as far as 
what was in the legislation and the legislative history.
    I will say, we met on numerous occasions and exchanged 
correspondence on the various issues involved in the 
implementation of the legislation.
    Senator Feingold. So substantial contacts?
    Mr. Newcomb. We met three, four, five times, yes.
    Senator Feingold. Did any of the congressional offices 
contact you after the regulations were printed in the Federal 
Register?
    Mr. Newcomb. I can speak for myself, and they have not 
contacted me. I believe that contacts were made with my office, 
but I can certainly go back and check that and get something 
for you for the record.
    Senator Feingold. I would appreciate that.
    Mr. Newcomb. OK, Senator.
    [The information referred to follows:]

    Mr. Newcomb. A check with my staff revealed that about a 
dozen calls came into this office requesting general 
information on the regulations and how they might affect 
Americans doing business in the Sudan.

    Senator Feingold. Mr. Moose, is there evidence of Sudanese 
involvement in the current conflict in Zaire?
    Ambassador Moose. Senator, no, I cannot think of any 
evidence offhand that would tie Sudan directly to the current 
conflict in Zaire. The one exception I would make is that it 
was known for some time before October or November of last year 
that Sudan was supporting Ugandan insurgent groups, which were 
operating from Zairian territory--operating from that 
territory, essentially because the Zairian Government either 
could not or would not exercise control over those groups.
    So, to that extent, I think some of the actions that we 
have seen by States like Uganda and Rwanda has been partly 
motivated by their concern about threats posed to them from 
Sudanese supported operations emanating from Zaire.
    Senator Feingold. Are you concerned at all about the role 
Khartoum may play with respect to whatever post-Mobutu 
government emerges from the current conflict in Zaire?
    Ambassador Moose. We are concerned about a great many 
things with respect to Zaire. But, at the moment, again, I 
would say we have no evidence that the Sudanese are seeking to 
exert a particular influence with respect to future 
developments in Zaire. But that is something I think we would 
be very vigilant about, were we to see any manifestation.
    Senator Feingold. Finally, Mr. Chairman, for Mr. Moose.
    One of the concerns about the exemption in the section 321 
regulations is that one of the potential beneficiaries of the 
exemption was an oil company. Mr. Moose, are you comfortable 
with an American company conducting business in the oil 
industry in the Sudan? Won't that type of activity provide the 
regime with additional revenue with which to pursue its war in 
the south?
    Ambassador Moose. I think it is a legitimate concern, that 
we need to be concerned about what commercial or other 
activities might contribute to the capacity of the Sudanese 
Government to carry out and continue its support for 
international terrorism. I think the issue that we were 
confronted with--and I can say I have met several times with 
senior representatives of Occidental Oil--I will say to you 
that at no time did this particular issue of section 321 ever--
was that issue ever raised in our conversations. No particular 
treatment was sought by the representatives of Occidental Oil 
and none was granted.
    I think the issue, again, goes back to what was the 
interpretation of the legislation, what did we think was 
required by it with respect to Sudan. And it was the view, on 
the advice of our lawyers and others who followed this 
legislation, that it did not impose a restriction on such 
commercial activities.
    I will add, however, that in all of our conversations with 
Occidental Oil, we pointed out to them that our relationship 
with Sudan was a difficult one at best, that there was a 
certain likelihood that that relationship would continue to be 
difficult, and might even deteriorate. And that, in those 
circumstances, there could be no assurances that the U.S. 
Government would not, in the future, impose additional measures 
or sanctions that might affect their ability to conduct 
commercial operations in Sudan.
    Senator Feingold. Thank you very much, Mr. Chairman.
    Senator Ashcroft. Thank you.
    Mr. Newcomb, Senator Feingold was asking about the extent 
to which you conferred with individuals on the Hill in the 
promulgation of the regulation and after its promulgation. When 
you said you had had many meetings, I was not clear whether you 
were talking about meetings with the State Department, or 
meetings with Members of Congress, or meetings with staff 
members from the Members' offices. Could you clarify what you 
meant when you said you had many meetings?
    Mr. Newcomb. Yes, Senator. I had many meetings with the 
State Department, who we had relied upon for foreign policy 
guidance in this area, and were told that consultations did 
take place with the State Department and the Hill. So I relied 
on State.
    Senator Ashcroft. Well, let me just ask you, and answer yes 
or no, so I can get this clarified again. I thought he had 
asked you whether you had meetings with people on the Hill. Did 
you have meetings with Members of Congress?
    Mr. Newcomb. No.
    Senator Ashcroft. Did you have meetings with members of the 
staff of Members of Congress?
    Mr. Newcomb. I believe there may have been conversations 
with people in my office with Members of Congress. I will go 
back and check and clarify that as well.
    Senator Ashcroft. But you relied mostly on what you 
considered to be the contacts that the State Department was 
having with Congress?
    Mr. Newcomb. That is correct. And let me clarify that. In 
the programs that we run, which I have mentioned--or some of 
them--we routinely rely on foreign policy guidance with the 
State Department in these areas.
    Senator Ashcroft. All right. Mr. Moose, you said that the 
terrorist bin Laden was expelled from Sudan. Is that your 
belief, that he was expelled from Sudan?
    Ambassador Moose. I will defer to my expert on the right, 
Mr. McKune, but our understanding from the Sudanese Government 
is that they claimed to have taken action to cause Mr. Osama 
bin Laden to leave Sudan--so expulsion.
    Senator Ashcroft. Are you aware of the statement of Hassan 
Turabi that said:

    I do not think that the matter was raised with him [Laden] 
in such a direct manner. He is aware of the appreciation of 
Sudan and those close to him for the things he has done and he 
continues to do for Sudan. Many of them were frank with him. 
They told him, if you prefer to remain in Sudan, nobody will 
push you out. This is what they told him.

    Are you aware of that statement?
    Ambassador Moose. I have heard reference to that statement. 
I cannot reconcile, Mr. Chairman, what the Sudanese Government 
said to us and what Mr. Turabi is saying publicly in that 
statement.
    Senator Ashcroft. Would you agree that Mr. Turabi is the 
most powerful person in regard to the policy of the Sudanese 
Government?
    Ambassador Moose. I certainly agree, Mr. Chairman, that his 
influence has been preeminent in the course of this NIF-led 
regime for the last 7 to 8 years.
    Senator Ashcroft. So a preeminent influence meaning more 
eminent than anybody's else influence?
    Ambassador Moose. More eminent than anybody else's.
    Senator Ashcroft. So that would be most powerful. Good, 
that is just what I was wondering about.
    I thought I heard you respond to Senator Feingold's 
question about the so-called peace agreement--that you were 
very skeptical of it.
    Ambassador Moose. Indeed.
    Senator Ashcroft. Do you believe that the peace agreement 
includes the necessary parties to bring about a lasting peace?
    Ambassador Moose. Certainly not, Mr. Chairman. Any 
agreement, to be meaningful, is certainly going to have to 
include the group that is well-recognized as having been the 
principal southern opposition.
    Senator Ashcroft. So you do not believe that the agreement 
reflects the necessary parties, let alone the components of the 
agreement?
    Ambassador Moose. No, sir.
    Senator Ashcroft. Do you feel that Sudan has become one of 
the worst State sponsors of terrorism in the world?
    Ambassador Moose. Mr. Chairman, I would say certainly it is 
one of the worst. Let us put it this way: The reason we put it 
on the list is precisely because we believe that it is an 
egregious violator of international norms in support for 
international terrorism. I would again say we are obliged to 
make sometimes fine distinctions between the level, the extent, 
the degree of such support, that there are distinctions among 
the seven States that are currently on that list.
    That said, the fact that they are on that list reflects our 
view that their support for international terrorism is serious, 
and that we take it seriously.
    Senator Ashcroft. Is the State Department concerned about 
international terrorism, or only about terrorist acts against 
the United States?
    Ambassador Moose. We are concerned about both, Mr. 
Chairman. We have been very concerned not only about the 
possibility of actions directed against citizens or properties 
of the United States, we are also concerned about acts directed 
against our friends and allies and acts that generally violate 
international norms. That is why, again, we were in the lead in 
supporting action in the U.N. Security Council following the 
attempted assassination of President Mubarak in Addis Ababa in 
1995. I will tell you that I was in Addis at the time of that 
assassination attempt. That is why we are continuing to pursue 
efforts in the international community, and particularly in the 
Security Council, to apply further measures because of Sudan's 
failure to comply with those earlier Security Council 
resolutions.
    Senator Ashcroft. To what extent was the policy of the 
Department of State reflected in the regulation promulgated by 
Treasury pursuant to section 321 of the Antiterrorism and 
Effective Death Penalty Act of 1996? Did you agree with what 
Treasury eventually promulgated--and was it in accordance with 
the wishes of the Department of State?
    Ambassador Moose. The regulations prepared by Treasury, as 
it was indicated earlier, were prepared on the advice and 
recommendation of the Department of State.
    Senator Ashcroft. So you recommended that policy?
    Ambassador Moose. The Department of State, particularly the 
lawyers and others who were required to interpret the intent of 
section 321, made the recommendation to Treasury as to how to 
interpret the law, and the regulations that were issued, I 
think I would say, were a good faith effort on the part of 
those involved to interpret the intent and the history of 321.
    Senator Ashcroft. What I really wanted to find out is is 
this the regulation you wanted.
    Ambassador Moose. I will say first and foremost, Mr. 
Chairman, we were not directly involved in--I was not directly 
involved in interpreting that law. I would say also that yes, 
indeed, that certainly what is reflected there is not 
inconsistent with what we would wish.
    Senator Ashcroft. Well, I have a question about it, and it 
is this, that section 321 provides for sanctions against 
individuals who do business with those countries supporting 
international terrorism, and the regulation says that we limit 
the prohibition for doing business with them to people who 
would have a reasonable cause to believe that such business 
would further terrorist acts in the United States. To the 
untrained eye, perhaps mine, this looks like a vast disparity.
    It looks like the intention of the Congress has been 
narrowed from a concern about terrorism wherever it might exist 
internationally to a concern only about terrorism in the United 
States. You have just, I think quite appropriately, indicated 
that we have concerns about terrorist acts against our friends. 
I have concerns about terrorist acts against our enemies. I 
think terrorism is an enemy of us all, wherever it exists. And 
I do not understand why the State Department would recommend a 
regulation which narrows--and maybe I am misreading this, so I 
would be pleased to be corrected on this--narrows the intent of 
Congress from concern about international terrorism to 
something that just poses a risk of furthering terrorist acts 
in the United States. Can you explain it? And I would invite 
other members of the panel to help me understand that.
    Ambassador Moose. Again, Mr. Chairman, I cannot profess 
direct first-hand knowledge of the work that was done to 
interpret the intent of the legislation.
    Senator Ashcroft. I think I am clear on that, so we can all 
agree that it is in the record that you do not have first-hand 
knowledge. And if that means you cannot give me any 
clarification, then we ought to move to see if someone can, but 
I need to know if there is a reason why we are moving in that 
direction.
    Mr. McKune. Senator, let me offer a few comments.
    Senator Ashcroft. Mr. McKune.
    Mr. McKune. There is another provision of the law that 
covers the aspect of fundraising in the United States for 
terrorist groups or terrorist acts or terrorist organizations 
outside the United States.
    Senator Ashcroft. We are talking about business 
transactions overseas, not fundraising in the U.S.
    Mr. McKune. I am trying to point out that if you look at 
the issue of section 321 from the perspective of dealing with 
funds that may come from State sponsors, or organizations in 
countries which are State sponsors, to organized terrorist acts 
in the United States, that is an aspect of the problem, not the 
entire problem.
    Another part of the problem dealt with, if you look at the 
other provisions of law, would cover opposite kinds of flows, 
and there are, as I indicated earlier, a lot of other U.S. 
statutes concerning State sponsors.
    You have asked several times about what is the State 
Department's view about fighting terrorism. We are part of the 
U.S. Government interagency team that deals with the problem of 
terrorism. We do not have a separate State Department agenda 
regarding terrorism. We have the same view as the rest of the 
U.S. Government.
    Senator Ashcroft. It looks to me like you have a different 
view than the Congress, and that is what I am trying to get at 
here, because it looks to me like the Congress had an effort to 
restrict business activity that might enhance international 
terrorism, and when you eventually promulgate the regulation, 
the provision applies only to terrorist acts in the United 
States.
    Mr. McKune. Well, Senator, we have tried to explain our 
views about section 321. I do want to add that the State 
Department conducts a vigorous worldwide counterterrorism 
diplomacy campaign in which we focus attention on all of the 
State sponsors with many governments, and the State Department 
does this very actively.
    Senator Ashcroft. Well, I would laud the State Department 
for all the good things it does. I am trying to find out why it 
narrowed in its regulation the intent of Congress to curtail 
terrorism internationally to terrorist acts against the United 
States. And I am sure we could spend a lot of time cataloguing 
all the good things and good speeches that are made. If we do 
not know why, I think we ought to say so. But is there a reason 
why?
    Ambassador Moose. Let me try that, Senator. Again, those 
members of the Department of State who were responsible for 
following this legislation were interacting with Members, the 
drafters and others, of the legislation. There were numerous 
communications between the State Department, the officials of 
the State Department, and the drafters of the legislation at 
the time. We communicated our views, our concerns, the 
Department of State communicated its views with regard to that 
legislation. And it was on the basis of all that communication 
that our lawyers, along with the lawyers of Treasury, in good 
faith, interpreted the law, section 321, as permitting this 
kind of latitude.
    The Department of State welcomed the addition of this 
capacity, this tool, this instrument, as part of its policy to 
deal with international terrorism. But as we understood, as our 
lawyers and those of Treasury understood the legislative intent 
and legislative history, they did not believe that that 
provision required a full-scale imposition of blocking of all 
financial transactions.
    Senator Ashcroft. It just occurs to me what I am not asking 
about is the scope of the imposition in terms of commercial 
activities prohibited. What I am asking about is the scope of 
the terrorism that would trigger the prohibition. And the scope 
of the terrorism that triggers the prohibition in the 
regulation is terrorism that would result--and I will just read 
it--reasonable cause to believe that the transfer poses a risk 
of furthering terrorist acts in the United States. That is the 
scope of the trigger that you have put in the thing, and 
basically you say you could do anything you want as long as it 
does not pose a risk of increasing terrorism in the United 
States. And for the life of me, I just have not been able to 
find that in the language or the intent of Congress, which in 
the provision says countries supporting international 
terrorism.
    Mr. Newcomb, it was your Agency that promulgated this 
regulation. Do you have any light to shed on this?
    Mr. Newcomb. Well, Senator, what I would say, first, our 
lawyers did consult with the lawyers of the State Department. 
We received a communication from the State Department as to how 
foreign policy of this particular program on Syria and Sudan 
both that this applies to. Following that communication we 
developed regulations.
    I think an important element here is that the regulations 
and the statute do provide us jurisdiction for transactions 
going from the United States to Syria and Sudan, and from Syria 
and Sudan to the United States.
    Now, with regard to the other five programs, we do have and 
have had comprehensive economic embargo and sanctions programs 
in place in some instances, like North Korea, back to as early 
as 1950, Cuba in 1963, and so forth. So we have jurisdiction 
where, for whatever reason, through a law enforcement reason, 
intelligence reason, financial reason, banks call our office on 
a daily basis to ask about a transaction which they think is 
suspicious. ``Well, we have got something here from Syria or 
Sudan, what do you think?''
    We have active training programs that we work with 
financial institutions. Since the promulgation of this act I 
polled my staff, how often are we out there? We have had at 
least 40 kinds of discussions with financial institutions. So 
when we are aware that these activities are taking place they 
are calling us, they are asking about us. We have routine 
contact.
    When there is reasonable cause to believe, notwithstanding 
the fact that many of these transactions are generally 
licensed, the key fact is we have jurisdiction to stop them if 
we need to and if we have reason to do that. And of course, in 
our routine work and activities with financial institutions, 
they would do that based on a phone call. So if for whatever 
reason we have a suspicion that is justified, we can stop a 
financial transaction.
    We have developed brochures. Financial institutions are on 
alert. We have worked with the community to incorporate these 
programs into the other programs that we administer.
    Senator Ashcroft. I want to call on Senator Feingold. You 
say that for whatever reason you can always stop a transaction. 
It seems to me that the regulation you promulgated ties your 
hands from using section 321 to stop transactions that relate 
only to international terrorism. Because section 321 says 
except as provided in regulation, you draft the regulation to 
make a very narrow application of the law, which then curtails 
your capacity to curtail terrorism, and I would like to know 
why you did that.
    Mr. McKune. Senator, I understand what you are saying.
    Senator Ashcroft. Well, great. Good. Go right ahead.
    Mr. McKune. Our understanding of the intent of the sponsor 
of the legislation, according to a statement he made at the 
time of introducing his amendment, was that it was to be used 
to deal with a situation,

* * * where a terrorist organization, to be involved in the 
United States in some terrorist activity, actually has some 
American citizen, a recipient, bring into this country from a 
terrorist State Government a certain amount of money that might 
be used to further the cause of terrorist activities in the 
United States.

This is our understanding of the purpose of the sponsor's 
amendment.
    Senator Ashcroft. Well, a statement of Representative 
Schumer says,

    I support the amendment, Mr. Chairman, for a simple reason. 
I think it is wrong for anyone in the United States to 
knowingly deal with a country that sponsors terrorism. Why 
should we allow countries that sponsor such horrible acts as 
blowing up our barracks or blasting our airliners out of the 
sky to benefit from dealings with U.S. citizens? As I 
understand the measure, it essentially ties together in one 
place existing prohibitions that depend on a series of 
executives acts. I want to salute the gentleman for doing it. I 
think it is not controversial and I hope we can move the 
amendment with alacrity.

    And basically, I was interested in this: For blasting our 
airliners out of the sky. The bomb on the Pan Am at Lockerbie, 
is that a risk of furthering terrorist acts in the United 
States?
    I will answer the question. It is not. And I do not 
understand why you would narrow the provision to not apply to 
such terrorist acts.
    I defer to my colleague.
    Senator Feingold. Thank you, Mr. Chairman. I think it is 
fair enough for the Chair to try to inquire into legislative 
intent. Sometimes all of us are frustrated by a discrepancy 
between what we intended and what was done by the 
administration. Other times the intent is so unclear that it is 
impossible for you to know. But in any event, apart from that 
issue, I guess we need to think a little bit about the future 
and whether or not this can be resolved at this point.
    So, Mr. Chairman, I would just like to ask the 
administration their view on Representative McCollum's proposed 
legislation. Does the administration support legislation that 
would sort of clarify this issue and resolve this issue?
    Ambassador Moose. Senator Feingold, we are in the process 
now of examining. We have not reached a position on Mr. 
McCollum's new proposed legislation. I will say as a general 
rule we would welcome additional authorities that would enable 
the United States, the administration, to enhance its ability 
to deal with terrorism.
    I would say, if I might, as a general rule we would be a 
little concerned about a particular piece of legislation that 
tried to apply a one-size-fits-all response to all types and 
forms and manifestations and sponsors of terrorism. I do think 
if the objective here is to try to fashion policies that have 
some reasonable prospect of dissuading or compelling 
governments that do sponsor terrorism from ceasing and 
desisting in that sponsorship, then there is a logical and 
rational argument to be made for some degree of latitude 
discretion flexibility in the way those instruments, those 
implements, are used.
    But as I said, we have not yet completed our review of the 
particular piece of legislation in question, and we will be 
prompt in our replies and our responses and our comments on 
that legislation.
    Senator Feingold. I have not yet completed my review, 
either, and that is the kind of guidance I am looking for. I 
would very much like to support his sort of effort, but I want 
to be sure I am asking the right questions with regard to the 
State Department's flexibility.
    And also one other question: If the legislation had the 
effect of treating Sudan and Syria in the same way as the other 
five countries, could you speculate at all with regard to what 
impact it might have in our relations with Syria and with 
regard to the Middle East peace process? This is one of the 
things I would like to know what aspects of it could have an 
impact there.
    Ambassador Moose. Senator, happily those are areas that 
fall outside of my immediate area of responsibility and 
jurisdiction, and I do not think it would be fair to my 
colleagues back in the State Department to comment on that.
    With regard to Sudan, though, I think one thing that we 
would be concerned about are regulations, prohibitions on 
financial or commercial transactions that, in addition to the 
issues of diplomatic activity, might further complicate, make 
more difficult, the efforts of humanitarian agencies to 
continue to carry out their already very difficult missions in 
the Sudan. I think that is one consideration that I would want 
to look at very carefully as I was looking at any proposed 
legislation.
    Senator Feingold. Thank you again, Mr. Chairman.
    Senator Ashcroft. Ambassador Moose, in a related matter, 
since we have talked about this regulation, can you tell us who 
the officials were who developed this regulation, and did they 
include White House involvement?
    Ambassador Moose. Mr. Chairman, we can certainly provide 
you with the names of the offices that were involved. 
Essentially, it was the Office of Legal Affairs, our legal 
advisors office, which routinely is asked to try to interpret 
the history of legislation and the congressional intent.
    Senator Ashcroft. Well, I would like to ask for that. I am 
a little bit distressed about a number of things that, given 
the way in which this was narrowed, I am concerned about a lack 
of discretion in regard to these things. First, as the 
regulations were being drafted the administration met with the 
executives of Occidental Oil and Arakis Energy Corporation, the 
Canadian oil company leading a joint venture of a Sudan oil 
project; second, the oil venture in Sudan which would provide 
that terrorist government with millions of dollars in 
royalties, perhaps many more, was declared legal by 
administration officials, under regulations for 321; third, 
Mansour Ijaz, a Democratic fundraiser who boasts in the 
Washington Post of his access to administration officials to 
influence U.S. policy toward Sudan, was appointed by Arakis to 
an advisory committee for the company. Arakis also appointed 
Abdul Raman Hamdi to the advisory committee. Abdul Hamdi is a 
former Finance Minister of Sudan and a Director of the Faisal 
Islamic Bank of Saudi Arabia, an organization with alleged ties 
to terrorists in Sudan and around the world.
    Now, I would ask you to provide me with names of the 
individuals who are involved in the drafting of the regulation, 
including individuals outside the U.S. Government who had 
involvement in the development of the regulations. And if there 
are those who did, I would like to be informed at what point 
they had their involvement and under what circumstances.
    Ambassador Moose. Mr. Chairman, I can certainly repeat what 
I said earlier. I have on numerous occasions met with 
representatives of Occidental Petroleum, and I think that is a 
normal part of my responsibility as the Secretary of State for 
African Affairs and given their interests. I will repeat that 
at no time in the course of those conversations did Occidental 
Petroleum ever raise the issue of sections 321. At no time did 
they seek any special treatment with regard to any provision of 
law with respect to Sudan.
    We did make it clear at that time that to the best of our 
knowledge there was no legal prohibition on their continued 
pursuit at that time of the commercial activity that they were 
seeking pursuing in Sudan. But let me also reiterate----
    Senator Ashcroft. But you wrote the law which would define 
whether it was legal or illegal when you wrote the regulation 
promulgated by Treasury.
    Ambassador Moose. I also said to them quite categorically 
that we could not offer any guarantee that our relationship 
with Sudan would remain static or that there would not be a 
further action by this administration or any other that would 
not prohibit or somehow curtail these kinds of commercial 
activities.
    Senator Ashcroft. Do you, or any of you, know of any 
involvement of Occidental Company or the Arakis Energy 
Corporation and their involvement in the drafting of these 
regulations that is different from that recounted by the 
Ambassador?
    Ambassador Moose. I know of no such involvement, Mr. 
Chairman.
    Mr. Newcomb. Mr. Chairman, I know of no such involvement.
    Senator Ashcroft. Do you know of the involvement of any 
outside individuals other than the Arakis Energy Corporation or 
the Occidental Oil Company in the development of those 
regulations, any other interested parties?
    Mr. Newcomb. From our perspective, we had consultations 
with the State Department, which is what I have said, and that 
was it.
    Mr. McKune. No, sir.
    Senator Ashcroft. Was there any special directive from the 
White House, or input on the development of the regulation?
    Ambassador Moose. I know of no such directive or 
communication of any kind from the White House.
    Senator Ashcroft. Do any of you know of any?
    [No response.]
    Senator Ashcroft. I think even though the administration 
declared the Occidental venture legal and wrote a regulation 
which obviously facilitates that, I think what Congress had in 
mind was kind of situation like Occidental which might result 
in substantial funding flows to a State that sponsors 
terrorism. And frankly, I want to invite you to contact me 
about how you think we might be able to craft legislation that 
would help us do what is necessary, because apparently 321 did 
not get done what we thought was appropriate.
    And I will be very clear with you from my perspective. I do 
not want to do anything to improperly curtail the capacity of 
the State Department or the U.S. Government to have the 
flexibility which is necessary. But I have to be equally candid 
and say to you that the exercise of the flexibility granted in 
321 seems to have been substantially without rational basis, 
and appears to be without explanation.
    Ambassador Moose. Mr. Chairman, I would certainly welcome 
an opportunity to discuss with you ways in which we could 
together strengthen our ability to deal with the threat of 
international terrorism; specifically, with regard to Sudan.
    Senator Feingold. I just want to thank the panel very much 
for their time.
    Senator Ashcroft. I appreciate very much your willingness 
to appear and to make your responses. Thank you very much.
    It is my pleasure now to call the third panel, and I thank 
them for their patience, and I want to thank my colleague, 
Senator Feingold, for his patience. The third panel will be 
composed of Mr. Ed Smith, who is one of the individuals whose 
family was tragically affected by the World Trade Center 
bombing, he now lives in California--we are grateful that he 
would come; Mr. Roger Winter, the Director of the U.S. 
Committee for Refugees, who has just returned from Africa and 
will have a unique insight into the humanitarian challenges 
facing Sudan; and Steven Emerson, who is a journalist who has 
done extensive work on international terrorist networks. He is 
a Middle East affairs expert and author of works on terrorism.
    Mr. Emerson, I want to thank you for coming to the 
committee, and I call upon you for your remarks.
    Senator Feingold. Mr. Chairman, if I could interrupt, I am 
about 20 minutes late already for a caucus, and certainly want 
to stay and hear the testimony. I will be unable to stay and 
ask questions, and I am wondering if I would be able to submit 
some questions in writing.
    Senator Ashcroft. Obviously, we would be very pleased to 
have them.
    Senator Feingold. I just want to apologize to the panel. 
This is a very helpful hearing, and it is very important to me 
that we have this hearing.
    So I again want to thank the Chairman, since I will have to 
leave, for the tremendous amount of time he has put into this 
and for his willingness to have the hearing. I do appreciate 
it.
    Senator Ashcroft. Thank you. Mr. Emerson.

   STATEMENT OF STEVEN EMERSON, MIDDLE EAST AFFAIRS ANALYST, 
          AUTHOR AND TERRORISM EXPERT, WASHINGTON, DC.

    Mr. Emerson. Thank you very much.
    In 1993, a group of radical Islamic fundamentalists 
attempted to blow up the World Trade Center; although the 
conspirators failed to topple the building as planned, the 
result was six dead Americans and more than 1,000 wounded. The 
carnage from a successful attack would have killed anywhere 
between 30,000 and 50,000 people.
    Undeterred by a series of arrests, the same clique of 
radical fundamentalists then planned an even more brutal series 
of attacks. Their goal was to blow up tunnels and bridges 
leading to New York City, tourist landmarks, and a Federal 
building. Fortunately, their plans were interdicted by 
successful FBI work and the assistance of an Egyptian Muslim 
informant. A successful series of attacks would have produced 
more deaths on American soil, as Judge Michael Mukasey noted in 
sentencing the defendants, than any other event since the Civil 
War.
    The fact that these terrorists would conspire to cause the 
deaths of tens of thousands of innocent civilians for the 
perceived obligation of waging a Jihad (or holy war) against 
the United States, forces hesitance in considering a policy 
that might lessen or reduce the pressure on those regimes that 
support, directly and indirectly, such mass murder.
    Although Iran and the Sudan are equally culpable in 
sponsoring and orchestrating terrorist attacks. Sudan, under 
the leadership of Dr. Hassan al-Turabi, the head of the ruling 
National Islamic Front Party and de facto chief, has been 
responsible for helping to create the global Muslim brotherhood 
movement and subsidiary organizations. It would be wrong and 
self-deceiving to underestimate the success and guile of Dr. 
Turabi in both building up a fledgling Muslim brotherhood 
movement into an actual State, and, more critically, forging 
alliances between myriad branches and leaders of radical Islam. 
Dr. Turabi's popular Arab Islamic Conferences--three have been 
held so far--feature the full panorama of a global militant 
Islamic movement, including Islamic delegations and leaders not 
only from the Middle East, but from Spain, France, Italy, 
Argentina, Mexico, Canada, Kenya, and even the United States.
    I think it is important, as you hold this very, very 
significant hearing, that in the attempt to tighten the screws 
on Sudan policy, that the intent of Congress in the 1996 
antiterrorist legislation be fully upheld. That intent was to 
pressure countries which actively support or encourage 
international terrorism by denying them access to the full 
American market and technology. Policy exemption cannot rely 
upon distinctions between the evil government sector and the 
private good sector of a foreign terrorist regime, because 
these distinctions are thoroughly false. There is no doubt that 
with regard to the Sudan it has played a key role, and 
continues to play a key role, as a leader of radical Islamic 
militant movements and groups throughout the Middle East and 
throughout the world.
    Indeed, in the World Trade Center bombing itself, there has 
been little discussion, primarily because of the absence of 
hard information, about who was truly responsible. In fact, 
what officials have discovered, supported by evidence released 
at trial and other evidence still not released, (including wire 
transfers, telephone records, bank accounts, and personal 
papers), was that the Jihad conspiracy was the unique product 
of operational collaboration, an ad hoc network of radical 
Islamic groups operating in the U.S. for the first time, the 
Egyptian Jamat Islamiya, the Palestine Islamic Jihad, the Al-
Fuqra group, Hamas, and the National Islamic Front.
    Interestingly, the only group whose organization is 
directly tied to a government is the National Islamic Front, or 
the Islamic Fundamentalist Party, which controls the Sudan 
under the de facto leadership of Dr. Hassan al-Turabi. Indeed, 
the evidence produced at the trial and other information 
obtained by prosecutors shows that top officials of the 
Sudanese regime not only had advance knowledge of the second 
series of plots, but actively facilitated in their preparation.
    Evidence contained in intelligence intercepts and other 
types of surveillance suggests that the entire Sudanese mission 
to the United Nations, as well as Sudanese diplomats in 
Washington, DC., are controlled by the National Islamic Front. 
As recently as 2 months ago, a major Sudanese intelligence 
officer previously employed in Washington sought to enter the 
United States under false documentation in order to expand 
Sudan's terrorist network in the United States. Fortunately, he 
was intercepted.
    It is important to acknowledge what was discovered in the 
trials of the World Trade Center bombing. Conversations 
released in transcript form, sourced from wire taps and other 
types of recorded conversations, reveal explicitly and 
unequivocally that Saddiq Ali, the Sudanese ringleader of the 
second series of plots, was very close to the Islamic 
leadership in the Sudan. This evidence also points to his close 
ties to the Sudan mission in New York, quote: ``When we hit the 
United Nations it will teach the world--the world, not only 
America. It will teach America a lesson.'' This declaration was 
made with reference to plans to blow up the East River wing of 
the U.N.
    He told his fellow conspirators that he could obtain 
critical help from the Sudanese mission at the U.N. to obtain 
credentials, license plates, and ID cards required to drive an 
explosive-laden Lincoln car into the parking garage adjacent to 
the U.N. And when Saddiq Ali began to plan the assassination of 
Egyptian President Hosni Mubarak, it was the Sudanese mission 
in New York that provided the conspirators with acutely 
sensitive information about how to pierce President Mubarak's 
security detail and transportation route to the Waldorf 
Astoria, where the Egyptian President was scheduled to stay.
    In a conversation taped by Ahmed Salem, and these tapes are 
available, Mr. Ali informed his conspirators of the precise 
route that Mr. Mubarak's U.S. Secret Service would be taking to 
Manhattan. Asked by Mr. Salem where he got this information, 
Mr. Ali responded, ``I get it from the highest level, from 
people inside the Sudanese Embassy. My contact is the 
Ambassador, brother.''
    I should like to add that Mr. Ali was not the only Sudanese 
connection to this terrorist plot. Another defendant is 
Mohammed Saleh. This Yonkers gasoline operator was responsible 
for providing the fuel for the incendiary brew, the explosive 
agent. According to information obtained by Federal 
investigators and other undisclosed material found on his 
possession, Saleh is a Hamas leader in charge of training Hamas 
terrorist recruits in the Sudan.
    Mr. Saleh traveled in Sudan several times prior to his 
involvement in the plan to oversee Hamas training exercises. 
However, he has also revealed that he had obtained various 
terrorist weapons in the Sudan, including guns and night vision 
goggles, and ultimately smuggled them to Hamas terrorist squads 
in the West Bank. Mr. Saleh's home in the Bronx was used as a 
haven for known terrorists visiting the United States.
    I'd like to request that the rest of my speech and 
testimony be put into the record. Also, I would also like to 
state my belief that your concentration on the intent of 
Congress and the reasons for deviation in the interpretation of 
section 321, focused on the core elements of this case.
    Senator Ashcroft. Your speech, the entirety of your 
remarks, written and oral statement, will be included in the 
record. Thank you very much for your appearance here.
    [The prepared statement of Mr. Emerson follows:]

                  Prepared Statement of Steven Emerson

        Allah will spread terror in the infidel hearts, and cut their 
        necks up, and cut every finger of them [since] they stood up 
        against Allah and his Prophet and who stands against Allah and 
        his Prophet must realize that Allah is a strong punisher.

          Recorded conversation of Siddiq Ali, Sudanese ringleader of 
        the plot to blow up New York tunnels, bridges and buildings in 
        mid-1993 following the World Trade Center bombing.

    Imagine \1\ the horror of multiple car bombs--filled with a deadly 
mix of ammonium nitrate and fuel oil--being detonated in the middle of 
the day in the Lincoln and Holland Tunnels and the George Washington 
Bridge, the three principal transportation arteries connecting the 
island of Manhattan to New Jersey, where tens of thousands of commuters 
travel each hour. Or, consider the bloody mayhem that would have 
resulted in blowing up the United Nations Headquarters or Federal 
Building at 26 Federal Plaza in downtown Manhattan.
---------------------------------------------------------------------------
    \1\ Steven Emerson is an author, analyst and investigator 
specializing in the field of radical Islamic fundamentalist movements 
and terrorist organizations. His is the Executive Producer of the 
critically acclaimed documentary ``Jihad in America,'' which aired on 
PBS in 1994. The recipient of numerous national prizes for his 
investigations, Mr. Emerson is at work at present on a documentary 
series on terrorism and is also completing a book. He frequently writes 
for national periodicals and is the previous author of four books on 
terrorism, the Middle East and U.S. counter-terrorist units.
---------------------------------------------------------------------------
    In 1993, a group of radical Islamic fundamentalists tried to blow 
up the World Trade Center, killing six Americans and wounding more than 
one thousand. Although the conspirators failed to topple the building 
as planned, the resulting carnage from a successful attack of the one 
they intended would have killed and wounded anywhere between 30,000 to 
50,000 people. Undeterred by a series of arrests, the clique of radical 
fundamentalists then planned an even more brutal series of attacks, 
this one designed to blow up tunnels and bridges leading to New York 
City, tourist landmarks, and a federal building. Fortunately, the 
attack was interdicted by successful FBI work and the courage of an 
Egyptian Muslim informant.
    Had the attack succeeded, the resulting slaughter would have caused 
more deaths on American soil, as Judge Michael Mukasey noted in 
sentencing the defendants, than any other event since the Civil War. 
The fact that these terrorists would willingly plan the deaths of tens 
of thousands of innocent civilians for no other reason than the 
perceived obligation of waging a Jihad, or holy war, against the United 
States must give anyone pause before considering any policy that might 
lessen the pressure on those regimes that support, directly or 
indirectly, such mass murder.
    Today, as this congressional panel considers the role of Sudan in 
the arena of world terrorism, it is important that we look at the 
evidence unclouded by questions of political correctness, unobscured by 
the deception of disingenuous moderate sounding language, and 
untethered to vested commercial or political considerations that 
somehow always insidiously creep into the formation of counterterrorist 
policy.
    There can be no denying that Sudan plays a pivotal role in the 
worldwide operations of militant Islamic groups bent on imposing the 
Sha'aria--the body of Islamic law--and confronting through murderous 
violence any regime or institution that stands in its way. Sudan, 
arguably the largest terrorist camp in the world, has become a central 
player in supporting, sponsoring and enhancing radical terrorist groups 
that have carried out--or at least tried to carry out--the most 
horrific violence that the world has witnessed in decades. A veritable 
``Murder Incorporated,'' Sudan has been directly tied to the entire 
spectrum of radical Islamic violence that has plagued not only the 
Middle East but the West as well. Unless some type of brakes are 
forcibly applied to the spinning vortex of terrorism emanating from the 
Sudan, the attacks on our friends and on ourselves will only continue. 
And as low-tech and low-cost weapons and agents of mass destruction, 
such as poison gas and bacteria, become more accessible to all 
terrorists worldwide, it ought not come as a surprise the day these 
weapons are finally used . . . against the United States.
    Just look at Sudan's record thus far. To pick at random: Suicide 
bombings in Israel. The attempted assassination of the Egyptian 
President. A brutal military campaign of near genocidal proportions 
against the black non-Muslim tribal minorities in southern Sudan. 
Attacks on American Forces in Somalia. Sponsorship of the most ruthless 
terrorist financier in the world today, Osama Bin Laden, who in turn is 
linked to the World Trade Center conspiracy and two acts of carnage in 
Saudi Arabia against American forces. Sponsorship and hosting of 
unparalleled get-togethers of the most militant Islamic terrorist 
leaders in the world today, including those that have planned the 
murder of hundreds of Americans, not to mention Jews and Arabs deemed 
to be ``infidels'' or ``enemies of Islam.'' Training camps for more 
than a dozen terrorist organizations whose raison d'Etre is to kill 
infidels, Christians, Jews and secular and moderate Muslims. Basing 
privileges for the Iranian Navy. Training camps for Iranian 
Revolutionary Guards, who in turn have trained street militias called 
the Popular Defense Forces who carry out vigilante violence. Use of the 
Sudanese diplomatic pouch to transport explosives. Support of terrorist 
attacks in Ethiopia. And even direct support for, advance knowledge of 
and critical involvement with the second series of planned terrorist 
attacks in Manhattan following the World Trade Center bombing designed 
to kill tens of thousands of American civilians.
    Although Iran is as equally culpable as the Sudan in sponsoring and 
orchestrating terrorist attacks internationally, what makes Sudan stand 
out has been the marked success of Dr. Hassan al-Turabi, the head of 
the ruling National Islamic Front party and de facto chief, in creating 
a regime solely dedicated to supporting the global Muslim Brotherhood 
movement and subsidiary organizations, all of which are Sunni. It would 
be wrong and self-deceiving to underestimate the success and guile of 
Dr. Turabi in not only building up a fledgling Muslim Brotherhood 
movement into an actual State, but in critically forging alliances 
between the myriad branches and leaders of radical Islam. Dr. Turabi's 
Popular Arab Islamic Conferences--three have been held thus far--are 
unprecedented conferences featuring representation of the full panorama 
of the global Islamic movement, including Islamic delegations and 
leaders from not only throughout the Middle East but from Spain, 
France, Italy, Argentina, Mexico, Canada, Kenya and the United States--
and even Arab and Christian left-wing nationalists.
    Apologists and supporters of Dr. Turabi and Sudan like to claim 
that Sudan is being picked on only because of its Islamic identity. For 
example, a militant Washington D.C. headquartered Islamic organization 
called the Council on American Islamic Relations (known as CAIR)--which 
falsely hides as an organization dedicated to preserving Muslim ``civil 
rights''--wrote a letter to the Atlantic Monthly magazine in response 
to an earlier article (``Turabi's Law'' by William Langewiesche, 
Atlantic Monthly, August 1994) which exposed in chilling detail the 
totalitarian religious code of law imposed by Sudanese leader Turabi 
according to his extremist interpretation of Islam. In his response 
(Atlantic Monthly, November 1994), Mr. Hooper attacked the author of 
the article for making ``many negative assertions about Islam, 
Sha'riah, Sudan and Hassan al-Turabi,'' denied the existence of 
Sudanese secret police, and criticized the article as having ``merely 
rehashed Western cliches about `fundamentalism' and `Islamic 
radicalism' [while] ignor[ing] nonIslamic causes of Sudan's turmoil.''
    ``Non-Islamic causes of Sudan's turmoil?'' This is nothing but 
unvarnished apologia for the terrorist regime of Sudan. Sudan's current 
turmoil was brought on by only one regime--the Sudanese government 
itself. Its support of terrorism, its authoritarian Islamic 
dictatorship, its war against non-Muslims and its exhortations for 
other militants to carry out a worldwide Jihad. To claim that these 
factors are fabricated by the West is in reality a blatant effort to 
render Sudan--and the Islamic radical movements it supports--immune 
from any criticism. It is the same argument that Sheik Omar Abdul 
Rahman, mastermind of the World Trade Center bombing conspiracy, used 
in decrying his conviction as tantamount to a ``war on Islam.'' And it 
is the same argument used by Hamas and Islamic Jihad terrorists in 
justifying their murderous suicidal rampages against defenseless 
Israeli children and women. And it is the same argument used by the 
World Trade Center conspirators in justifying their original attack on 
the United States as a need to avenge the United States ``conspiracy 
against Islam.''
    To be sure, there are also non-Muslim apologists for Sudan. In 
1993, when the Sudan was placed on the State Department list of 
countries supporting terrorism, former President Jimmy Carter expressed 
his disdain for the State Department decision, ``They declared that 
Sudan was a terrorist training center, I think without proof . . . In 
fact, when I later asked an assistant secretary of state he said they 
did not have proof, but there were strong allegation . . . I think 
there is too much of an inclination in this country to look at Muslims 
as inherently terrorist or inherently against the West . . . I don't 
see that when I meet with these people.'' (Reuters Financial Service, 
September 13, 1993)
    Well, despite what Mr. Carter is told by the urbane and British and 
French educated Hassan Al-Turabi--he has a doctorate from the Sorbonne 
and has also studied in London--Mr. Carter seems to believe that 
militants have to carry automatic weapons, wear scruffy beards and 
openly chant ``Death to America'' before they can qualify as 
terrorists. In fact, the danger represented by Dr. Turabi is that he 
speaks one, very soothing language to people like Mr. Carter and 
another more revealing language when talking to his own. The focus on 
the Sudan as a terrorist supporting nation has nothing to do with 
picking on Islam; that would be the equivalent of saying that focusing 
on the Klu Klux Klan as a racist and extremist movement is picking on 
Christianity or focusing on radical Jewish fundamentalists is picking 
on Judaism. Cuba and North Korea--two States that are decidedly not 
Islamic--were placed on the list of nations supporting terrorism 
precisely because of their support for international terrorism. Indeed, 
to suggest that Sudan is being unfairly accused of terrorism merely 
because of its Islamic identity is an affront to the vast majority of 
the Muslim population that forswears and disavows any support for 
terrorism or violence.
    The hearing today is not about Islam but about the policies of a 
rogue regime and how the United States should formulate and implement 
its counter-terrorist policies to safeguard its vital national security 
interests. If the intent of Congress in the 1996 anti-terrorist 
legislation and in earlier Congressionally-directed initiatives was to 
pressure countries which actively support or encourage international 
terrorism by denying them full access to the American market as well as 
to American technology, then any exemptions to this policy predicated 
on the notion that such trade is determined ``not to have an impact on 
any potential act of terrorism'' is a meaningless and unjustified 
exemption. Regimes which support terror--whether they pull the trigger 
or pay others to pull the trigger--cannot be compartmentalized into an 
``evil'' government sector and a private ``good'' sector. While not 
everyone living in a terrorist-regime necessarily supports terrorism, 
the regime itself is the ultimate beneficiary of any increased trade 
and technology. When dealing with totalitarian terrorist-supporting 
regimes, any policy that can claim to substantively differentiate 
between trade that has no impact on terrorism and that which has an 
impact on terrorism is an illusion. While dollars may accrue to 
exporters in the short term by exploiting the unintended exemption, the 
long term injury to American interests by continuing to build up a 
terrorist infrastructure to be used against the West is not only 
incalculable, but unfathomable in the belief that policymakers at the 
State Department would accept it.
    With regard to the Sudan, there can no doubt about the role it 
played in the series of planned terrorist strikes against the United 
States right here in the U.S. backyard. Though the principal leader of 
the bombing campaign, Egyptian Sheik Omar Abdul Rahman was convicted 
for his role in authorizing the bombing campaign as part of the radical 
Islamic Jihad against the West, a final accounting of the organizations 
and powers behind the bombing has never been concluded because of the 
absence of hard evidence. More than four years after the attack and 
foiled conspiracy, many questions still linger, such as the extent of 
other's involvement, both here and abroad, in the conspiracy and in the 
master planning of the terrorist campaign. Speculation and unconfirmed 
assertions have been made about possible Iraqi or Iranian sponsorship 
but according to both FBI, Justice Department officials and CIA 
officials, there has been no evidence whatsoever that either country 
was involved in the conspiracy. In fact, the involvement of both 
countries has been all but ruled out in internal FBI and CIA reports.
    However, what officials have discovered, supported by evidence 
released at trial and other evidence still not released, including wire 
transfers, telephone records, bank accounts and personal papers, was 
that the Jihad conspiracy was the unique product of operational 
collaboration by an ad hoc network of radical Islamic organizations 
operating in the United States who joined forces in a collective 
terrorist campaign: The Egyptian Jamat Islamiya, the Palestinian 
Islamic Jihad, the Al-Fugra organization, Hamas and the National 
Islamic Salvation Front or NIF. The collaboration of these radical 
Islamic groups represented an unprecedented network of loosely 
affiliated groups that previously had never united before on such a 
grandiose operational scale. Interestingly, the only group in the 
conspiracy whose organization was directly tied to a government was the 
National Islamic Front or NIF, the Islamic fundamentalist party which 
runs the Sudan under the de facto leadership of Dr. Hassan al Turabi.
    Indeed, the evidence produced at the trial and other information 
obtained by federal law enforcement and intelligence agents 
unambiguously showed that top officials of the Sudanese regime not only 
knew in advance of the second series of bombing plots but actively 
facilitated in the preparation of the plot. Two Sudanese diplomats in 
New York, Ahmed Yousef Mohammed and Siraj Yousef, were later declared 
persona non grata in 1996 and ordered out of the United States. But the 
evidence, contained in intelligence intercepts and other types of 
surveillance, suggests that the entire Sudanese Mission to the United 
Nations, and the Sudanese diplomats in Washington, D.C. as well, are 
thoroughly controlled by the National Islamic Salvation Front.
    As recently as two months ago, a major Sudanese intelligence 
officer, who once worked in Washington D.C. sought to enter the United 
States under false documentation in order to expand the Sudanese 
terrorist network in the United States on behalf of the National 
Islamic Front. In Washington, a covert Sudanese diplomatic operative, 
worked secretly out of the Washington offices of the America Muslim 
Council--a Washington group that pretends to be moderate but actively 
supports the Sudanese National Islamic Front, in addition to other 
Islamic extremist groups--at night for almost a year, in order to 
establish closer ties between Islamic groups in the United States and 
members of their Muslim Brotherhood family in the Middle East.
    Because of the need to protect sources and methods, the 
intelligence community is frequently unable to produce the type of 
physical evidence that is needed in a court of law. In the trials of 
the World Trade Center defendants, however, actual conversations were 
recorded in which the role of the Sudanese government was unequivocally 
demonstrated. In those tapes, Siddiq Ali, a translator for the blind 
Sheik and considered the Sudanese ringleader of the second series of 
attempted bombings openly proclaimed that ``our relation is very, very, 
very, very strong with the Sudanese government, and with the Islamic 
leaderships of Sudan, thanks to God that I have a direct contact with 
the Islamic leaders themselves. (#307-T, May 16, 1993). In the same 
conversation, Mr. Ali stated that his ties are so close to Sudanese 
officials in the U.S., that he could walk right into the office of the 
Sudanese Ambassador to the United Nations, the Sudanese Consul and the 
Vice Consul.
    ``When we hit the United Nations, it will teach the world, the 
world, not only America a lesson,'' Mr. Ali declared in revealing a 
plan to blow up the East River wing of the United Nations Headquarters 
in Manhattan. Mr. Ali told his fellow conspirators that he could obtain 
critical help from the Sudanese mission at the United Nations to get 
credentials, license plates and id cards to enable them to drive an 
explosives laden Lincoln into the parking garage adjacent to the United 
Nations. The Sudanese officials were aware of the plan to destroy the 
U.N., Ali stated.
    And when Siddiq Ali began to conspire to assassinate Egyptian 
President Hosni Mubarak, who was scheduled to visit New York City that 
spring, it was the Sudanese Mission in New York that provided Mr. Ali 
with acutely sensitive information about how to pierce President 
Mubarak's security detail and transportation route to the Waldorf 
Astoria, where the Egyptian President was scheduled to stay. In 
chilling detail, Mr. Ali--in a conversation taped by Emad Salem--told 
his co-conspirators the exact route of Mr. Mubarak's U.S. Secret 
Service detail to be used in transporting him to Manhattan, even 
specifying the exact car in the police motorcade in which Mubarak would 
be sitting. Asked by Emad Salem where he got this information, Mr. Ali 
responded, `` I get it from the highest level . . . from people inside 
the [Sudanese] Embassy . . . My contact is the Ambassador, brother.''
    Mr. Ali was not the only Sudanese connection to the terrorist plot. 
Another defendant, Mohammed Saleh, a Yonkers gasoline station operator 
who was to provide the fuel for the incendiary brew that was to serve 
as the explosive agent, according to information obtained by federal 
investigators and by papers found on his possession, was a Hamas leader 
who was in charge of training Hamas terrorist recruits in the Sudan. 
Not only had Mr. Saleh traveled to the Sudan several times prior to his 
involvement in the plot to oversee several Hamas training exercises, 
but he also revealed that he had obtained various terrorist weapons in 
the Sudan--including guns and night-vision goggles--and ultimately 
smuggled them to Hamas squads in the West Bank. Mr. Saleh's home in the 
Bronx was used as a haven for known terrorists visiting the United 
States, including Jordanian militant Ahmed Noufal who has been directly 
involved in sponsoring and organizing Hamas terrorist attacks against 
Israeli civilians. (Significantly, Mr. Saleh had organizational ties to 
Islamic militant front groups, including Mounazamat al-Da'waw al-
Islamiya, a Sudanese headquartered Islamic religious group which used 
its protected religious status to promote and spread militant Islam 
around the world, including the United States. Mr. Saleh also 
participated in the radical Islamic conference in Oklahoma City in 
December 1992 which was sponsored by a militant group called the Muslim 
Arab Youth Association in concert with the Islamic Association for 
Palestine, another U.S. Hamas front group.)
    Mr. Turabi assumed control of the Sudan after a coup d'etat in 
1989. As de facto ruler of the Sudan, Mr. Turabi has transformed this 
nation into one of the largest militant Islamic terrorist camps in the 
world today, hosting, sponsoring and training nearly every radical 
organization and leader, including:
  <bullet> Sheik Omar Abdul Rahman, the militant blind Egyptian cleric 
        convicted in the World Trade Center bombing conspiracy trial. 
        In 1990, the Sheik succeeded in entering the United States from 
        the Sudan, which had offered him permanent residence following 
        the anti-Soviet Jihad victory in Afghanistan by the mujahideen. 
        Sheik Abdul Rahman declined the honor, preferring to manipulate 
        the strings of Jihad from the perceived safety of his residence 
        in the heart of the Great Satan itself.
  <bullet> Training and sanctuary for the assassins who attempted but 
        failed in their brazen assassination effort of Egyptian 
        President Hosni Mubarak on June 26, 1995 in Addis Ababa. The 
        well-stocked killers--possessing rocket grenade launchers, 
        anti-tank missiles, explosives and automatic weapons--failed 
        only because of the tardiness of Mubarak's motorcade. Credit 
        for the attempt was claimed by the Jamat Islamiya, whose 
        members had been given training and whose extradition was 
        blocked by Dr. Turabi. In September 1995, the Organization of 
        African Unity condemned Sudan for its support of the attack and 
        called upon the regime to turn over the three terrorists wanted 
        in the attack. Ethiopian Foreign Minister Seyoum Mesfin openly 
        declared that Sudan had used diplomatic cover to smuggle the 
        weapons and explosives to Ethiopia.
  <bullet> Sponsorship of extraordinary conferences of the world's most 
        violently anti-American Islamic fundamentalist leaders, with a 
        smattering of residual Arab Christian leftists who share the 
        same anti-U.S. hatred.
  <bullet> Headquarters and training camp for the Palestine Islamic 
        Jihad, a militant Palestinian group that specializes in 
        dismembering and mutilating its victims. Mr. Turabi not only 
        gave diplomatic passports to the leaders of Islamic Jihad, such 
        as the Fathi Shekaki (killed in Malta in October 1995) and 
        Sheik Abdul Azziz Odeh, but funneled Iranian funds to the 
        terrorist group and helped Islamic Jihad terrorists make their 
        way back to Israel to carry out specific terrorist operations.
  <bullet> Training camps and safehaven facilities for Hamas, Algerian 
        Islamic Salvation Army fighters, Iranian Revolutionary Guards, 
        Gamat lslamiya and others. At present in the Sudan, half the 
        3000 Iranian Revolutionary Guards sent to Khartoum came from 
        Lebanon. Of these, more that 1000 were Lebanese Hizzbollah.
    Among the sites of some of these camps are:
    (1) the Al-Khalafiyya area, roughly 25 miles north of Khartoum 
where Algerian Islamic Salvation Army and Armed Islamic Group members 
have trained.
    (2) the Akhil Al-Awliya, located on the banks of the Blue Nile, 
south of Khartoum, where upwards--at any one time--of 500 Palestinians, 
Syrians and Jordanians actively train.
    (3) Al Mrihat, north of Um-Durman, where Egyptian members of the 
Muslim Brotherhood, the Jamat Islamiya and the Vanguards train.
    (4) Mukhayyamat Al-Mazari, northwest of Khartoum, serving as an 
equal opportunity training center for all nationalities, including 
Libyans, Tunisians, Palestinians, Syrians, Saudis, Lebanese, 
Algerians--even several Americans are known to have passed through.
    Although Dr. Turabi has demonstrated his generous hospitality to 
all types of terrorists, the most significant guest that Dr. Turabi has 
hosted was Osama Bin Laden, the wealthy Saudi expatriate militant who 
single-handedly helped fund the Arab Muslim volunteers who migrated to 
Afghanistan in the 1980's to carry out Jihad. Stripped of his Saudi 
passport in 1991 and looking to expand the Jihad against the Western 
infidel--following the victory against Soviet infidel--the Sudanese 
government warmly welcomed Mr. Bin Laden into the Sudan where Mr. Bin 
Laden succeeded in establishing a worldwide network of front companies, 
Islamic charities and non-governmental organizations, and terrorist 
recruitment centers to carry out attacks against American, Egyptian, 
Israeli, Saudi and European targets. The companies set up by Mr. Bin 
Laden with full Sudanese involvement and participation were critical in 
helping the Sudan build up its transportation infrastructure, including 
an airport in Port Sudan, roads and a port while at the same time 
building up Bin Laden's wealth--he was given monopolistic control over 
Sudanese agricultural exports and exclusive purchase rights over large 
domains of farmland--together with Mr. Turabi's NIF cronies.
    At the same time, Mr. Bin Laden sponsored the movement of nearly 
2000 mujahideen from Afghanistan to the Sudan where they were 
headquartered, under Bin Laden's largesse, in the expansion of the 
Jihad battlefronts to other parts of the Middle East and to the West 
itself. Mr. Bin Laden, who has openly called for a ``worldwide Jihad to 
destroy the United States'' was afforded the opportunity to regroup, 
establish a worldwide terrorist infrastructure--including cover 
companies and radical Islamic groups in the United States itself--
during his very profitable and ``productive'' five year stay in the 
Sudan. It is suspected by FBI and State Department officials that 
during his stay under Sudan's protection, Mr. Bin Laden, beyond 
directing or funding a host of terrorist attacks in the Middle East 
against prowestern regimes, is connected financially to the World Trade 
Center bombing, in particular the training and recruitment of a key 
conspirator, Ramzi Yousef in the actual February 1993 bombing and the 
aborted attacks on American airplanes in December 1994 in the 
Philippines. There is mounting circumstantial evidence that Bin Laden 
was directly connected, if not the ultimate sponsor, of the twin 
attacks against U.S. Servicemen in Saudi Arabia in November 1995 and 
June 1996, which killed more than 2 dozen Americans and wounded scores 
of others. Bin Laden's departure from the Sudan in May 1996 back to 
Afghanistan was a direct result of the mounting economic and diplomatic 
pressure placed on the regime. His exit demonstrated that counter-
terrorist sanctions do work.

    Senator Ashcroft. Mr. Smith, it is with a note of sympathy 
that we welcome your testimony, and we thank you for your 
willingness to come and share with us out of your very 
troublesome experience.

   STATEMENT OF ED SMITH, HAMILTON HALLMARK, WOODLAND HILLS, 
                           CALIFORNIA

    Mr. Smith. Thank you, Chairman. Thank you, Senator 
Feingold.
    I came to Washington approximately 7 months ago to 
participate in a ceremony held at Arlington National Cemetery 
on the anniversary of the Beruit bombing. This ceremony was a 
memorial for the victims of all terrorist acts that have been 
committed against American citizens both home and abroad. That 
day I spoke about how terrorism had progressed from an act 
perpetrated overseas by foreign nationals to acts that have 
struck America right here in its heartland. I said it that day, 
and I will repeat today, we must do whatever it takes to stop 
the killing and brutality perpetrated on innocent Americans.
    As I looked over the crowd that day, there were victims 
from the Beruit bombing, the Pan Am bombing over Lockerbie, the 
World Trade Center, Dhahran, Riyadh, and other terrorist acts. 
I experienced the pain first hand. As I looked out over the 
crowd, there were spouses who had lost their partners, parents 
that had lost children, and loved ones who had mourned the 
dead.
    I ask this committee to please help stop the senseless 
killing and brutality of American people by passing legislation 
to curb the threat of terrorism in the United States and abroad 
against American citizens. Next year, when I come to Washington 
for the memorial, I do not want to see any new faces filled 
with the pain and suffering.
    Thank you.
    Senator Ashcroft. Roger Winter, the Director of the United 
States Committee for Refugees, has just returned from Africa. 
We welcome your testimony and your insight into the 
humanitarian challenges that face the Sudan.

    STATEMENT OF ROGER WINTER, DIRECTOR, U.S. COMMITTEE FOR 
                    REFUGEES, WASHINGTON, DC

    Mr. Winter. I would like to link the internal situation in 
Sudan to its international terrorism, because what is going on 
inside Sudan amounts to terrorism against the Sudanese people 
by the NIF Government. But, first, I have to tell you, Mr. 
Chairman, I have been coming up before this committee and the 
comparable committee in the other body for the last 8 years, 
and working in Sudan for the last 16 years. I started out as 
one of these neutral humanitarian types that was seeking to 
bind up the wounds of those people who were being victimized by 
conflict in Sudan.
    But I must say at this point in time I have very strong 
views about the fact that we should not be talking about 
containing what is happening at the hand of the Government of 
Sudan. We should be talking about eliminating the Government of 
Sudan. As it stands now, it is in the interests of the United 
States, it is in the interests of the Sudanese people, it is in 
the interests of the regional States contiguous to Sudan, that 
the administration which has shown this track record of both 
international and internal terrorism no longer be in a position 
to be recognized as a sovereign government.
    And I am here to tell you today that amongst all the States 
that are the participants in this international terrorism 
network or matrix, this is the one State in which the 
possibility of fundamental change exists, and that is why I 
would like to link my comments to the internal dynamics of 
Sudan.
    First of all, let me say my views are strong, because I was 
exceedingly involved in Sudan at the time this government came 
to power. Keep in mind they overthrew a democratically elected 
government. Since then, there has been no true participatory 
politics in Sudan. There are no parties that really function as 
parties.
    When we talk, as a number of people have done earlier 
today, about a million and a half people dead because of the 
actions of this government and the war that it has carried 
forth, you need to understand, that a million and a half is a 
heck of a lot larger number than the number of dead from Zaire, 
from Bosnia, from Somalia all put together.
    This is a human tragedy of a massive dimension. It is hard 
to imagine what 2 or 3 million internally displaced and war-
affected people look like in south Sudan, but if you understand 
there are only 4 or 5 million of them there, so you are talking 
about 50 percent of the total population of south Sudan having 
been war-affected and displaced. It is a very dramatic impact 
that we are talking about.
    The massive human rights abuses of this government have 
been documented by my colleagues in the human rights sector as 
clearly as could possibly be the case. Once it came to power, 
it purged the universities, it purged the intellectuals, it 
purged the labor unions, it purged the military, it eliminated 
a free press.
    Government forces have engaged in religious persecution. I 
should point out not only the burning of Christian churches, 
but they are not averse to destroying mosques in certain parts 
of the country, such as the Nuba Mountains, because they 
believe that the people who worship in those mosques do not 
represent the right brand of Islam.
    But what we have in particular in south Sudan is the loss 
of an entire way of life, the loss of an entire generation of 
young people. There is no possibility of restoring the lost 
education which has produced people who know nothing about how 
to function, other than by taking up arms to defend themselves, 
because that is what they have had to do.
    This government has consistently manipulated the 
humanitarian relief efforts of the United Nations through 
Operation Lifeline Sudan. It has consistently bombed civilian 
populations, because it has a very tough time locating military 
targets of the SPLA.
    What they do is, they fly over in Antonovs, little two-prop 
jobs, with bombs, and they roll them out the back door. They 
roll them out on the only identifiable targets they have, which 
are almost never military. They are markets, or they are camps 
of internally displaced people. Those are the bulk of the 
casualties that you get at the hands of this particular 
government.
    You may not know that they even bombed, on April 20 of this 
year, the town of Yei, while American Secret Service personnel 
were on the ground advancing what was expected to be a meeting 
between former President Carter and the head of the Sudan 
People's Liberation Movement, Dr. John Garang. Carter was going 
there on a mission of peace.
    The Government of Khartoum knew that, and their response 
was to bomb the town.
    I think all of these things, both the international 
terrorism that we discussed previously and this internal 
terrorism that I am talking about, are linked to the NIF 
agenda. They are linked to the NIF agenda, which is to Islamize 
and Arabize not only Sudan but also the region.
    The mission as I believe it is seen in Khartoum, when it 
comes to the regional States, is to eliminate, to destabilize 
those States in the region that are pro-American, secular 
governments. They have problems with the pro-American presence. 
They have problems with the secular presence, and their focus 
on Eritrea, their focus on Ethiopia, and their focus on Uganda 
are very conscious.
    Let me just give you one example. The Government of 
Khartoum documentedly supports what is called the Lord's 
Resistance Army in Northern Uganda. Now, the Lord's Resistance 
Army is sometimes referred to as an extremist Christian sect. 
It is not any variety of Christianity I know, because their 
program amounts basically to violence against civilians, 
civilians that are following the Government of Uganda in terms 
of trying to reconstruct and promote development in that 
society.
    The LRA does not have a political program. They engage in 
gratuitous violence like cutting off people's noses, cutting 
off people's lips. You should see those people. That is the 
kind of regional terrorism that this government that we are 
talking about has promoted.
    In my view, the threat that it represents to our allies in 
the region, Eritrea, Ethiopia, Uganda, is a direct threat to 
U.S. interests, and we ought to be responding accordingly.
    Now, I said before that I think there is a little bit of 
good news here, despite the fact that the State Department did 
not seem to recognize it earlier, and that is that Sudan is the 
one State that is highly vulnerable within the international 
terrorist complex.
    Iran is tough. Iraq is tough. Libya is tough. A lot of 
these guys are tough. Sudan is not so tough, and the reason it 
is not so tough is there is a massive effective internal 
opposition to this government. There is armed warfare against 
this government that is occurring day by day by day, and it is 
succeeding on the ground.
    The opposition is not just the Christian and animist south. 
It is a coalition of forces under the umbrella of the National 
Democratic Alliance that involves traditional Muslim 
leadership, a variety of Muslim elements from the north in 
league with the Sudan People's Liberation Army in the south, 
and over the last year-and-a-half or so the tide has definitely 
turned in the favor of these forces.
    There are now four military fronts in Sudan. There is a 
national Democratic Alliance Front, the so-called ``Eastern 
Front'' which is between Port Sudan and Khartoum, which is the 
most strategic part of Sudan that you can imagine, because all 
of Khartoum's supplies come through Port Sudan. The economy of 
Sudan is based on transiting that territory, and their oil 
supplies and petrol and all of that are based on that.
    There is a front further south in Upper Nile and southern 
Blue Nile Province in the area of the dam at Damizine, which 
provides 80 percent of the power supply for Khartoum.
    There is the front that the SPLA operates in the Nuba 
mountains, where ethnic cleansing or cultural cleansing is 
going on at the hands of this government, and there is the 
major front in the south.
    I visited Yei, which fell to the SPLA about 8 or so weeks 
ago, just last week, and all of the garrison towns between Yei 
and the Ugandan border have all recently been taken by the 
opposition. The SPLA has eliminated the West Nile Bank Front, 
which is one of the terrorist organizations functioning within 
Uganda.
    What I am trying to tell you, Mr. Chairman, is that these 
four fronts and this combined capacity of the Sudan People's 
Liberation Army and the National Democratic Alliance colleague 
forces represent a significant threat to the survival of this 
government; and that being the case, it seems to me the 
possibility of talking about not containing but making a 
fundamental change in Sudan is realistically on the table.
    We do not need Americans to do this. We do not need 
American hardware to do this. There is a strong capacity inside 
Sudan to do this. My view is that what we ought to do are the 
following three things.
    First of all, it is my view that we need to support that 
internal opposition, to support the victims, the humanitarian 
victims of the war in Sudan, and we need to support our allies 
in the region. First of all, we need a clear policy. We do not 
have a clear policy, Mr. Chairman. The U.S. Government does not 
have a clear policy on Sudan.
    Sudan in my view is an enemy State. It backed Saddam 
Hussein in the Desert Storm war. It is engaged in the terrorism 
that we talked about on the international level. It has engaged 
in the terrorism I talked about on the internal level, but we 
continue to send ambiguous kinds of signals about how we are 
dealing with Sudan.
    We talk about changing their behavior. Not likely, sir. As 
I said, I have been testifying before this committee for at 
least 8 years, and I have seen how they change their behavior 
and how they change it back when it suits them, after we stop 
looking seriously at them, and that has happened on any number 
of occasions.
    What must they do more than has already been acknowledged 
in this hearing for us to begin to view them as an enemy State 
worthy of our specific support to their opposition?
    Second, we need to respond to the urgent humanitarian needs 
of civilians in the south of Sudan. I mentioned the areas I 
visited last week. These are areas that, now that they are free 
of the heavy-handed Government of Sudan, thousands, 75,000 to 
100,000 refuges that were formerly outside the country are 
returning.
    There is no food up there. This whole area is war-affected. 
For refugees who are returning there will be months before they 
can produce a crop. There is no food there now. People are 
living off mangoes out of the trees, and that mango diet really 
does not suffice.
    But what we see, I tell you frankly, from the Sudan field 
office of USAID that handles this area, based in Nairobi, is a 
lack of energy and a lack of creativity. For example, that 
office has drawn physical lines in the sand above which it will 
not supply humanitarian assistance, and these lines fall far 
short of where these returning refugees would like to go home 
to begin to start their life again, to begin to become 
productive and independent.
    There is a lack of energy and a lack of creativity in USAID 
on this, and Operation Lifeline Sudan, which somebody earlier 
referred to as a unique effort to try to meet the needs of 
civilians regardless of what war sector they were found in is 
something that the Government in Khartoum long ago cutoff at 
the knees and manipulates regularly.
    So, for example, this Operation Lifeline Sudan, which our 
Government provides resources to, is barred by the Government 
in Khartoum from assisting civilians every time there is a 
fight in a location and the territory winds up in the hands of 
the SPLA.
    So in Yei there are hospitals filled with war-wounded and 
other desperate kinds of civilians. There is no food assistance 
up there or medical assistance provided by the OLS, because the 
Government of Khartoum does not allow it. We need to meet those 
needs. There are ways to do that.
    Third, last year in the report on the foreign operations 
appropriation, the Congress--you spoke of one kind of intent 
earlier. There was another intent stated fairly clearly, I 
think, in the report on the foreign ops appropriation. 
Basically what it did was, in both the area of disaster 
assistance and in the area more particularly of development 
assistance it says, ``the committee authorizes AID to use 
development and disaster assistance funds for capacity building 
purposes in areas of south Sudan outside the control of the 
Government of Sudan.''
    The clear interest of the Congress was to begin to draw 
lines in the sand that demonstrated that the American people 
and the American Government recognized the threat that the 
Government in Khartoum represents, and to begin to concretely 
side with its opposition and with its victims and with our own 
regional allies. That frankly, in my view, is what we should 
do.
    I believe there is a convergence of interest on the part of 
the United States, on the part of our regional allies, and on 
the part of the Sudanese people to have that government no 
longer be the Government of Sudan.
    Thank you.
    [The prepared statement of Mr. Winter follows:]

                   Prepared Statement of Roger Winter

Introduction
    I am Roger Winter, director of the U.S. Committee for Refugees. 
Thank you for conducting this hearing on ``Terrorism and Sudan'' and 
for inviting me to testify.
    Senator Ashcroft, I know this is the first hearing on Africa under 
your leadership as Chairman of the African Affairs Subcommittee. I and 
the U.S. Committee for Refugees staff will always be available to 
provide you and your colleagues continued information, analysis, and 
policy recommendations on conflict and humanitarian concerns in Africa.
    The U.S. Committee for Refugees (USCR) is a nonprofit, 
nongovernmental organization that regularly monitors and assesses the 
plight of refugees and displaced people around the world. We have 
defended the rights of refugees, displaced, and war-affected people for 
39 years. To do that seriously, we regularly go on site in the midst of 
war and conflict situations, documenting conditions, analyzing the 
political environment, and offering informed policy recommendations. I 
am pleased to have an opportunity to offer my perspective on Sudan at 
this hearing.
Linking Sudan's International and Domestic Terrorism
    Mr. Chairman, I returned three days ago from my most recent site 
visit to southern Sudan. I met in the field with the leaders of the 
rebel Sudan People's Liberation Movement (SPLM). I visited several 
locations in the south, including Yei, Maridi, and Kaya. I also spent 
time in Uganda, which has hosted large numbers of Sudanese refugees, 
has been bombed by Sudanese military planes, and has suffered egregious 
rebel attacks supported by the regime in Khartoum.
    As this testimony makes clear, I have strong views regarding the 
conflict in Sudan and the role of the extremist National Islamic Front 
(NIF) government there. I did not start out with such strong views. I 
work for a humanitarian agency, and that orientation is the story of my 
professional life. However, I have become particularly engaged on Sudan 
over the years by the needs of the victims of conflict, and I have seen 
that the destructive agenda pursued by the Government of Sudan has 
tragic consequences:
  <bullet> More civilians have died unnecessarily in Sudan than all the 
        casualties of Somalia, Zaire, and Bosnia combined--about 1.5 
        million during the last decade. African Sudanese have the 
        status of 4th class citizens in their own country. They have 
        endured constant bombing of civilian concentrations in the 
        south--mostly markets and displaced persons camps.
  <bullet> The education of a whole generation of southern Sudanese, 
        and many northerners too, has been lost.
  <bullet> Literally millions of people have been uprooted from their 
        homes. An independent, productive way of life has been stolen 
        from them.
    All of the above, not just this last item, are a consequence of an 
NIF government agenda to impose a virulent fundamentalist ideology on 
an unwilling populace, while a largely disinterested West watched.
    Mr. Chairman, the role played by the NIF government in Sudan has 
been overwhelmingly negative. I come to you today with an important 
message, however:
    It is my view that Sudan is the one state sponsoring terrorism in 
today's world that holds realistic potential for fundamental change in 
the near-term. That change is, in my view, achievable within this 
calendar year. It will be a change produced by Sudanese themselves, 
without direct involvement of U.S. capacity. Since the Sudan government 
is so clearly a player in the world of international terrorism, it is 
distinctly in the interest of the United States to see such political 
change occur, and to encourage it.
    An extraordinary but true story that has not received attention in 
the American press summarizes the audacious lack of scruples exhibited 
of the Sudan regime both toward the United States as well as toward 
peace efforts inside Sudan. On April 20, Sudan government war planes 
bombed the strategic town of Yei in south Sudan while four U.S. Secret 
Service personnel were on the ground there preparing for the arrival of 
former U.S. President Jimmy Carter. President Carter was scheduled to 
visit Yei in an attempt to encourage Dr. John Garang, Commander-in-
Chief of the SPLA, to force a ``peace accord'' with the Sudan 
government. The Sudan government knew of Carter's mission.
    Why did the Khartoum regime commit this depraved act? The 
government of Sudan is aware that its survival is now in question. I 
can only speculate that, in its desperation, the NIF government 
intended its bombs to kill Dr. Garang, and thereby decapitate armed 
opposition to the government, even at the risk of injuring or killing 
former President Carter. This outrageous act reveals the Sudan 
government's incorrigible mindset: the intention of President Carter 
was to seek an end to the war; the government response was to bomb.
    Let's put this in its full perspective. To the best of my 
knowledge, the last time a high foreign official seriously threatened 
violence against a former American President was in April 1993, when 
Iraq's Saddam Hussein planned to kill former President George Bush in 
Kuwait. Our government bombed Iraq in response.
    Mr. Chairman, I understand that the primary focus of this hearing 
is the export of terrorism by Sudan's National Islamic Front rulers. 
The U.S. government has placed Sudan on the list of countries that 
sponsor international terrorism.
    In my testimony, I would like to establish an important link--too 
easily overlooked here in Washington--between the international 
terrorism practiced by the Sudan government, and the terrorism it 
perpetrates against its own people, as well as against its immediate 
neighbors in Uganda, Eritrea, and Ethiopia. It is my belief that the 
NIF regime's levels of terrorism--international, regional, and 
domestic--are closely intertwined. They emanate from the same font of 
ideological extremism, the same sense of impunity, and the same disdain 
for international law and humanitarian principles at home and abroad. 
Sudan's international terrorism starts at home.
    It is my conclusion that the most effective way to counteract and 
ultimately end the NIF's terrorism abroad is to react aggressively to 
its domestic terrorism. We should support in nonlethal ways the Sudan 
government's opposition and victims. That will hit the NIF where it 
hurts. The international community's persistent failure to respond 
forcefully to the Sudanese government's internal terrorism during the 
last eight years has, in my view, reinforced the NIF's notion of 
invulnerability and has perpetuated the regime's willingness to 
continue terrorist acts regionally and internationally.
    Fortunately, the tide of events inside Sudan has turned decisively 
against the government of Sudan in the last year. This presents the 
United States and the world with a real opportunity to see progress on 
the anti-terrorism front.
Years of Domestic Terrorism
    As director of USCR, I have been a close observer and often an 
eyewitness of events in Sudan for 16 years. I first traveled to Sudan 
in 1981 and have conducted multiple visits to southern Sudan almost 
annually on behalf of USCR since 1988.
    On June 30, 1989, an extremist government came to power by military 
coup in order to prevent peace in Sudan. In the process, it overthrew a 
democratically elected government. It came into power with the mission 
to Islamicize and ``Arabize'' Sudan and the entire continent of Africa. 
In this endeavor, it has forged strong links with Libya, Iran, and 
Iraq, with violent extremists in Algeria and elsewhere, and depended on 
a constant supply of Chinese arms.
    Sudan's terrorism against its own people is all too clear. In eight 
previous congressional hearings on Sudan at which I have testified 
since 1989, I have depicted the Sudan government's program of famine, 
human rights abuses, massive population displacement, and other scenes 
of destruction against its internal opposition.
    Consider the parallels between the Sudan government's international 
terrorism and its domestic pogroms:
  <bullet> Internationally, Sudanese officials were allegedly linked to 
        plans to bomb prominent buildings in New York City. 
        Domestically, Sudanese military planes have regularly bombed 
        international relief operations as well as clearly marked sites 
        where needy southern Sudanese civilians have congregated for 
        assistance.
  <bullet> Internationally, the 1995 assassination attempt against 
        Egyptian president Hosni Mubarak received support from the NIF 
        regime, according to investigators. It created an international 
        uproar. Domestically, more than 1.3 million southern Sudanese 
        have died since 1983 as a direct result of civil war and a 
        range of repressive policies perpetrated by the Sudanese 
        government. This massive death toll--twice as large as previous 
        estimates--has been carefully documented in a 1993 USCR study, 
        ``Quantifying Genocide in the Southern Sudan.''
  <bullet> Internationally, the U.S. government cites alleged Sudanese 
        government support and training for terrorist groups such as 
        Abu Nidal, Hezbollah, and Hamas. Domestically, the same NIF 
        regime has provided arms and training to local ethnic militia 
        that have attacked camps of defenseless displaced persons in 
        southern Sudan. These government-backed militia have 
        perpetrated egregious human rights abuses over the years. I 
        have seen the corpses and destroyed villages with my own eyes.
  <bullet> Internationally, the Sudan government regularly denies that 
        it harbors terrorists. Sudanese officials use the same bald-
        faced stonewalling in an effort to hide their transgressions at 
        home. The Khartoum regime has regularly denied international 
        relief organizations access to populations needing emergency 
        assistance in the south and west. Sudanese officials have 
        expelled the International Committee of the Red Cross on a 
        number of occasions, once for more than a year.
    In other words, the lethal tactics that Sudan's leaders apparently 
use to threaten the United States and the rest of the world through 
terrorism echo the ruthless tactics Sudan's leaders use daily to wreak 
havoc on their own people.
    The government of Sudan has consistently impeded international 
efforts to provide humanitarian relief to needy Sudanese civilians. In 
my testimony to Congress in past years, I have joined with other 
congressional witnesses to urge innovative relief strategies by the 
international humanitarian community and have pressed U.S. officials in 
public and private to make Sudan a high foreign policy priority. I have 
tried to emphasize that Sudanese government policies deliberately 
target southern Sudanese citizens for violence and displacement. Even 
in the capital, Khartoum, in plain view of international diplomats, NIF 
policies of forcible relocation have attempted to push three quarters 
of a million persons out of the city into destitute locations.
    The Sudan government consistently views many of its own citizens as 
``the enemy.'' Sudanese have suffered immensely from the NIF's 
terrorism against its own people. In our annual written reports, USCR 
has documented the dramatic increase in refugees and internal 
displacement. In 1985--four years before the NIF seized power--USCR 
reported that some 70,000 Sudanese were refugees due to Sudan's civil 
war. In 1990--one year after the NIF seized control--USCR reported that 
the number of Sudanese refugees had risen to a half-million, plus some 
4 million or more internally displaced and war-affected persons. By 
1995, the number of uprooted Sudanese remained approximately 4.5 
million, according to USCR estimates.
The Regional Threat
    Mr. Chairman, in your review of Sudan's international terrorism, I 
urge you to consider the destabilization it has inflicted on its own 
neighbors. The government of Sudan has been actively engaged in 
undermining secular, pro-American governments in the Horn of Africa.
Eritrea
    Reports indicate that the NIF regime has been assisting at least 
two Eritrean rebel groups: The Eritrean Islamic Jihad (EIJ) and the 
Eritrean Liberation Front (ELF), led by Abdalla Idris. The NIF 
reportedly provides material support and facilities for training to the 
EIJ. In late 1994, Eritrean government forces killed dozens of 
Sudanese-backed Jihad militants inside Eritrea, and captured several 
others. The Sudan-based Jihad is believed responsible for placing 
dozens of landmines and for conducting terrorist attacks inside Eritrea 
since late 1996.
    Eritrea severed diplomatic relations with Sudan and invited 
Sudanese opposition groups to establish offices in Asmara, the Eritrean 
capital, in retaliation for the NIF's hostile actions. Sudanese 
officials point to Eritrea's support for a new coalition of Sudanese 
groups mounting an armed resistance to the Khartoum regime and 
criticizes the Eritrean government for handing over the Sudanese 
embassy building in Asmara to Sudanese opposition groups.
Ethiopia
    Khartoum is also providing support to several Ethiopian opposition 
groups, according to press reports and sources in the region. The NIF 
regime provides financial and material support to the Islamic 
fundamentalist group, el-Itahad and to the Islamic Front for the 
Liberation of Oromia (IFLO). The Somalia/Ethiopia-based el-Itahad has 
claimed responsibility for terrorist hotel bombings in the Ethiopian 
capital last year. El-Itahad is also responsible for the attempted 
assassination of the Ethiopian Transportation and Communications 
Minister last year. El-Itahad bases along the Ethiopia-Somalia border 
are being used by international terrorists as safe haven.
    In response to these provocations, Ethiopian forces took pre-
emptive measures inside Somalia, attacking these training camps twice 
last year. The attacks captured many el-Itahad members, as well as 
members of extremist groups from the Middle East.
Uganda
    A bizarre extremist ``Christian'' group, the Lord's Resistance Army 
(LRA), operating out of southern Sudan with the support of the Sudanese 
army, has terrorized innocent civilians in northern Uganda for several 
years. The NIF government arms, trains, and protects the LRA and other 
anti-Ugandan government groups in an effort to oust the government of 
Ugandan President Yoweri Museveni, viewed as pro-American by the NIF 
regime. The situation in northern Uganda is increasingly unstable, and 
there is concern for widespread instability in the country. The United 
States has declared northern Uganda a ``disaster zone.''
    The Sudan government also backs the West Nile Bank Front (WNBF), an 
armed group operating along the Zaire-Uganda border to destabilize 
Uganda. A third Ugandan rebel group, a shadowy group known as the 
Allied Democratic Forces, also operates from Zaire and has raided 
southern Uganda in recent months. Some analysts have alleged that this 
third rebel group has received backing from the Sudan government.
    Sudan's NIF regime and some observers have maintained that the 
Ugandan government supports the SPLA in southern Sudan and allows use 
of Ugandan territory for military purposes.
    Mr. Chairman, too often outsiders assume that instability and 
violence in this region of Africa are endemic, as if they were part of 
the natural disorder. In fact, many of these insurgencies appear to 
have a guiding hand stretching back to the NIF regime in Khartoum.
Current Military/Political Situation
    The virulent and expansionist extremism of the NIF government has 
caused northern oppositionists and the SPLA to collaborate in seeking 
the government's ouster under the umbrella of the National Democratic 
Alliance (NDA). The emergence of the NDA is critical because it defuses 
the NIF government's major rallying cry: that Islam in Sudan is under 
attack by secularists and the West. The northern opposition forces are 
all Muslim and include the traditional and very conservative Islamic 
leadership, which claims the loyalties of much of Sudan's Muslim 
population.
    In January 1997, the NDA launched a military offensive in territory 
far more strategic to Khartoum than the south. This initiative--the 
``Eastern Front''--has the potential for shutting down Khartoum's vital 
pipeline and corridor to the sea. Combined with NDA military fronts in 
Sudan's Upper Nile and Blue Nile provinces (threatening a dam that 
supplies 80 percent of Sudan's electrical power), SPLA rebel activity 
in central Sudan's Nuba Mountains region, and a strong SPLA offensive 
in the south generally, the NIF government finds itself confronted by a 
major strategic dilemma. For the first time, the government faces 
military challenges on four fronts. Never in its existence has it 
confronted such a direct threat to its own survival.
    In the past two weeks, I have conducted a site visit to southern 
Sudan along the Uganda and Zaire borders, where the SPLA launched an 
offensive in March. Based on what I saw and interviews I conducted on 
the ground, it is clear that the government has suffered major losses 
from north of Yei to the border. Prior to March, government forces were 
stationed at garrisons spaced every five miles or so, coupled with so-
called ``peace villages'' that contained local civilians forced to live 
there in part to serve as partial human shields for government troops. 
Since March, a half-dozen of the government troop garrisons have been 
overrun by the SPLA, along with all the major towns near the border. I 
saw mountains of captured munitions, a destroyed column of tanks and 
military vehicles stretching perhaps a mile-and-a-half, tanks burned 
out, and towns such as Kaya with almost no building unscathed. The 
headquarters of the Ugandan rebel West Nile Bank Front was one of the 
locations captured by the SPLA.
    I interviewed captured Sudan government soldiers, including a 
senior officer who confirmed the great significance of the government's 
losses. While I was meeting with Dr. Garang on May 1, an incoming radio 
message stated that Rumbek had fallen. Days later, the town of Tonj 
fell to the SPLA. In short, the SPLA is closing in on Juba, the vitally 
important capital of southern Sudan, and is now only about forty miles 
away.
    During this site visit, I conducted long discussions with the SPLA 
leadership about the future. Dr. Garang is more relaxed than I have 
ever seen him. He expects that the combined capacity of the SPLA and 
its NDA colleagues will cause the government to fall by autumn. I share 
the view that this is likely.
Current Humanitarian Situation
    Mr. Chairman, you have indicated that you want this hearing to 
convey what terrorism looks like up close, to convey the human faces of 
terrorism victims. During my many trips to southern Sudan during the 
past 16 years, I have unfortunately witnessed the results of the 
terrorism inflicted by the government of Sudan on its own people: 
torched towns, empty fields, butchered corpses, terrified families. If 
you or your colleagues ever care to see our archive of photos and 
videos, we can make it available to you. It can be grisly viewing.
    As I indicated earlier, more than 1.3 million southern Sudanese 
perished during 1983-93 due to the civil war and policies of Sudan's 
government. This means that at least one in five southern Sudanese have 
died of these causes. This may well be a conservative estimate, because 
it does not include the 25,000 or more rebel soldiers killed in combat, 
nor does it include relocated southerners who died in two famines in 
northern Sudan. USCR's research suggests that 80 percent of southern 
Sudan's estimated 5 million population have been displaced at some time 
during the past 16 years. Southern Sudan was impoverished and isolated 
even before the civil war. Humanitarian conditions have only grown 
worse under the NIF regime.
    It is important to understand that innocent civilians are a primary 
target in this war. This many people did not die accidently in 
``crossfires.'' Rebels and government forces alike have committed 
atrocities, to be sure, but there is no doubt that the government bears 
the bulk of the responsibility. As a result of the war, many people 
lack the land or dependable security to farm. During most years, 
malnutrition and disease are pervasive, including measles, malaria, 
tuberculosis, and other afflictions. The war and restrictive NIF 
policies have impeded relief efforts to many locations. The regime uses 
food as a weapon. A senior Sudan official told me face-to-face in late 
1989--several months after the NIF came to power--that the government's 
would unabashedly manipulate relief programs to advance military 
strategy. They have done exactly that.
    The situation remains grim in many places, Mr. Chairman. But there 
is a change that was evident in my recent site visit. Military 
successes by Sudanese rebels this year have enabled up to 75,000 
Sudanese refugees to repatriate from Uganda during the past two months. 
Two major refugee sites in northern Uganda are now virtually empty. 
About 120,000 refugees remain in Uganda at other locations, however, 
but will repatriate if, as expected, the SPLA advance continues.
    Many of the new returnees have been uprooted for eight years. Some 
have managed to return to their homes, but many others have congregated 
at existing camps for displaced Sudanese, where they hope to receive 
humanitarian assistance while they assess security conditions in their 
home areas. Current food stocks operated by the World Food Program 
(WFP) are dangerously low, however. In addition to the returning 
refugees, some 2.1 million Sudanese require at least partial food 
assistance this year, according to WFP assessments. Relief workers have 
found malnutrition rates as high as 26 percent in some areas of the 
south.
    It is clear that food stocks in some locations such as Yei are 
virtually nonexistent. People are surviving entirely on mangos, a 
supply that will pass.
    As the tide of war has turned against them, officials of the NIF 
have reacted aggressively against the local population and 
international relief efforts. Sudanese authorities are placing new 
restrictions on aid deliveries by the UN-sponsored aid program, 
Operation Lifeline Sudan. Aerial bombardments by government planes 
against civilian targets in the south continue. A report in February by 
the UN Human Rights Special Reporter for Sudan, Gaspar Biro, concluded 
that ``all Sudanese citizens living in areas controlled by the 
government of Sudan are potential victims of human rights violations 
and abuses.'' I share that view.
    In the conflict area of northeast Sudan, the NIF has been accused 
of a ``scorched earth campaign'' by international investigators, and 
100,000 persons are newly displaced. An estimated quarter-million 
southern Sudanese, many of them displaced, remain crowded into the 
major southern town of Juba, including 10,000 new arrivals since March. 
More than a million Sudanese have fled or migrated to neighboring 
Egypt, according to some estimates, where many of them live in a 
pseudo-asylum.
    Sudan's terrorist activities are disquieting to the world 
community, but innocent Sudanese themselves are paying the highest 
price for their regime. Humanitarian conditions in much of Sudan are 
grotesque.
Recommendations
    1. Establish a clear U.S. policy on Sudan that reflects U.S. 
interests and sides with the people against a rogue government.

    U.S. policy has not been clear. It has gradually evolved in a 
desirable direction, in my view, largely because of the forceful 
efforts of the National Security Council and the U.S. Congress. The 
U.S. government's lack of political clarity confuses our allies in the 
region. The United States seems disposed toward punishing Sudan for its 
extremist behavior, yet the U.S. grants Khartoum an exception from our 
country's anti-terrorist legislation. The United States government 
officially welcomed the so-called peace accord signed in April (among 
the Sudan government and several minor rebel groups, not including the 
SPLA), yet U.S. officials generally recognize that it is a pact among 
allies that the NIF government will exploit in its ongoing efforts to 
divide and conquer the south.
    It is in our interest, as well as the interests of the people of 
the Sudan, to see a new, more moderate government in Sudan. This is an 
achievable goal the United States should actively and unambiguously 
pursue.

    2. Respond to the urgent humanitarian needs in south Sudan.

    Partly due to the lack of policy clarity, U.S. humanitarian efforts 
to assist war-affected Sudanese lack energy and creativity. The USAID/
Sudan field office, based in neighboring Kenya, typifies the problem. 
For example, thousands of Sudanese refugees currently are returning to 
areas newly captured by the SPLA. Yet foodstuffs, seeds, and 
agricultural tools are not available to them, undermining their ability 
to survive until they can produce their first crops. The USAID/Sudan 
field office will not allow food deliveries north of the town of Bazi. 
Therefore, returning refugees congregate short of their homes, leaving 
them in limbo. The food situation in the newly captured town of Yei is 
desperate--people will not survive there long without quick food aid.
    In addition, U.S. officials have allowed the NIF to undermine 
Operation Lifeline Sudan (OLS), a unique initiative that made 
humanitarian history when first implemented in 1989. OLS has become 
entirely subject to the whims and strategic interests of the NIF 
government. The United States has recently taken only minimal steps to 
contest the Sudan government's strategic efforts to thwart relief 
deliveries to civilians in areas under SPLA control.

    3. Implement the development assistance language contained in the 
Committee report on last year's U.S. foreign operations appropriation 
legislation. The special language attempted to give U.S. officials a 
``green light'' to provide both relief and development assistance to 
people in areas of Sudan outside the Sudan government's control.

    Specifically, in the section labeled ``International Disaster 
Assistance,'' the report stated: ``The committee encourages AID to 
utilize funds made available for nongovernmental organizations 
operating in areas of southern Sudan outside government control to 
include capacity building activities in additional to traditional 
relief programs.''
    Under the heading, ``Development Assistance,'' the same report 
stated: ``The committee authorizes AID to use development and disaster 
assistance funds for capacity building purposes in areas of southern 
Sudan outside the control of the government of Sudan. The committee 
strongly encourages AID to make funds from these accounts available to 
nongovernmental organizations for this purpose. The committee expects 
that theses will not be used in areas controlled by southern factions 
that have and continue to cooperate with the government of Sudan.
    Simply put, the State Department has blocked implementation of this 
clearly stated Congressional intent. In my view, the Congressional 
intent is exactly the policy we should pursue.
    In conclusion, Mr. Chairman, the government of Sudan remains a 
terrorist threat abroad, continues to destabilize its neighbors, and 
continues to perpetrate the worst terrorism against its own citizens. 
Yet the Sudan government is more vulnerable domestically than ever 
before.
    If this Subcommittee, this Congress, and this U.S. government are 
truly dedicated to ending the NIF regime's terrorism abroad, the surest 
and most effective way to accomplish that goal, in my view, is to 
support the actions of NIF opponents inside Sudan. My just-concluded 
site visit to Sudan convinces me that the opportunity is now.

    Senator Ashcroft. Thank you very much.
    I think you have been very clear in your remarks, and I 
thank you for the directness with which each of you has spoken.
    To Mr. Smith, I would like to for the record have it clear. 
It is my understanding that your wife, carrying an unborn child 
of yours, was killed in the World Trade Center bombing. Is that 
correct?
    Mr. Smith. That is correct.
    Senator Ashcroft. That is not a fact which any of us really 
want to recite, but I wanted that to be part of the record of 
this proceeding. I just wanted to make that very clear.
    I thank you for your willingness to come and help us 
understand that terrorism is not something that just happens to 
people on the other side of the globe, but it is something that 
can strike very close to home.
    Mr. Smith. Obviously dealing with one of these things was 
one thing. I guess there was something said in one of the 
speeches that I heard one day of, when we as Americans cannot 
send our loved ones to work and expect them to come home the 
same way they went to work, I think this world has changed from 
where it was, and I think February 1993 was the big change.
    Senator Ashcroft. I thank you for coming.
    Mr. Emerson, the regulation promulgated by Treasury in 
conjunction with the State Department authorized by section 321 
of last year's enactment includes the language that relates to 
terrorism in the United States, or in the United States of 
America. Do you think it is productive to draw such a bright 
line between terrorist acts here and abroad, or is it a more 
difficult universe than that?
    Mr. Emerson. It is impossible to draw that line. We used to 
have a situation in this country where we had a distinction 
between foreign terrorism and domestic terrorism. There is no 
such distinction any longer.
    The global village phenomenon that we saw CNN have with 
regards to getting into every single television set around the 
world has also replicated itself with regard to terrorism. 
Terrorism is an international phenomenon. Terrorists come and 
go as they please. They move and wire transfers, millions of 
dollars, they get credentials to come in and out of countries, 
they use faxes and modems and other telecommunications systems. 
There is no such distinction as the domestic or foreign 
terrorist.
    There may be distinctions in their identity, but there is 
no distinction in what they are carrying out or their ability 
to carry out any place in the world, whether they live in 
Chicago, Dallas, Brooklyn, or in Khartoum.
    Senator Ashcroft. Thank you very much.
    Mr. Winter, the civil war in Sudan is costly to the 
Government of Sudan. I understand estimates range between $1 
million and $4 million a day. Where is the government getting 
the money to wage that kind of civil war against its own 
people?
    Mr. Winter. Without professing to know all the resources, 
what is clear is that the radical Islamic movement is well-
financed. It draws from a variety of Saudi and other financial 
resources; and, while Sudan is one of the poorest countries of 
the world, it has been able to purchase arms. Very often, those 
arms are financially enabled by Iran or similar kinds of rogue 
States, usually, but not always, purchased from the People's 
Republic of China.
    I can tell you from what I saw last week in the areas that 
were captured by the SPLA the government certainly did not lack 
arms. I am not a military person, but howitzers and canons of 
all varieties were all over the place. T-55 tanks are all over 
the place, many of them burned out as a result of the fight 
that occurred there that I was able to witness, a whole column 
that was taken out by the SPLA.
    So I mean, they have these resources. They have the 
alliance with fundamentalist elements in Saudi Arabia and 
elsewhere, and they have governments like Iran that are willing 
to supply them. These are petrodollars, recycled for killing 
Sudanese.
    Senator Ashcroft. I want to thank all of you for coming. I 
want to thank you for your patience. I want to thank all of the 
witnesses for appearing here today. I think the hearing 
provides us with an opportunity to have a frank discussion 
about issues relating to Sudan and to terrorism, about human 
rights issues. It is appalling to hear about the deprivation of 
religious freedom that affects all faiths and pits one religion 
against another. It gets to be intrafratricidal, relating even 
to different iterations of Islam.
    Obviously, there are still issues to be resolved, questions 
to answer. I hope this hearing is the first step toward 
correcting at least the regulatory loophole for section 321.
    I want to work together with the administration. We do need 
to do that to more effectively isolate Sudan and other State 
sponsors of terrorism.
    I want to thank all of you for being here, and I would 
invite individuals who want to participate in the record of 
this hearing to understand that the record will remain open 
until Monday so that if you have additional documentation that 
you would like to provide we will be pleased to receive it.
    Thank you very much. [Whereupon, at 1:23 p.m., the 
subcommittee adjourned.]


                            A P P E N D I X

                              ----------                              


      Responses to Questions Submitted by Members of the Committee

                 United States Department of State,
                                          Washington, D.C.,
                                                     July 23, 1997.
Hon. John Ashcroft,
Chairman, Subcommittee on African Affairs, Committee on Foreign 
    Relations,
U.S. Senate.
Dear Mr. Chairman: Following the May 15, 1997 hearing at which 
Assistant Secretary of State George Moose testified, additional 
questions were submitted for the record. Please find enclosed the 
responses to those questions.
    If we can be of further assistance to you, please do not hesitate 
to contact us.
            Sincerely,
                                            Barbara Larkin,
                          Assistant Secretary, Legislative Affairs.
                               __________

   Responses of Mr. Moose to Questions Submitted by Senator Feingold

    Question. I understand that for the past several weeks, the 
Government of Sudan has denied flight clearance for all Operation 
Lifeline Sudan consortium flights from Kenya into south Sudan and 
that--as a result--the humanitarian organizations are facing serious 
fuel shortages and risk food shortages as well. What explanation has 
the United States received for the denial of flight clearance? In what 
way does the current situation endanger the humanitarian community? 
What steps is the United States taking to reinstate immediately the 
authorization for OLS flights?
    Answer. The Government of Sudan (GOS) denied flight clearance to 
all Operation Lifeline Sudan (OLS) aircraft on May 4. The GOS also 
suspended relief flights from Khartoum to government-held areas. The 
GOS disallowed C-130 flights during the previous two weeks, but allowed 
other OLS aircraft operations. USG relief officials shared the concern 
of OLS partners that the denial of flight clearance would negatively 
impact relief operations, with security for relief workers and the need 
for timely delivery of seeds and tools our primary concerns.
    The relief community met immediately in Nairobi and Khartoum to 
discuss the flight ban, dispatched letters to various ministries, and 
the UN and GOS held high-level meetings. The GOS listed the military's 
desire for ``clean skies'' to improve aircraft identification in areas 
of military operations as the rationale for the ban but pledged to lift 
it shortly. On May 16, the GOS authorized flight clearance to most of 
the usual areas, with the exception of three towns recently seized by 
the SPLA. However, the C-130 was prohibited from flying to any 
locations in Bahr el Ghazal and Eastern Equatoria where major military 
operations were underway.
    While any suspension of flights is problematic given the dependence 
of many areas of Sudan on air support for relief operations, the short 
duration of this flight ban mitigated its impact. However, continued 
denial of clearance for the C-130 to fly into Bahr el Ghazal renders 
our attempts to deliver food more difficult, in terms of expense and 
logistics.
    During the flight ban the United States consulted with UN 
officials, participated in various meetings and offered to coordinate a 
donor demarche or press statement. However, the UN asked that they be 
allowed some time to resolve the situation quietly. U.S. Ambassador 
Carney was in Washington during the flight ban and raised USG concerns 
with the Sudanese Ambassador who promised to pass them on to Khartoum.

    Question. In January 1997, the National Democratic Alliance 
launched its first major military offensive, capturing towns along the 
Ethiopia-Sudan border. In early February, NDA forces were 20 miles from 
a key dam. Please give us an overview of the military situation. What 
are the prospects of total military victory for the opposition?
    Answer. Despite recent rebel gains in Sudan, we do not believe that 
the National Democratic Alliance's offensive has tipped the military 
balance decisively in its favor. The situation along the Ethiopia-Sudan 
border has not changed appreciably since January. NDA leaders assert 
that their goal is not to destroy the key dam in that region. At the 
same time, there has been greater rebel pressure along the Eritrea-
Sudan border, where NDA forces are presently threatening to close the 
main road between Khartoum and Port Sudan. Nevertheless, while rebel 
forces have made progress in that region, the onset of the rainy season 
will likely hamper military operations on both sides. On balance, we do 
not believe the opposition has the capability to prevail at this time.

    Question. Both the NIF and the Southern People's Liberation Army 
(SPLA) appear committed to continue their respective military 
campaigns. In this context, can there be hope for a negotiated 
settlement? What further tools could the United States employ to 
increase pressure on Khartoum? Are we doing all we can?
    Answer: We continue to believe that a negotiated settlement is 
possible, although this will require fundamental changes within the NIF 
government. In order to be lasting, however, such a settlement will 
have to address the legitimate concerns of all Sudanese, especially 
with respect to fundamental political and human rights. In light of the 
increased military and political pressure on Khartoum, combined with 
the NIF's increasing isolation within the international community, we 
believe that the prospects for a negotiated settlement have improved 
somewhat over the past year.
    In late May, Kenyan President Daniel arop Moi invited the Heads of 
State of Eritrea, Ethiopia, Uganda and Sudan, as well as SPLA leader 
John Garang, to come to Nairobi to restart the dormant peace process. 
All leaders accepted Moi's invitation. We expect this IGAD summit to 
take place in June. Any breakthrough at this time is problematic.
    The United States remains actively involved in efforts to provide a 
political solution to Sudan's civil war. we play a prominent role in 
the IGAD Partner's Forum (IPF), Sudan Sub-group (formerly Friends of 
IGAD). We have joined with key IPF colleagues to offer our support to 
IGAD's latest effort.
    At the same time, we remain skeptical that the April 21 ``Peace 
Agreement'' between the Sudanese Government and splinter rebel groups 
is sufficient to resolve the civil war and achieve national 
reconciliation. We also seek concrete evidence that the NIF is 
addressing our concerns about its support for terrorism and the related 
problem of regional stability. To achieve our policy goals, we will 
continue to consult and work with Sudanese opposition leaders and 
international players who are involved in the peace process, including 
President Carter, to explore various ways to achieve a comprehensive 
and durable peace in Sudan.
    The Administration is in the midst of a review of its Sudan policy. 
Numerous means of applying pressure on Khartoum to oblige to change its 
behavior are under serious discussion.

    Question. The United Nations Human Rights Commission recently 
passed a resolution condemning Sudan's human rights record. What can 
you tell us about the work of the U.N. Special Rapporteur on the Sudan?
    Answer. Pursuant to the 1996 UNHRC resolution on Sudan's human 
rights abuses, UN Special Rapporteur, Mr. Gaspar Biro, submitted a 
report on the human rights situation in Sudan to the UN Human Rights 
Commission (UNHRC) in accordance with the Commission's resolution 1996/
73. His report, dated February, 1997, documents grave human rights 
abuses such as slavery, arrests without due process, torture, arbitrary 
detention and interrogation, summary executions, indiscriminate 
killings and abductions of refugees, the round-up of street children, 
indiscriminate killings of civilians and devastation of villages; and 
restrictions on freedom of the press, the rights of women, and freedom 
of religion.
    During 1993-97, the United States introduced and supported 
resolutions in the UN General Assembly and at the UNHRC that criticized 
and called for the end of human rights abuses in Sudan. Additionally, 
U.S. efforts in the UNHRC meetings in March 1996 were successful in 
getting Sudan to readmit UN Special Rapporteur Biro to continue his 
investigations. The recent 1997 resolution extended Mr. Biro's mandate 
for another year. We are well aware of widespread human rights abuses 
in Sudan and have denounced these abuses for several years. U.S. 
Ambassador Timothy Carney and other officials have urged Sudan to halt 
the inhumane treatment of Sudanese citizens. We fully support the 
conclusions of UN Special Rapporteur Biro's report. The U.S. Government 
is actively pursuing a negotiated settlement to the 14-year-old civil 
war which has claimed more than a million and half lives. We believe a 
speedy resolution of the conflict would bring about a long overdue 
improvement in the lives of all Sudanese.

    Question. The Government of Sudan and Iran reportedly have warm 
relations. There have been numerous high level meetings and visits 
between the two countries over the past several years. Please describe 
Iran-Sudan relations. Is there any truth to reports that Iran has 
provided Sudan chemical weapons? What about Sudan's relations with 
Iraq?
    Answer. Despite cordial relations between Sudan and Iran, this 
relationship may suffer from unrealized expectations on both sides. To 
a large extent, this relationship is based on some common interests and 
a shared sense of international isolation, although ideological and 
leadership differences militate against closer relations. Iran views 
Sudan as an entree to Africa. For its part, Sudan views Iran as a 
source of much-needed military and other kinds of assistance.
    Although we are aware of worrisome allegations that Iran has 
provided chemical weapons to Sudan, these have emanated almost 
exclusively from the Sudanese opposition and have not been 
corroborated. Nevertheless, this is a serious issue which we continue 
to monitor closely, not only with respect to Iran but also with regard 
to Iraqi support in this connection.
    In general, relations between Iraq and Sudan are cordial and 
mutually supportive. Iraq has provided limited military aid in the 
past, including some training and other modest assistance. Overall, 
however, this mutual support now is mostly rhetorical.

    Question. I understand an agreement was recently signed between 
General Bashir and President Museveni of Uganda. Can you tell us more 
about this agreement?
    Answer. Sudanese President Bashir and Ugandan President Museveni 
held a summit meeting on May 10 in Nairobi, Kenya, which was hosted by 
Kenyan President Moi. Following that meeting, the Foreign ministers of 
Sudan and Uganda signed a Joint Communique, which outlined the main 
issues that were discussed during the meeting. According to the Joint 
Communique, President Bashir briefed President Museveni on the April 21 
``Peace Agreement'' that was signed between the Government of Sudan and 
allied rebel splinter groups. The two presidents welcomed that 
``Agreement'' as a major step towards a just and lasting peace in 
Sudan. They also agreed to work together to bring John Garang into the 
peace process and to complete the peace efforts through IGAD.
    The Sudan-Uganda Joint Communique referred to previously signed 
agreements between the two countries and called for their reactivation. 
Moreover, the two presidents agreed to resolve outstanding bilateral 
issues and problems, including the release of all captured and abducted 
soldiers and civilians. Presidents Bashir and Museveni also agreed to 
request the chairman of IGAD to convene an urgent meeting of that 
organization to discuss measures to reinforce the peace process in 
Sudan. This aspect appears to have been realized. All IGAD leaders and 
John Garang have agreed to meet to revive the IGAD's Sudan peace 
process. Despite this Joint Communique, there remain serious bilateral 
problems that will likely preclude an agreement to resume diplomatic 
relations--at least in the near term--between Uganda and Sudan.

    Question. Sudanese-Egyptian relations became strained in recent 
years partly due to Sudan's Islamic fundamentalist agenda. Relations 
were further strained in 1995 after the assassination attempt on 
President Mubarak by an Egyptian group with ties to the Government in 
Khartoum. What are Egypt's strategic interests in the Horn of Africa? 
How would you describe Egypt's relations with Sudan and Sudanese 
opposition groups?
    Answer. Egypt adamantly opposes the National Islamic Front (NIF) 
regime in Sudan but pursues a cautious approach because of its shared 
borders, water resources, and lengthy history. Egyptian opposition to 
the NIF is due in large part to Sudanese involvement in the 1995 Addis 
Ababa assassination attempt on Egyptian President Mubarak and to 
Sudanese support of terrorism within Egypt.
    While Sudan does not pose a credible military threat to Egypt, the 
NIF poses a terrorist threat against Egypt and the possibility of 
border skirmishes is always present. Cairo has had a Nile water-sharing 
agreement with Sudan since 1959. Should Sudan attempt to stem the flow 
of the Nile, the Egyptians would almost certainly take swift military 
action.

    Question. The United Nations Security Council has passed three 
resolutions demanding that Sudan extradite the three suspects in the 
Mubarak assassination attempt. In 1996, the UN imposed a series of 
sanctions against Sudan for its lack of cooperation on the 
extraditions, but Resolution 1070, which would ban Sudan Airways 
flights, has not yet been implemented. Why has the Security Council 
been unable to act on this resolution? In what way is the United States 
pursuing this implementation?
    Answer. The Government of Egypt is taking the lead in the UN 
Security Council on follow-up to Resolution 1070. There continue to be 
discussions among Security Council members concerning this issue, 
although there are differing views on how best to proceed. For our 
part, we continue to advocate the imposition of air sanctions against 
Sudan and we will continue to support fully Egypt's efforts in the UN 
Security Council. At the same time, we believe that it is important to 
forge a unified position on Sudan, which requires ongoing consultations 
with key allies in the Security Council. We expect these efforts to be 
renewed since the recent election of new governments in some allied 
capitals.
    Egypt has hosted high-profile visits by Sudanese opposition figures 
as a way of sending a strong message that it sees alternative avenues 
of governance in Sudan beyond the NIF. However, the government of Egypt 
has as one of its priorities maintaining the territorial integrity of 
Sudan and it has made this preference very clear.
                                 ______
                                 
                                                       June 4, 1997
Betty Alonso,
Senate Foreign Relations Committee,
DSOB 450,
Washington, DC 20510.

Ms. Alonso: Per your request, enclosed are my written answers to 
Senator Feingold's written questions about Sudan. I appreciate the 
Senator's interest in Sudan's domestic and regional terrorism, 
especially given the Subcommittees's decision to focus on other matters 
during the balance of the hearing.
    As you know, I have mailed an edited version of the hearing 
transcript back to the Committee's publication staff.
    If there is anything else that Sen. Feingold, you, Linda, or your 
colleagues need, please don't hesitate to contact either me or my 
administrative assistant, Alison Seiler.
            Sincerely,
                                           Roger P. Winter,
                             Director, U.S. Committee for Refugees.

  Response of Roger Winter to Questions Submitted by Senator Feingold

    Question. I understand that for the past several weeks, the 
Government of Sudan has denied flight clearance for all Operation 
Lifeline Sudan consortium flights from Kenya into south Sudan and that, 
as a result, humanitarian organizations are facing serious fuel 
shortages and risk food shortages as well. How concerned are you about 
humanitarian access issues?
    Answer. The Government of Sudan (GOS) has a long track record of 
denying OLS access to populations in need. The regime in Khartoum has 
made abundantly clear over the years, by word and deed, that it is 
prepared to manipulate OLS and block entire relief programs for 
political and military reasons. The government of Sudan tends to regard 
southern Sudanese civilians as ``the enemy'' and therefore tends to 
treat OLS and its relief efforts as a subversive activity.
    There is cause for serious concern about current OLS operations and 
humanitarian access problems. Access problems may worsen in coming 
months as the GOS retaliates for its weakened position on the military 
and political fronts. Even though the GOS has allowed a resumption of 
OLS flights from Kenya in recent days, strong potential exists for 
additional cut-offs. Nor should it be forgotten that OLS flights are 
apparently permanently banned to entire regions of Sudan, such as the 
Nuba Mountains. In addition to interference from the Sudan government, 
OLS also faces funding problems. UNICEF's OLS operations, for example, 
have received only 11 percent of the $14 million required from 
international donors to implement its emergency programs for 2 million 
displaced and war-affected Sudanese targeted by UNICEF.
    Restrictions placed on OLS have serious consequences. Malnutrition 
at four key sites in the south--Malakal, Wau, southern Kordofan, and 
Juba--range as high as 24 percent, according to recent surveys. Due to 
the limited OLS air capacity, short interruptions in relief flights can 
cause lengthy food or medical shortages at specific locations. UNICEF 
has tentatively canceled its vaccination campaign later this year. 
Governmental and financial impediments to OLS may prove to be 
particularly dangerous this year, as tens of thousands of Sudanese 
refugees attempt to return to their vulnerable home areas in newly-
captured SPLA territory.
    Congress should continue to push the U.S. government to support 
cross-border relief programs that operate outside the OLS mandate. That 
is the most reliable way to circumvent restrictions that the GOS 
routinely places on OLS. Yes, humanitarian access to southern Sudan is 
a major concern--but, ultimately, access can only be denied if 
decision-makers in the West choose to place a higher priority on 
diplomatic niceties such as ``sovereignty'' and ``gaining governmental 
permission'' instead of doing whatever is necessary to save lives.

    Question. In January 1997, the National Democratic Alliance 
launched its first major military offensive, capturing towns along the 
Ethiopia-Sudan border. In early February, NDA forces were 20 miles from 
a key dam. Please give us an overview of the military situation. What 
are the prospects of total military victory for the opposition?
    Answer. I believe the military forces of the opposition are in a 
position today strategically different entirely to their position at 
any time since this phase of the war began in 1983.
    In my view, the fronts in the south and in the Nuba mountains have 
never threatened militarily the survival of the National Islamic Front 
government, though they were not without major political effect. Even 
had the Sudan Peoples Liberation Army (SPLA) actually succeeded in its 
Juba offensive in 1991, it might not have caused the collapse of the 
government.
    Today, however, the National Democratic Alliance forces, including 
the SPLA, are operating on two additional fronts that can cause the 
government's collapse: the ``Eastern front'' which threatens the 
corridor between Port Sudan and Khartoum, and the front at Damazin 
which threatens the Rosaires Dam. The former front targets Khartoum's 
lifeline to the outside world, the latter the source of perhaps 80% of 
Sudan's electric power.
    The opening of these two newer fronts has caused the government to 
shift its military attention, spreading them thin and enabling the SPLA 
to score major gains in Western Equitoria and Bahr-el Gazal. I believe 
Juba will be severely threatened at a minimum by fall. I believe it 
could well fall by year's end.
    The major effort on Juba, I expect, will be coordinated with 
furious attacks on the two newer fronts. The opposition has the 
capacity to do this. If this analysis is correct, the NIF government 
will not survive, in my view.

    Question. Both the NIF and the Sudan People's Liberation Army 
(SPLA) appear committed to continue their respective military 
campaigns. In this context, can there be hope for a negotiated 
settlement?
    Answer. I believe there is no good prospect of a negotiated 
settlement in Sudan because the opposition collectively believes the 
NIF government is so extreme in its views that it is not negotiating 
``in good faith,'' but only to produce strategic advantage. Personally, 
I believe that assessment.
    The NIF government which has engaged in the terrorism against the 
people of Sudan outlined in my testimony is fully practiced in breaking 
the conventional rules of diplomacy.
    However, should the strategic situation produce a ``moment of 
truth'' in which the NIF government agrees to step down, I would 
encourage every effort to include some NIF engagement in a government 
of national unity. Like it or not, they exist in Sudan.
                               __________
 Statement of the Embassy of the Republic of Sudan Regarding Sudan and 
                               Terrorism

   Submitted to the Senate Foreign Relations Subcommittee on African 
                         Affairs, May 19, 1997

                              ----------                              

    The Government of Sudan submitted for the record the following 
response to the hearing on ``Sudan and Terrorism'' held by the 
Subcommittee on African Affairs of the Senate Foreign Relations 
Committee. The Chairman of the Subcommittee does not verify the 
accuracy of the statement. The pledges made by Sudan in this statement 
to fight international terrorism are welcomed. Concrete actions to 
achieve this goal must accompany verbal promises, however.
                              ----------                              

    Mr. Chairman and Members of the Committee:
    This statement is submitted in response to the serious and grave 
charges presented at the May 15, 1997 hearing accusing the Government 
of the Republic of Sudan of complicity in terrorism on a horrifying 
scale. Witness Steven Emerson maintained that the GOS is responsible 
for: ``Suicide bombings in Israel. The attempted assassination of the 
Egyptian President . . . Attacks on American Forces in Somalia. 
Sponsorship of the most ruthless terrorist financier in the world 
today, Osama Bin Laden . . . Sponsorship and hosting of unparalleled 
get-togethers of the most militant Islamic terrorist leaders in the 
world today, including those that have planned the murder of hundreds 
of Americans, not to mention Jews and Arabs deemed to be `infidels' or 
`enemies of Islam.' Training camps for more than a dozen terrorist 
organizations whose raison d'etre is to kill infidels, Christians, Jews 
and secular and moderate Arabs. . . . Training camps for Iranian 
Revolutionary Guards . . .''
    Mr. Emerson's terrorist bill of indictment against the GOS and 
sister accusations presented at the hearing all share important 
earmarks of unreliability: all are founded on secret anonymous 
information and none has been established before a tribunal where the 
GOS would enjoy the right of confrontation or cross-examination.
    The following generally uncontested facts should shake confidence 
in the facile charge that the GOS champions or sponsors terrorism:
  <bullet> The GOS has extradited Carlos the Jackal to France and 
        hijackers of Ethiopian aircraft to Addis Abbaba, has expelled 
        Osama Bin Laden, and has declared its soil off limits to any 
        person or group plotting terrorism against a foreign country. 
        Contrary to some rumors, Mr. Bin Laden is headquarted in 
        Afghanistan and has not returned to Sudan;
  <bullet> The GOS has never practiced terrorism against its domestic 
        opponents, including the belligerent John Garang of the SPLA 
        and his current ally and former Prime Minister Sadiq al-Mahdi. 
        That renunciation cannot be said of any other country on the 
        terrorist list of the United States;
  <bullet> The Government of Ethiopia tried and executed in absolute 
        secrecy (like a Star Chamber proceeding) three Egyptians 
        accused of the Mubarak assassination attempt. The three, 
        according to Ethiopia, implicated the GOS in the dastardly 
        plot. If that were true, however, Ethiopia would have publicly 
        paraded the damaging testimony in an open trial broadcast to 
        the world;
  <bullet> The Spanish Inquisition, the British ``Papal Plots,'' and 
        Senator Joe McCarthy's discredited accusation that the 
        Eisenhower Administration's State Department was brimming with 
        Communist Party Members show the unreliability of secret, 
        anonymous, and un-cross-examined charges like the terrorist 
        indictment hurled against the GOS. As a former esteemed 
        Attorney General of the State of Missouri, the Chairman of this 
        Subcommittee is acutely aware of the imperative of cross-
        examination in seeking to separate facts from falsehoods, a 
        procedural safeguard that has been characterized as the best 
        engine ever invented for the discovery of truth;
  <bullet> The GOS has publicly and repeatedly denounced terrorism in 
        all circumstances, and former President Jimmy Carter, after a 
        briefing by the National Security Council on the listing of 
        Sudan as a terrorist country in 1993, publicly maintained: 
        ``They declared that Sudan was a terrorist training center, I 
        think without proof . . . In fact, when I later asked an 
        assistant secretary of state he said they did not have proof, 
        but there were strong allegations. . . . I think there is too 
        much of an inclination in this country to look at Muslims as 
        inherently terrorist or inherently against the West . . . I 
        don't see that when I meet with these people.'' (Reuters 
        Financial Service, September 13, 1993). Former President 
        Carter's evaluation should command heightened credibility 
        because he holds no incentive to act as an apologist for the 
        GOS.
  <bullet> Two chief accusers of the GOS for complicity in terrorism--
        the presidents of Eritrea and Uganda--have been proven 
        notorious for unreliability. The former recently and publicly 
        confessed to the use of Eritrean soldiers to fight with Mr. 
        Garang's forces against the GOS after long months of heated 
        denials of the same;
  <bullet> The GOS has itself been a victim of terrorism. Hijackers of 
        a Sudanese civilian aircraft are receiving red carpet treatment 
        in Eritrea over the protest of the GOS, and it has been forced 
        to evacuate its Embassy in Asmara in favor of a Sudanese 
        opposition alliance implacably dedicated to overthrowing the 
        popularly elected GOS by force and violence;
  <bullet> The comprehensive Peace Agreement signed by the GOS and all 
        rebel factions in the South but one on April 21, 1997, 
        discredits the theory that the GOS promotes terrorism to spread 
        its version of Sharia or the Holy Koran abroad. The Agreement 
        enshrines in the Sudanese Constitution the right to full 
        freedom of religious practice and belief without government 
        interference and enforceable by an independent judiciary 
        entrusted with authoritative constitutional interpretation. 
        Constitutional rights are made supreme over any other code of 
        law. In other words, the GOS has renounced the use of coercion 
        or force to promote Sharia even within Sudan itself; and,
  <bullet> The witnesses called to testify before the Subcommittee did 
        not reflect the full spectrum of views on Sudan and terrorism.
    The GOS is confidant that a fair-minded and complete investigation 
of the facts would acquit it of the terrorist accusations. Toward that 
end, it has unequivocally urged the highest levels of the United States 
Government to establish a counterterrorism unit in its Embassy in 
Khartoum with unrestricted choice of travel sites to search unannounced 
for terrorists or terrorist training camps jointly with Sudanese 
security forces and to train the latter to fight terrorism. The GOS has 
also invited a score of Honorable Members of Congress to visit Sudan to 
make an unfiltered assessment of the facts. It has been a source of 
disappointment that these serious and sincere overtures to do something 
about terrorism and to seek facts before a terrorism verdict in lieu of 
exchanging sterile accusations for counteraccusations have seemingly 
been neglected.
    To paraphrase former Senator Hiram Johnson of California, truth is 
the first casualty of either hot or cold war, and the terrorism 
accusations lodged against the GOS by the United States would seem to 
deserve a more thorough and critical examination than they have 
received at present before important policy decisions and actions are 
taken.
                               __________
       Statement of the Sudan People's Liberation Movement (SPLM)

    Honorable Members, I am privileged to make the following 
submissions to this august subcommittee.

          A. The Government of Sudan [GOS] and State Terrorism

    1. The GOS continues to host, train, and arm most of the infamous 
terrorist groups of the Middle East. The training camps are located in 
the interior of the country's western and central regions. The camps 
are camouflaged as Islamic orientation schools for Sudanese. They are 
out of bounds to visitors and foreign journalists. Such persons are 
often shown alternative bona fide institutions.
    The regime cannot close these camps and abandon their functions 
because they are the justification for financial and military aid from 
the richer sponsors of international terrorism.
    2. The GOS continues to host, train, and arm extremist religious 
groups against the governments of Egypt, Eritrea, Ethiopia, Kenya, and 
Uganda.
    3. The GOS continues to raid, bomb and destroy civilian settlements 
including relief centers in southern Sudan. Captives from these raids 
are taken into chattel slavery. `Surplus' slaves are exported to the 
richer sponsors of international terrorism.
Solution
    1. International terrorism, regional destabilization, and domestic 
human rights violations in Sudan cannot be ended voluntarily by the 
regime itself. The regime cannot be pressured to reform. It would lose 
its raison d'etre without terrorism. The GOS sees itself as having a 
`divine mission' to save humanity from `satanic paganism'. It seeks to 
revolutionize global social and political order along the lines of 
fundamentalist Islam. The United States or what they call `The Great 
Satan' is a principal target of the scheme.
    In the last one year or so, the regime has responded to 
international condemnation and isolation by tactically retreating from 
some of its terror fronts. In some cases, it has changed the form of 
the attacks. In the West in particular, more and more local people are 
being employed as proxy crusaders and potential terrorists. The change 
in methods increases, not reduces the danger.
    2. The role of the Sudan as an active member of the coalition of 
terrorist States can only be ended through the resolution of the 
country's civil war and the establishment of a secular democratic 
government in Khartoum.

   B. Sudan Peoples' Liberation Movement Position on Peace [Annex X]

    1. The SPLM reaffirms its willingness and readiness to resume peace 
negotiations on the basis of the Nairobi Declaration of Principles 
within the framework of the IGAD Peace Committee under the chairmanship 
of Kenyan President Daniel arap Moi.
    2. The so-called peace agreement between the GOS and some southern 
Sudanese individuals in Khartoum on April 21st cannot constitute a 
mechanism for resolving the Sudanese conflict. It is not an accord 
between the warring parties. It is an internal arrangement by the 
regime and its political and military allies on how to defeat the 
opposition.
    3. The letter of the `agreement' is dishonest and deceptive. In 
particular:
    (a) It maintains Islamic Sharia Law as the principle source of 
legislation. The provision that the southern States would be exempted 
from Islamic Law is impracticable. How can a citizen be exempted from 
the Islamic versions of the laws of contract, banking, and taxation? 
What criminal law, penal code, procedure and law of evidence would 
govern non-Muslims living and working in the northern parts of the 
country?
    (b) The agreement entrenches the one party theocratic State by 
prohibiting pluralistic democracy.
    (c) The right of the people of southern Sudan to self-determination 
is subject to their April Charter provision that commits the allies to 
the unity of the Sudan by force and coercion.
    (d) The interim period prior to a referendum on self determination 
is elastic. It can be increased indefinitely by president Omar al 
Bashir who has made no secret of his opposition to the principle of 
self-determination.
    (e) The 10 mini `Bantustans' in the south are placed under Islamic 
Wallis (governors) who are directly responsible to Khartoum.
    (f) The `Coordination Council;' and its `President' have no real 
executive political and fiscal authority in the south.
    (g) The `president' of the coordination council is appointed by and 
responsible to General Omer al Beshir not the people or representatives 
of the people of the south.
    (h) The entire judicial system is Islamic and wholly controlled by 
General Omer al Beshir.
    (i) The `agreement' does not provide for a legislative organ in the 
south. That authority lies in Khartoum.
    (j) The `agreement' institutionalizes Arab racial hegemony by 
providing that only the Arabic language shall be the official language 
of the Sudan. This negates the recognition in the same `agreement' of 
the cultural and racial diversity of the Sudan.
    (k) The `agreement' does not address the grievances of the people 
of the Nuba Mountains, southern Blue Nile, Eastern and Western Sudan.

                 C. The NDA Position on Peace [Annex Y]

    1. The NDA affirms its commitment to a comprehensive peace 
settlement that:
    (a) Redresses all the injustices that had been committed on the 
people of the south and other marginalized areas in the past.
    (b) Allows full pluralistic democracy.
    (c) Guarantees stability in the region.
    2. The `Peace Agreement' of April 21st 1997 is totally rejected for 
the following reasons:
    (a) It is an agreement between allies.
    (b) It is an agreement between northern and southern minority 
groups. The mainstream southern and northern political forces are not 
parties to the `agreement'.
    (c) There are no constitutional or regional and international 
guarantors to the `agreement'.
    (d) The real aim of the GOS is not to bring peace. The `agreement' 
is a plot to knock southerners against each other while the regime 
concentrates on fighting the northern opposition. It is an `agreement' 
for more war.
    (e) Peace can only be realized on the basis of the 1995 Asmara 
Agreement. [Annex Z]
            Signed:
                                               Steve Wondu,
                                                    Representative.
                               __________

                                ANNEX X

Sudan People's Liberation Movement and Sudan People's Liberation Army, 
                      Secretariat for Organization

         SPLM/SPLA Position on the So-Called `Peace Agreement'

    On April 21, 1997, the NIF regime signed with its southern allies 
led by Riek Machar a deal which in practice amounts to a war agreement 
against the SPLA. The political and military significance of this fake 
peace agreement lies in the fact that it is an NIF regime's new 
stratagem for southernisation of the war. This is to enable it to buy 
more life time, because of the intense military pressure of the SPLA 
and its partners in the National Democratic Alliance (NDA) which makes 
the demise of the regime a real and an imminent possibility. The 
agreement is another desperate retreat to the ``divide and rule'' 
policy when the Jihad is not bearing fruits to the regime.
    The National Islamic Front staged the military coup that brought it 
to power in June 1989 just 4 days before the Constitutional Conference 
that would have brought an end to the war on the basis of the Sudanese 
Peace Initiative negotiated between the SPLM and the Democratic 
Unionist Party. The coup was in essence a negation of the peace 
process. Since then the NIF government embarked on a war path and 
launched military offensive to defeat and destroy the SPLA, while at 
the same time, it undertook political and diplomatic initiatives to 
isolate the SPLM/A on the national and international level.
    In Abuja 1992, the head of the NIF delegation to the Peace Talks 
hosted by President Babingida, declared that ``self-determination'' for 
southern Sudan will come out through the barrel of the gun''. This was 
echoed by Dr. Ghazi Sallahudin, the leader of the NIF regime delegation 
to the fourth and last negotiation session of IGAD Peace Talks when he 
bluntly told the Foreign Ministers of the IGAD countries that ``we came 
to fulfil a mission of Islamising and Arabising Africa, so the issue of 
self-determination is a non-starter''. Since then, this has stalled the 
IGAD Peace Talks and there has not been a negotiation session. In view 
of the above, the NIF government is not interested in a just and 
lasting peace. What it is doing is the devising a series of tricks to 
suck into its political thinking the weak South Sudan leaders. The 
regime was convinced beyond doubt that it was going to crush the SPLA 
and therefore embarked on its ``peace from within'' process.
    The question, therefore, is why has the NIF regime made an about 
turn and offer self-determination to groups it politically 
manufactured, and who don't constitute a threat to its power? If the 
NIF regime is serious and wants to end the war by accepting what it 
arrogantly rejected in 1994, does it not return to the IGAD Peace 
Process. The NIF political moves are not sincere, but are designed to 
bail it out of the serious military defeats inflicted on it by the SPLA 
and its partners in the NDA.
    This agreement, therefore, must be rejected for the following 
reasons among others:
    1. The agreement is essentially a deal between allies but not a 
conflict resolution mechanism. This is because since 1991, these SPLM/A 
breakaway groupings have been overtly collaborating with Khartoum 
against the people of the South and other marginalized areas of Sudan. 
Since then they have been coordinating military campaigns against the 
SPLA with an avowed mission of destroying it under disguise objective 
of achieving independence for southern Sudan. To concretize this 
military collaboration and co-ordination, several agreements were 
concluded between the NIF regime and these splinter groups in Frankfurt 
and at the Hague in 1992 and in Nairobi 1993.
    2. In the preamble the statement which says ``Fully cognizant of 
the fact that unity of the Sudan cannot be based on force or coercion, 
but on the free will of the people'' does not hold water because it is 
in direct contradiction with article 2 of their April 10th 1996, 
``Political Charter which obligates the parties to the Charter to 
affirm the unity and territorial integrity of Sudan within its known 
boundaries and to protect it against internal and external enemies. It 
is clearly stated in the agreement that ``the general principles 
contained in the Political Charter signed in Khartoum on 10th April 
1996 shall be part of this agreement and shall guide and explain its 
provisions''. The implication is that the Charter is the basis for 
interpretation of the agreement in case of controversy, and therefore 
overrides the provisions of this agreement.
    3. The agreement does not clearly define southern Sudan, but the 
newly created 10 southern states excluding areas such as Hufra Nahas, 
Kafia Kingi and Shallefil which were parts of the south as on 1st 
January 1956. In this connection, the agreement described as ``Sudan 
Peace Agreement'' can obviously not deliver peace to the whole country 
since it does not address grievances of other parts of the fighting 
Sudan such as the Nuba Mountains, southern Blue Nile, East and West of 
Sudan.
    4. As to the co-ordinating council, it is not a government of 
southern Sudan as the HEC of the Addis Ababa Agreement was. It is not 
accountable to the people of southern Sudan. It has neither executive 
nor legislative powers, but only acts as a link between the 10 states 
in southern Sudan (that actually operate independently) and the federal 
government. Worst of all, the President of the co-ordinating council is 
appointed by the President of the Republic. He is not accountable to 
the people of southern Sudan nor to the council either, and could be 
any person from any part of Sudan. It is actually an implementing 
agency for the policies of NIF in southern Sudan.
    5. The agreement also states that ``during a four-year interim 
period South Sudan shall enjoy a special status''. On close examination 
of the provisions of this agreement, this ``special status'' is not to 
be traced anywhere. What is this ``special status'' of the south?
    6. Regarding the problem of Abyei, it has been glossed over by 
deferring it to ``a conference that will be convened in the area with 
the interim period''. The Addis Ababa Agreement was much clearer on the 
issue of Abyei because it provided for the referendum for the people of 
Abyei to decide whether to remain within southern Kordofan or join 
southern Sudan.
    7. The amalgamation of the splinter groups, individuals, and their 
respective armed units into the so-called United Democratic Salvation 
Front (UDSF) and Southern Sudan Defense Force (SSDF), is in fact a 
transformation and integration of these groups into NIF Salvation 
Revolution and Popular Defense Forces and therefore consistent with the 
characteristics and particularities of the NIF regime (Inghaz el-
Watani).
    8. The agreement confirms sharia as the supreme law of the land and 
its main source of legislation; while African custom is just a 
supplementary component. In case of conflict between Sharia and Custom, 
the supreme law prevails. In fact constitutional Decree No. 13 directs 
judicial courts to be guided exclusively by Sharia, neither by Custom 
nor by both Sharia and Custom together.
    9. Articles enumerated under the fundamental rights and freedoms 
are in fact general principles contained in the universal Bill of 
Rights and enshrined in the international conventions. No disagreement 
can be expected over them. The irony of the situation is the 
fundamentalist, dictatorial and theocratic nature of the regime, cannot 
provide a conducive atmosphere for their observance, but essentially 
negates them. These rights have been long proclaimed in 1991 by its 
regime before this agreement was concluded; and yet arbitrary arrests, 
ghost houses (torture chambers), restrictions of movements and 
assembly, extra-judicial executions, etc. are still the order of the 
day.
    10. On democracy, the agreement stipulates that ``participatory 
democracy shall be realized through congresses and national convention 
or conference''. This indicates that there is no genuine democracy 
based on pluralism. Therefore, the creation of the United Democratic 
Salvation Front is a farce. Consequently, the UDSF has become one of 
the congresses of the NIF National Convention. The USDF has been 
effectively absorbed into the participatory democracy just like 
Southern Sudan Liberation Movement (SSLM), was absorbed into the 
Sudanese Socialist Union (SSU) in 1972.
    11. Examination of the Federal Powers, the Powers of the States and 
the Powers of the Coordinating Council, reveals that power sharing does 
not really exist. It is a duplication of sets of functions that at the 
end of the day benefit the Federal Government. Articles 2, 19 and 28 of 
the Chapter on power sharing deal with armed forces and Defense 
Affairs, National Security and Emergency Jurisdiction can effectively 
be used to usurp the purported powers of the Coordinating Council. In 
case of dispute over the residual powers, the agreement maintains that 
the supreme court shall pass ruling on the dispute. Taking into account 
the Islamic nature and composition of the supreme court, the outcome of 
its ruling will be a foregone conclusion in favour of the Federal 
Government.
    12. In regards to wealth sharing, the agreement states that 
``revenue allocation commission shall be established to recommend 
wealth sharing formula for the whole country; and the coordinating 
council shall be represented''. The basis for the composition of the 
commission has not been defined in clear terms, except for the 
representation of the coordinating council. The possibility of tilting 
the balance in favour of the Federal Government in the commission's 
composition is real.
    13. The elasticity of the interim period is intentionally made 
elusive so as to keep in line with vague articles of the Political 
Charter on the achievement of ``reasonable level of development'' 
contigent to the exercise of referendum. the minimum and maximum limits 
of the interim period are also tied to the regime's military agenda of 
``destroying the SPLA''. It is an arrangement at the pleasure of one 
person--the President of the Republic. The content of the interim 
period remains the Sharia, Islamization and Arabization of the south. 
It is therefore expected that the outcome of the interim period must 
naturally be consistent with the objectives of the interim period.
    14. The constitutional arrangements for amending the agreement are 
totally weak if not non-existent. The power to amend the agreement is 
vested in the 25-man coordinating council and the President of the 
Republic, who appoints it. There is no reference to the people of the 
Southern Sudan directly or indirectly through an elected Southern 
Assembly. In fact the agreement does not provide for an elected 
Southern Assembly during the interim period. By this arrangement the 
NIF regime has secured for itself an easy and sure mechanism to wreck 
the agreement at its convenience. In contrast, the Addis Ababa 
agreement 1972, though later unilaterally abrogated by General Nimeri, 
has stronger guarantees and mechanism for amendments.
    In view of the above reasons the SPLM/A regards the so-called 
``Sudan Peace Agreement'' as a totally inadequate framework for 
bringing about a comprehensive, just and durable peace in the country. 
The agreement is a part and parcel of the NIF's programme of peace from 
within. It was worked out in Khartoum and the renegade commanders were 
merely invited to sign. No reputable Regional or International 
mediators, observers or witnesses were involved. Therefore this sham 
agreement must be thrown out and rejected in its totality. However, the 
SPLM/A is committed to its search for a peaceful settlement of the 
conflict to bring to a close the sad chapter of human tragedy in our 
country. This can only be achieved through the IGAD Peace Process on 
the basis of the Declaration of Principles (DOPs), formulated in May 
1994 under the chairmanship of H.E. President Daniel Arap Moi.

                                            Mr. Pagan Amum,
   Chairman of Peace Committee, National Liberation Council (NLC), 
                                                    Yei, NEW SUDAN.
                               __________

                                ANNEX Y

                                                Date: June 5, 1997.
National Democratic Alliance
Secretary General

                             Press Release

    The Executive Bureau of the NDA convened an extra-ordinary meeting 
in Cairo lately to discuss and deliberate on the latest developments in 
the Sudan, in particular the signing in Khartoum on the 21st of April 
of the so-called peace agreement between the NIF government and some 
southern splinter groups led by Southern Sudan Independence Movement 
(SSIM). The meeting was attended by Sayed Sadig El Mahdi and a number 
of members of the NDA leadership council who were present in Cairo at 
the time of the meeting. The meeting resolved the following:
    Firstly: The total rejection of the NIF government so-called peace 
agreement signed with its allies led by Southern Sudan Independence 
Movement (SSIM), as all measure for confidence building over a 
transitional period specified in that agreement becomes irrelevant when 
the two sides are agreed that the solution to the Sudanese crisis lies 
on the partition of the country.
    Secondly: The agreement doesn't bring the desired peace or 
stability to the Sudan as it is between a minority in the North and a 
minority in the South in the total absence of any popular internal 
constitutional guarantees or external regional and international 
guarantors.
    Thirdly: The aim of the NIF government from this agreement is not 
to achieve real peace, on the contrary, it is seeking to change the 
nature of the war in the south to turn it into a fratricidal tribal war 
between the peoples of the south which would release the regime's armed 
forces from their duties there, and enable it to transfer them 
Northwards to wage war in the defence of its battered regime.
    Therefore the majority of the peoples of the Sudan represented in 
the NDA reject and condemn this agreement and promise to resist it by 
all means.
    The NDA confirms that a just and lasting peace in the Sudan has to 
be a comprehensive one and address the major issues that has 
destabilized the country since its independence, to achieve the 
following three inter-connected purposes:
    1. A peace agreement that would re-address the past injustices and 
grievances in the Sudan and open the way for a new united Sudan on the 
basis of Asmara resolutions of 1995.
    2. A pluralistic democratic system which establishes constitutional 
legitimacy as the basis of guarantying the people's rights and the 
peace agreement.
    3. To realize regional stability on the basis of good 
neighborliness and the concept of developmental and security 
integration.
                                          Mubarak El Mahdi.
                               __________

                                ANNEX Z

  The National Democratic Alliance (NDA) Conference on the Issues of 
                                Destiny

                          The Final Communique

    Friday, June 6, 1995.

    The NDA held a historic meeting in Asmara, the capital of the State 
of Eritrea, from June 15 to June 23, 1993. The conference, held under 
the banner of ``Issues of Destiny'', was attended by all the leaders of 
the political, trade unions, and military formations in the NDA as well 
as the national personalities, viz:
    (1) The Democratic Unionist Party (DUP);
    (2) The Umma Party;
    (3) The SPLM/SPLA;
    (4) The Union of the Sudan African Parties (USAP);
    (5) The Sudan Communist Party;
    (6) Trade Unions;
    (7) The Legitimate Command;
    (8) The Beja Congress;
    (9) The Sudanese Allied Forces;
    (10) and non-partisan national personalities.

    The Conference discussed the following issues:
    (1) stopping the War and restoration of peace;
    (2) the right of Self-determination;
    (3) religion and politics;
    (4) system of rule during the interim period;
    (5) programme and mechanisms for escalating the struggle to 
overthrow the NIF regime;
    (6) interim arrangements and responsibilities;
    (7) The Sudan of the future;
    (8) the structure of the NDA; and
    (9) humanitarian issues.
    The NDA convened its conference under difficult and severe 
conditions imposed by the NIF fascist regime on our people. The regime 
has devalued the dignity of the Sudanese citizen, destroyed the 
national economy, abused Sudanese foreign relations by threatening 
regional and international stability and by exporting terrorism and 
discord to the neighbouring countries and other countries in the world 
as well. The regime has amply demonstrated its bellicose nature by 
aborting all the peace initiatives and by intensifying the war in the 
South. The NDA would therefore like to re-affirm the continuity of the 
political, military and popular struggle against the regime.
    On the basis of the principles of the NDA, and by way of continuing 
the struggle of our people against successive dictatorships, and 
inspired by its experience in the consolidation of national unity, and 
fully believing in a new democratic system based on political pluralism 
and respect for human rights, the conference hereby resolves as 
follows:
A--Ending the War and Restoration of Peace
    1. The right of self-determination:
    (a) affirmation of the right to self-determination as a basic, 
original and democratic right of all peoples;
    (b) recognition that the exercise of the right to self-
determination shall bring the war to an end and shall facilitate the 
retrieval and consolidation of democracy, peace and development;
    (c) the right to self-determination should be, however, exercised 
under conditions of legitimacy, democracy and under regional and 
international supervision;
    (d) the areas affected by war are South Sudan, Abyei District, the 
Nuba Mountains and Ingessina Hills;
    (e) the citizens of Southern Sudan (within its boundaries as they 
stood on 1/1/1956) shall exercise the right to self-determination 
before the end of the interim period;
    (f) the people of Abyei shall be consulted, in a referendum to be 
held before the end of the interim period, to ascertain whether they 
wish to continue with the administrative arrangements within Southern 
Kordofan or to join Bahr El Ghazal. If the majority choose to join Bahr 
El Ghazal, then they will exercise their right to self-determination 
together with the citizens of South Sudan.
    (g) With regard to the Nuba Mountains and the Ingessina Hills, a 
political solution, aimed at removing the existing grievances in these 
two areas, shall be sought and implemented by the government of the 
day, after which a referendum shall be held, during the interim period, 
to ascertain the wishes of the peoples of these areas over their 
political and administrative future.
    (h) Affirmation of the NDA's commitment to the realisation of a 
just and democratic peace and unity based on the free choice of the 
Sudanese people, and a just and effective peaceful resolution of the 
ongoing armed conflict. In this regard, the NDA hereby announces its 
acceptance of the IGADD's Declaration of Principles (DOP) as 
constituting a reasonable and practical basis for achieving a just and 
lasting peace.
    (i) Affirmation that real peace in Sudan cannot be achieved by 
viewing the problem as the Southern Problem, but by comprehending the 
national origins of the problem.
    (j) Convinced that the national problems of Sudan cannot be solved 
except through a serious, open dialogue among all the national groups, 
and that the nature and history of the Sudanese conflict has proved 
that just peace and stability in the county cannot be achieved by 
military means.
    2. The Conference hereby affirms that all NDA members shall 
seriously work to adopt a common stand on the issues of the referendum, 
which are:

        (a) unity (confederal or Federal) and;
        (b) independence.

    (3) The NDA government recognises that the exercise of the right of 
self-determination, aside from being a human, democratic and peoples' 
right, is also an instrument for putting an immediate end to the civil 
war and for opening up a unique and historic challenge to build a new 
restructured Sudan of justice, democracy and free choice. The NDA is 
committed to leading the Sudanese to a successful exercise of this 
historic right.
B--Religion and Politics in Sudan
    (1) All human rights norms and standards enshrined in the regional 
and international human rights instruments, charters and covenants 
shall be deemed to be an integral part of any constitution of Sudan, 
and any law, decree, executive order or action or policy measure 
contrary thereto shall be null and void for being unconstitutional.
    (2) Laws shall guarantee full equality of citizens on the basis of 
citizenship, respect for the religious beliefs and traditions and 
without discrimination on grounds of religion, race, gender or culture. 
Any law contrary to the foregoing stipulations shall be null and void 
and unconstitutional.
    (3) No political party shall be based on religion.
    (4) The State recognises the plurality of religions and noble 
spiritual beliefs and is committed to ensuring a peaceful co-existence 
and interaction, equality and tolerance among religions and the noble 
spiritual beliefs. The State permits freedom of ``proselytisation'' by 
peaceful means and forbids compulsion or any act or measure which may 
lead to religious sedition, racial hatred in any place, forum or 
location.
    (5) The NDA is committed to upholding the dignity of the Sudanese 
woman and affirms her role in the Sudanese national movement and 
recognises her rights and duties stipulated in the international human 
rights covenants and instruments to the extent that they don't 
contradict religious tenets.
    (6) National enlightenment, education and cultural programmes shall 
be based on the commitment to the international human rights covenants 
and instruments.
C--System of Rule
    (1) The Sudan shall be run on a system of decentralisation during 
the interim period. The Transitional Constitution shall determine the 
distribution of powers and functions between the Central Authority and 
the regional entities.
D--The Decentralisation Act
    (1) Decentralisation shall be based on the distribution of the 
powers and functions agreed upon between the Central Authority and the 
Northern Entities on the one hand and between the Central Authority and 
the Southern Entity on the other and deferring the naming of the system 
to a later stage.
    (2) Local government systems and native administration should also 
be catered for in the Decentralisation Act.
    (3) The following factors should be considered in the 
decentralisation arrangements during the interim period:
    (a) redressing of grievances and removal of the causes of the war 
and the creation of an atmosphere conducive to national reconstruction;
    (b) ascertainment of people's wishes in various areas in the 
process of developing democratic structures; and
    (c) taking into account the economic circumstances of the country 
and the need for retrenchment.
    Emphasis shall therefore be on mobilisation of the masses, and the 
provision of adequate opportunities for popular participation in the 
democratic structures of the decentralisation arrangements.
E--On the Programmes and Mechanisms for the Intensification of the 
        Struggle to Overthrow the System:
    (1) Legitimacy of the armed struggle being currently waged by some 
formations in the NDA to overthrow the system. Armed struggle is by 
agreement one of the mechanisms for overthrowing the system.
    (2) Provision of the necessary support.
    (3) Establishment of a High Military and Political Committee to co-
ordinate and supervise the implementation of the programmes for 
intensification of the struggle to overthrow the system.
F--Interim Military and Security Arrangements
    The conference adopted all the recommendations made by the relevant 
specialised committee.
G--The Sudan of the Future
    To lay the foundations of the New Sudan, the conference adopted the 
following:
    (a) the economic programme for the interim period;
    (b) programme for foreign policy, regional and international co-
operation;
    (c) programme for the removal of the vestiges of the NIF regime;
    (d) Political Parties Bills;
    (e) Trade Unions Charter; and
    (f) Press and Publications Bill.
H--Humanitarian Issues
    The wrong-headed economic policies of the regime and its escalation 
of the war have aggravated internal displacement, heavily damaged the 
environment, and have created tragic conditions of life for the 
ordinary Sudanese citizen, especially the women. In addition to the 
war, instability, political repression and violation of human rights 
have driven thousands of Sudanese into exile. In pursuit of its 
commitment to the security and safety of the Sudanese people and their 
freedom of movement within and outside the Sudan, the Conference has 
adopted a practical programme for relief during the interim period, all 
in co-operation and co-ordination with the international community and 
the relevant establishments in Sudan.
I--Structures of the NDA and Amendment of the Charter
    The conference adopted the new structure of the NDA which consists 
of:
    (1) The Conference;
    (2) The Leadership Councilium;
    (3) The Executive Office; and
    (4) The General Secretariat;
    (5) Specialised Secretariats; and
    (6) Centres for the subsidiaries.
    The Conference also adopted amendments to the Charter in keeping 
with the changing political scene.

Signatures:
  1. Mohamed Osman El Mirghani, DUP;
  2. Dr. Omer Nur El Dayem, Umma Party;
  3. Dr. Colonel John Garang de Mabior, SPLM/SPLA;
  4. Eliaba James Surur, Leader, the Union of Sudan African Parties 
            (USAP);
  5. Tighani El Tayeb, Sudan Communist Party;
  6. Engineer Hashim Mohamed Ahmend, Trade Unions;
  7. Lieutenant General Fatih Ahmend Ali, Legitimate Command of the 
            Armed Forces;
  8. Mohamed al Tahir Abu Bakr, the Beja Congress;
  9. Brigadier Abdel Aziz Khalid, the Sudanese Allied Forces;
  10. Bona Malwal, independent Sudanese personality;
  11. Farouk Abu Eissa, independent Sudanese personality;
  12. Al-Wathiq al-Kameir, independent Sudanese personality; and
  13. Mansour al-Agab, independent Sudanese personality.
                                 ______
                                 

     National Democratic Alliance Conference on Fundamental Issues

     Resolution on the Issue of Religion and Politics in the Sudan

    The National Democratic Alliance (NDA);
  <bullet> Recognising that the relationship between religion and 
        politics has a direct bearing on nation-building;
  <bullet> Aware of the reality of religious, cultural and national 
        diversity in the Sudan;
  <bullet> Cognisant of the role of scriptural religious and noble 
        spiritual beliefs as sources of moral values and spiritual 
        tenets that can help promote tolerance, brotherhood, justice 
        and peaceful coexistence;
  <bullet> Conscious of the terrible human rights abuses committed by 
        the National Islamic Front (NIF) regime through its diabolical 
        manipulation of religion to perpetrate genocide and ethnic 
        cleansing falsely in the name of jihad;
  <bullet> Determined to achieve a just and lasting peace and national 
        unity based on justice and the free will of the Sudanese 
        people; and
  <bullet> In adherence to the principle of non-exploitation of 
        religion for political purposes, hereby make the following 
        constitutional dispositions:
    1. All human rights norms and principle enshrined in regional and 
international human rights instruments and covenants shall be an 
integral part of the constitution of the Sudan, and any law, decree, 
executive order or policy measure contrary thereto shall be considered 
null and void and unconstitutional.
    2. All laws shall guarantee full equality of citizens on the basis 
of citizenship, respect for religious beliefs and traditions and 
without discrimination on grounds of religion, race, gender or culture. 
Any law contrary to the foregoing stipulation shall be considered null 
and void and unconstitutional.
    3. No political party shall be established on religious basis.
    4. The State shall acknowledge and respect religious pluralism in 
the Sudan and shall undertake to promote and bring about peaceful 
interaction and coexistence, equality and tolerance among religious and 
noble spiritual beliefs, and shall permit peaceful religious 
proselytisation and prohibit coercion in religion, or the perpetration 
in any place, forum or location in the Sudan of any act or measure 
intended to arouse religious sedition or racial hatred.
    5. The NDA undertakes to preserve and promote the dignity of the 
Sudanese woman, and affirms her role in the Sudanese national movement 
and her rights and duties as enshrined in international instruments and 
covenants without prejudice to the tenets of prevailing religious and 
noble spiritual beliefs.
    6. National programmes in the fields of information, education and 
culture shall be formulated and disseminated in accordance with the 
regional and international instruments and covenants on human rights.

Signed:
  1. Democratic Unionist Party
  2. Umma Party
  3. Sudan Communist Party
  4. Union of Sudan African Parties
  5. Sudan People's Liberation Movement & Sudan People's Liberation 
            Army
  6. Trades Unions
  7. Legitimate Command
  8. Sudanese Alliance Forces
  9. Independent National Personalities

             Resolution on the Issue of Self-Determination

Preamble:
            The National Democratic Alliance
  <bullet> Deeply committed to an immediate ending of the current armed 
        conflict through a just and lasting settlement;
  <bullet> Fully aware that the attainment of such a just and lasting 
        settlement requires political courage, statesmanship and 
        farsightedness on the part of the leadership of its constituent 
        members;
  <bullet> Convinced that our preferred option is unity, based on 
        diversity, and the recognition that the Sudan is a multi-
        ethnic, multi-religious, multi-cultural and multi-linguistic 
        country, and that this unity shall also be based on the right 
        of citizenship and equality in rights and responsibilities in 
        acoordance with the norms and standards enshrined in 
        international conventions on human rights;
  <bullet> Fully cognizant of the fact that the unity of the Sudan 
        cannot be durably based on force or coercion, but on justice 
        and the free consent of all the various groups in the Sudan;
  <bullet> Conscious of the existence of other issues and problems 
        caused by the interaction among tribes living in contiguous 
        areas, which problems and issues shall be addressed and 
        resolved during the national constitutional conference; and
  <bullet> Mindful of the fact that the resolution of the present 
        Sudanese conflict requires a comprehensive approach in order to 
        bring peace and justice to all the marginalised people of the 
        Sudan and build the New Sudan; hereby:
    I. 1. Affirms that the right of self-determination is a basic 
human, democratic and people's right which may be exercised at any time 
by any people.
    2. Recognizes that the exercise of the right of self-determination 
constitutes a solution to the on-going civil war, and facilitates the 
restoration and enhancement of democracy in the Sudan.
    3. Affirms that this right shall be exercised in an atmosphere of 
democracy and legitimacy and under regional and international 
supervision.
    4. Affirms that the areas afflicted by war are Southern Sudan, 
Abyei District, the Nuba Mountains and Ingessena Hills.
    5. Declares that the people of Southern Sudan (within its borders 
as they stood on 1.1.1956) shall exercise the right of self-
determination before the expiration of the interim period.
    6. Resolves that the views of the people of Abyei District as 
regards their wish to either remain within the administrative set up of 
Southern Kordofan region or join Bahr El Ghazal region shall be 
ascertained in a referendum to be held within the interim period but 
before the exercise of the right of self-determination for the South. 
If the outome of the referendum establishes that the majority of the 
people of this district wish to join Bahr El Ghazal, the people of 
Abyei shall accordingly exercise the right of self-determination as 
part of the people of Southern Sudan.
    7. Resolves that with respect to the Nuba Mountains and Ingessena 
Hills, a political solution to redress the injustices suffered by the 
people of these areas shall be sought by the interim government and 
that a referendum to ascertain their views on their political and 
administrative future shall be organized and carried out within the 
interim period.
    8. Reaffirms its commitment to a just peace, democracy and unity, 
based on the free will of the people of the Sudan, and to resolving the 
present conflict by peaceful means through a just and lasting 
settlement. To this end the NDA endorses the IGADD Declaration of 
Principles (DOP) as a viable basis for such a just and lasting 
settlement.
    9. Reiterates that true peace in the Sudan cannot be viewed within 
the framework of the problem of the South but rather from the 
standpoint that our problem is of a national origin.
    10. Affirms that our national problems cannot be solved except 
through clear, serious and continuous dialog among all Sudanese 
national groups.
    11. Asserts that the nature and history of the Sudanese conflict 
has proved that permanent peace and stability in the country can not be 
achieved through a military solution.
    II. The constituent members of the NDA shall adopt a common stand 
on the options to be presented in the referendum in the South, which 
options shall be (a) unity (confederation/federation) and (b) 
independent statehood.
    III. The NDA affirms that the Central Authority shall within the 
interim period devise and implement the necessary confidence-building 
measures and the appropriate restructuring of the State and socio-
economic institutions and processes, so that the exercise of the right 
of self-determination could have the best chances of upholding the 
unity option.

Signed:
  1. Umma Party
  2. Sudan Communist Party
  3. Union of Sudan African Parties
  4. Sudan People's Liberation Movement & Sudan People's Liberation 
            Army
  5. Trades Unions
  6. Legitimate Command
  7. Sudanese Alliance Forces
  8. Independent National Personalities
                                 ______
                                 

                    Resolution on the System of Rule

    Whereas the Sudan has been in a State of war against itself for 
four decades,
    Whereas this unremitting war is a result of historical injustices 
with political, economic, social, cultural, religious and 
administrative dimensions; and
    Whereas the continuation of war throughout this period has created 
a great mistrust among compatriots; and
    Whereas the hegemony of the Centre (Khartoum) on most regions in 
the Sudan has led to the perpetuation of underdevelopment in, and 
marginalization of, those regions; and
    Whereas the National Democratic Alliance, representing the Sudanese 
people in the South, North, East and West is determined to remove all 
historical injustices and eliminate all causes of war in order to 
create conditions conducive to the birth of a new Sudan united through 
the free will of its people and in which every citizen shall enjoy 
peace, security and happiness; and
    Whereas the creation of those conditions requires the adoption of 
all political and administrative measures necessary to restore 
confidence,

Decided:
    1. The Sudan shall be ruled in the interim period as a 
decentralized state. The powers and competence of the central authority 
and decentralized entities shall be provided for in the constitution.
    2. Immediate attention should be given, in view of the nature of 
the interim period, to the definition of those powers, leaving the 
appellation of the entities to a later date.
    3. The NDA shall give due consideration, in promulgating 
decentralization laws, to the role of local government and native 
administration within the new set-up.
    4. Due regard should be given in the regional administrative 
divisions to:
    (a) the wishes of the people in accordance with democratic 
processes,
    (b) keeping in mind that the division of power between the Centre 
and the Entities at this critical point of our history is meant to end 
historical injustices that have led to war and marginalization, restore 
confidence and consolidate peace, stability and a unity based on 
people's free will.
    5. In view of the difficult economic conditions of the country 
administrative costs of decentralization should be reduced to the 
minimum necessary.
Powers of Entities in Northern Sudan
    The legislative and executive organs of Northern Regional Entities 
shall have competence over:
    1. Economic planning in alignment with national development plans
    2. Finance including the levying and collection of taxes (according 
to an agreed upon schedule)
    3. Telecommunication (within the Entity)
    4. Town planning and construction of feeder roads
    5. Police, prisons, fire brigade and game wardens
    6. Promotion of local culture and arts
    7. Health services
    8. Education up to higher secondary level
    9. Industry, intra-Entity commerce and supply
    10. Agriculture, forests, pastures and plant protection
    11. Animal wealth and fisheries
    12. Sustainable land use and development
    13. Water use with due regard to national water policies and 
international obligations
    14. Intra-Entity river, land and air transport
    15. Radio, television and print media within the Entity
Powers of Central Authority (CA) Vis-a-vis Northern Entities (NE)
    1. National defence and national security
    2. Foreign affairs and regional and international cooperation
    3. Nationality, passports, immigration and aliens
    4. Auditor General
    5. Judiciary, attorney generalship and regulation of private legal 
practice
    6. Currency and coinage
    7. Regulation of interstate waterways and national electricity grid
    8. Mineral resources without prejudice to the right of the host 
Entity to fix a reasonable percentage of the returns of the revenue 
accruing from the exploitation of that resource
    9. Customs and foreign trade excepting of borders trade
    10. Commission for National Elections
    11. National Education Planning
    12. National Health Planning
    13. National Economic Planning
    14. National census (Concurrent)
    15. Railways
    16. Regulation of river and air transport
    17. Levying and collection of taxes (according to the established 
schedule)
    18. Posts and telecommunication
    19. Weights and measures
    20. National statistics
    21. National Radio and Television and regulation of technical 
matters pertaining to radio and television stations in the Entities
    22. Higher education
    23. Any other power that is not specifically allocated to the 
Entity
Concurrent Powers (CA & NA)
    1. Environment protection
    2. Water use
    3. Economic development planning
            Institute of NE
    Legislative:
    Executive: made up of Governor, Executive Council and Secretariat
Competence of the Southern Entity (SE)
    The legislate and executive organs of the SE shall have competence 
on following matters:
    1. Maintenance of peace security and good governance
    2. Police, prison wardens, game wardens, fire brigade
    3. SPLA armed forces in accordance with the interim military and 
security arrangement
    4. Agriculture, forestry, pastures and fisheries
    5. Animal husbandry
    6. Industry
    7. Wildlife and tourism
    8. Commission for Elections within the SE
    9. Water use without prejudice to international obligations and 
national policies
    10. Administration of justice including the establishment, 
maintenance and organization of courts and attorney generalship
    11. Exploration, developments and management of non-renewable 
natural resources subject to arrangements with the CA over taxation, 
revenue sharing and development needs of disadvantaged regions
    12. Radio and TV and print media
    13. Art and culture
    14. Education up to senior secondary school level
    15. Levying and collection of taxes according to agreed upon 
schedule
    16. Intra-entity commerce and supply
    17. Intra-entity water, land and air transport
    18. Intra-entity telecommunication
    19. Trade with neighbouring countries and levying of customs on 
goods entering SE from those countries
    20. Personal law, property law and the incorporation, registration 
licensing of companies
    21. Public health services
    22. Any other issue that does not come under the competence of CA 
and under concurrent powers
Section B
            Special Dispositions:
    1. For the purpose of reconstruction and rehabilitation the SE 
shall solicit financial and material assistance from, and conclude 
cultural and economic agreements with, the international community and 
foreign entities.
    2. SPLA Forces shall remain in the SE under their present command 
and subject to the authority and overall command of the SE government 
and in accordance with the interim security and military arrangements. 
The government of the SE shall discuss with the CA the formation, 
functions and composition of the National Security Council after a 
common understanding over national security and threats to it has been 
achieved.
Concurrent Powers (between CA and SE)
    1. Environmental protection
    2. Reconstruction in the war-affected areas and rehabilitation of 
the war disabled
    3. Higher education
    4. Licensing and regulation of private professional practice
    5. Cost of translation of official proceedings, documents, notices, 
minutes
    6. Location and establishment of CA courts
            Institutions of SE
    1. Legislature
    2. Executive: made up of President, Cabinet and Secretariat
    3. Judiciary up to the supreme court of the Entity
            Competence of CA vis-a-vis Southern Entity
    1. National defence subject to interim security arrangements
    2. Foreign affairs as qualified by the special powers given to the 
SE in relation to mobilization of resources for reconstruction and 
rehabilitation
    3. (CA) judiciary
    4. Currency and coinage
    5. Foreign trade subject to qualifications regarding trade with 
neighbouring countries
    6. Coordination of national economic policy
    7. Coordination of national health policy
    8. Railways
    9. National electricity grid
    10. Levying and collection of taxes (according to schedule)
    11. Posts and telecommunication
    12. Weights and measures
    13. Supervision of national Radio and regulation of national TV and 
Print media
    14. Regulation of radio and television stations within the Entities
    15. Civil Aviation and ports
            Subject to 3 Requirements
    1. Institutions which exercise competence over these powers should 
be restructured in terms of personnel, orientation and functions so as 
to effectively reflect the decentralized and pluralistic character of 
the Sudan.
    2. Decentralization of those institutions dealing with 
naturalization, immigration, passports and visas so that they are 
reasonably accessible to citizens all over the Sudan.
    3. Decentralization and deconcentration of development and 
financial institutions and services.
            Interim Period
    The interim period shall be 4 years starting from the day of the 
official inauguration of the interim government.

Signed:
  1. Democratic Unionist Party
  2. Umma Party
  3. Sudan Communist Party
  4. Union of Sudan African Parties
  5. Sudan People's Liberation Movement & Sudan People's Liberation 
            Army
  6. Trades Unions
  7. Legitimate Command
  8. Sudanese Alliance Forces
  9. Independent National Personalities
                               __________
                Appendix to Testimony of Steven Emerson

                           Selected Citations

            Terrorism, Sudan and US Counter-Terrorist Policy

Terrorist Training Camps Operating in Sudan
          ``Between 20 and 30 camps shelter and train terrorists in 
        Sudan. They include terrorists of various Arab and Islamic 
        nationalities. . . . Most of these camps are farms in isolated 
        areas that have either been usurped or are owned by individuals 
        who belong to the National Islamic Front.''
            Source: Rose al-Yusuf, Sept. 4, 1995 (Cairo)

          During the interrogation of Zakariya Bashir (one of the 
        Sudanese terrorists held in the attempted assassination of 
        Hosni Mubarak) revealed that Mustafa Hamzah, one of the four 
        members of the Islamic Group's consultative council that 
        participated in a meeting for its leaders in Afghanistan at the 
        end of 1994, confirmed the following information: that al-
        Turabi and the Sudanese authorities welcomed extremist Islamic 
        groups that were being pushed out of Pakistan to come to Sudan. 
        There they [Sudan] would give them the necessary facilities, 
        camps, weapons, and instructions they needed for their 
        operations.
            Source: Al-Musawwa, July 7, 1995 (Cairo)

          ``As an eyewitness and as a minister in the top executive 
        authority, I can emphatically confirm the presence of foreign 
        terrorists groups which come and go and which work at camps for 
        training terrorists in the various Sudanese provinces. There 
        are secret official instructions to facilitate the movement of 
        these groups and enable them to contact NIF members, each 
        other, and the outside world.''
          Not only does the government allow these groups to operate 
        with impunity, but it has also devised ``a plan to back NIF 
        supporters in the neighboring countries with the aim of 
        changing the governments there, including opening recruitment 
        camps in border areas and amassing large numbers of popular 
        defense units to reinforce the activities of these groups in 
        their respective countries.''
            Source: Muhammad Ahmad `Abd-al-Qadir al-Arbab, Minister 
        Health and Social Affairs of Sudan in the province of Sannar 
        quoted in Al-Sharq Al-Awsat, March 28, 1995 (London)

          ``Sudan also has been a strong supporter of terrorists for 
        export. In 1995, terrorists trained in a camp outside Khartoum 
        with the express purpose of carrying out terrorist activities 
        in Egypt. . . . The Egyptian government claims at least 20 
        international training camps exist in Sudan, 17 of which are 
        believed to be directly administered by the Islamic Sudanese 
        government with the intention of training Muslim militants. . . 
        . Known to train in their own camps are terrorists from Libya 
        and Egypt, as well as camps for Hezbollah, Hamas, and the Abu 
        Nidal organization. . . . One camp in particular is reported to 
        specialize in the training of individuals selected to 
        assassinate heads of state and other highranking political and 
        governmental personalities.''
            Source: Jane's Intelligence Review, March 1, 1997
As a Provider for Terrorists and Terrorist Organizations in Sudan and 
        Abroad

          Foreign Affairs Minister of Kenya [Stephen] Kalonzo Musyoka 
        revealed the presence of multi-national terrorist groups, 
        including Kenyan terrorists, in Sudan after attending a OAU 
        ministerial session in Addis Ababa, Ethiopia.
            Source: KTN Television Network, December 20, 1995 (Nairobi)

          Lakhdar Ibrahimi, Envoy of UN Secretary General Dr. Boutros-
        Boutros Gali, went to Sudan in order to persuade them to hand 
        over the three suspects in the attempt on Hosni Mubarak. He 
        brought proposals that included either the disclosure of, or 
        extradition of the three suspects to Egypt. It is known that 
        Egypt furnished the UN with a list of 317 terrorists known to 
        the Egyptians to be hiding in Sudan.
            Source: AL-ITTIHAD, October 30, 1996 (Abu Dhabi)

          ``Sudan has emerged as a clear threat to the stability of 
        nearby African and Middle Eastern states because of its support 
        for subversive activities of regional opposition groups. This 
        threat is likely to remain as long as the National Islamic 
        Front (NIF) is the dominant political force in the country. In 
        its efforts to spread its version of Islamic fundamentalism 
        beyond Sudan and destabilize regional moderate governments 
        friendly to the United States, the NIF supports insurgent and 
        terrorist groups opposed to the government of Egypt, Eritrea, 
        Ethiopia, and Uganda. Sudan also provides safehaven and limited 
        material support to other radical groups such as Hizballah, 
        HAMAS, the Abu Nidal Organization, and the armed Algerian 
        extremist groups.''
            Source: Prepared statement of John Deutch, Director of the 
        Central Intelligence Agency before the Senate Intelligence 
        Committee Worldwide Threat Assessment, Federal News Service, 
        February 22, 1996

          ``The Palestinian Islamist delegation which went to Sudan 
        last week to meet with the Khartoum based Hamas [Islamic 
        Resistance Movement] military leaders in an apparent bid to 
        seek consensus for rapprochment with the Palestine authority 
        returned to Gaza Wednesday with reportedly positive results . . 
        . The delegation to Sudan included prominent Islamist figures 
        such as Khalid al-Hindi, Sa'id al-Nimruti and `Abdallah 
        Muhannah along with the Amman-based Hamas spokesman `Abdallah 
        Ghawshah . . . The delegates described their meetings in 
        Khartoum, held under the auspices of Sudan's Islamic leader 
        Hasan al-Turabi, as `very encouraging'.''
            Source: IRNA, October 13, 1995 (Tehran)

          Sudan support for armed factions of the FIS--responded to 
        requests for arms, and formally arranged for weapons transfers.
            Source: U.S. Department of Transportation, Federal Aviation 
        Administration, Criminal Acts Against Civil Aviation Report, 
        1992, p. 42

          ``Mauritania has accused Sudan and the banned Algerian 
        Islamic Salvation Front [FIS] of masterminding rising Islamic 
        fundamentalism in the country by ``secretly funding secret 
        Islamic organizations'' whose aim is ``to topple'' President 
        Maaouya Ould Sid Ahmed Taya's government. . . . For the last 
        year there has been a guerrilla training program in progress, 
        and the maintenance of relations with Islamic fundamentalist 
        groups--including the FIS based in Europe, Tunisia, and 
        Sudan,'' Mauritania's Rachid Ould Saleh, Minister of the 
        Interior, Post, and Telecommunications told AFP. ``The 60 
        Mauritanian Islamic leaders arrested at the end of September, . 
        . . who were later pardoned, were infiltrated by the aides of 
        Sudanese Islamic leader Hassan al-Turabi,'' Mr. Saleh 
        explained.''
            Source: Paris AFP, November 7. 1994
On Middle-East Peace Process
          ``At the end of March the leader of the National Islamic 
        Front (NIF), Hassan al-Turabi, presided over the third Popular 
        Arab and Islamic Conference (PAIC) in Khartoum. . . . A common 
        theme among many of the delegates was a rejection of normalised 
        relations with Israel and support for the armed struggle 
        against it.''
            Source: The Economic Intelligence Unit Ltd.; EIU Country 
        Reports, May 14, 1995
Sudan Viewed Through the Eyes of Radical Islamic Jihad
    The following is from an interview between Nafiz `Azzam (Jihad 
spokesman) and Amir Bayati for Vienna News:
          ``Bayati: How do you envisage Palestine's future?
          Azzam: There can only be a future when Israel is destroyed. 
        Then we will establish a Islamic state according to the example 
        of Sudan where God's law is valid.''
            Source: Vienna News (German), March 7, 1996
Al-Turabi's Connection to Muslim Brotherhood
    The following is an excerpt of an interview by Mahir Muqlid for AL-
AMJALLAH, September, 1995 (London) in Cairo with the `former commander 
of the [Muslim] Brotherhood militias,' Ali Ashmawi:
          ``Muqlid: Is there any connection between al-Turabi in Sudan 
        and the Brotherhood in Egypt?
          Ashmawi: Certainly, because al-Turabi was all his life a 
        member of the Brotherhood and was its guide in Sudan. What has 
        changed was actually only his outlook. He wants to be leader of 
        the entire Islamic world, and has recently begun temporarily to 
        refuse to heed the guidelines of the Brotherhood in Egypt out 
        of his desire to become the Brotherhood's general guide. But 
        when he called for the convocation of a large Islamic 
        conference in Khartoum, Mashur [referring to Mustafa Mashur, 
        deputy general guide of the Muslim Brotherhood] traveled there 
        to attend it.''
Sudan-Iran Connection
          Brigadier General `Abd-al-`Aziz Khalid `Uthman, Sudanese 
        opposition leader, is quoted as saying that his men have found 
        training camps where Iranian `experts' train Sudanese in the 
        areas of state security, intelligence and civil defense.
            Source: Al-Akhbar, February 19, 1997 (Cairo)

          ``A news report in al-Haram Monday says it has been 
        established beyond a shadow of doubt that Hassan Turabi, leader 
        of Sudan's National Islamic Front and the man Cairo regards as 
        the real power behind Khartoum's military government, paid a 
        recent visit to Munich, where a large number of extremists are 
        based and which also serves as a center for funding terrorist 
        operations in the region . . . After Munich, Turabi flew to 
        Tehran, the paper says, and it was only after his return to 
        Khartoum that the Sudanese government announced it(s) charge 
        that Cairo was involved in the alleged coup attempt . . .''
            Source: Mideast Mirror, May 17, 1993, quoting Egypt's 
        newspaper, Al-Ahram

          ``Iran, which has remained a strategic ally to Sudan, 
        continues to cultivate good relations with Khartoum. In March 
        an Iranian Foreign Ministry Under-Secretary visited the 
        Sudanese capital to discuss ways of promoting bilateral 
        relations. Several accords were signed in early April when the 
        President of the Iranian parliament, Ali Akbar Nateq-Nuri, 
        visited Sudan . . . This later agreement has been reported to 
        contain the following provisions.
                  <bullet> Iran will be allowed to use naval facilities 
                in Port Sudan for military purposes. In return it will 
                help to train the Sudanese navy.
                  <bullet> Iran will expand its revolutionary guard 
                involvement in training the Sudanese Popular Defence 
                Force.
                  <bullet> The two countries will set up a joint 
                security apparatus to exchange intelligence and analyse 
                information.
                  <bullet> Iran will resume military aid and training.
                  <bullet> Tourism and other visits between the two 
                countries will be expanded.
                  <bullet> Cultural and information exchanges will be 
                pursued.
                  <bullet> Eight cultural centres for the dissemination 
                of the ideas of the Iranian revolution will be 
                established.''
            Source: The Economic Intelligence Unit Ltd.; EIU Country 
        Reports, May 14, 1995

          ``Sudanese strongman Hassan Turabi, addressing what he 
        described as the largest Islamic conference of its kinds in 
        modern history, has denounced the U.S. as a warmonger and 
        defended Iran as a country trying to do right and right wrongs. 
        . . . The paper [Al-Hayat] quotes Turabi as telling the 
        conference that America does better in conducting wars than in 
        conducting peace initiatives, and that Iran is trying to do 
        right and right wrongs but the U.S. is trying to bring it to 
        its knees.''
            Source: Mideast Mirror, December 3, 1995, quoting Al-Hayat
                                 ______
                                 

                        Turabi in His Own Words

Turabi on extremism:
          ``We are proud to go back to our roots and we are extremist 
        in our principles. We are preparing to terrorize the oppressor 
        and remind him of what is right.''
            Mideast Mirror, March 31, 1995

    The Following are excerpts from Turabi's Speech at Al-Taqwa Mosque 
in Brooklyn, NY, May 7-9 1992:
          ``Now the state of Islam, perhaps one of the first countries 
        in the world to go Islamic again is the Sudan, Alhamdulillah, 
        after Iran, but among the Sunni Muslims, among Arab countries, 
        the Sudan is the first state to go Islamic, and it experiences 
        the same the same degree of isolation, and the degree of 
        oppression, and the same attempt to suffocate Islam and to kill 
        it in the cradle before and to stamp it out completely. There 
        are propaganda campaigns against us, we are aware of them, and 
        there was complete boycott, and there was military siege also 
        and the unfortunate aspect of all this is that even so-called 
        historical Muslim states were used against us, neighboring 
        states who look to us as brothers, as neighbors, as fellow 
        Muslims, as fellow Arabs.''
          ``And ultimately we have to wage Jihad, true Jihad, not just 
        struggle, but actively we have to fight to protect the state of 
        Islam in the Sudan, because everybody was used against us, to 
        subvert our security, in a military way, and we have to wage 
        Jihad. And we discovered the baraka (blessing) of Jihad. When 
        people fight for a certain value that value becomes so dear to 
        them because they become prepared to spill their blood to 
        protect it''
          ``I don't think the New World Order will persist for very 
        long. The western world is a world of conflict. If there is no 
        belief in Allah, there is nothing but conflict. Humanism 
        ultimately breed conflict, because every human being ultimately 
        wants to become the superhuman being, on top of all the world, 
        and that immediately breeds friction and conflict . . . If 
        anyone of you was asked five years back how long will the 
        Soviet Union survive, you would have said fifty years, more so, 
        a hundred years. But it just collapsed. The body can grow and 
        can be inflated and can have attractive colors, but just one 
        single pin, and everything will collapse, like a balloon. So 
        people think that America is great now, it is omnipotent, it is 
        omniscient. They know everything, they are everywhere, they can 
        change international law with respect to Iraq and Algeria. They 
        can just go away with international law and maintain their 
        spirit universally. But this is power based on barbarism, it is 
        a balloon, it looks very impressive but Allah has a time a for 
        everybody. Once it has served its term, just one pin and phhhh, 
        yes.''
            Dr. Hasan al-Turabi Visits the U.S. (video tape), 1992
Turabi on America and the West:
          During press conference, following a meeting of an Islamic 
        delegation seeking to mediate the Gulf crisis, Dr. al-Turabi 
        informed his audience that the United States had enlisted the 
        help of other nations merely ``for its own interests, to 
        express its own arrogance and its interest in furthering the 
        Zionist expansion in the area.''
            The Independent (Amman), October 2, 1990

          ``The enemy is America . . . If we are challenged 
        economically we will develop our own country, we are very rich; 
        if we are challenged culturally we will develop our own 
        culture; if we are challenged militarily, we will have to fight 
        back.''
            The Daily Telegraph (London), Aug 15, 1995

          ``We have a heritage and a wealth of culture but their (the 
        West's) life has been culturally empty. Even their music is now 
        more like loud noise than serious music. They no longer know or 
        read books. They are content with just watching television and 
        switching from one channel to another.''
            Al-Quds al-Arabi (London), Feb 7, 1997

          ``The United States is nothing more than a Jewish grouping 
        plus a number of European groupings and some African groupings 
        who were taken there as slaves or serfs.''
            Al-Quds al-Arabi (London), Feb 7, 1997

Turabi on Harboring ``Rebels'':
          ``But Sudan is still more merciful towards our Eritrean 
        brothers. About 750,000 Eritreans are still in Sudan. They came 
        to us as fighters against Ethiopia. We could now turn them 
        against the regime . . .
            Al-Quds al-Arabi (London), Feb 7, 1997
Turabi on the establishment of Islamic law in Sudan:
          ``We have come to uphold G-d's Shari'ah. Some of the 
        upholders of Islam are young. They are the people most 
        dedicated to the jihad and they are the promise of the future . 
        . .
            Al-Quds al-Arabi (London), Feb 7, 1997

Turabi on Osama Bin Laden:
          ``He [Bin Laden] worked for Sudan. Now, on the occasion of 
        the independence anniversary, the president has inaugurated the 
        road to northern Sudan, which will stretch to the port. It is 
        the road being built by Bin-Laden's company which is still 
        building the shortest roads to the sea . . .''
            Al-Quds al-Arabi (London), Feb 7, 1997

          ``He is aware of the appreciation of Sudan and those close to 
        him for the things he has done and continues to do for Sudan. 
        Many of them were frank with him. They told him: If you prefer 
        to remain in Sudan nobody will push you out. This is what they 
        told him.''
            Al-Quds al-Arabi (London), Feb 7, 1997

          Interviewer: ``What is [Usamah] bin-Laden doing in Sudan?''
          Truabi: ``He is a big businessman and helps Sudan.''
            Al-Nahar (Beruit), Mar 11, 1996
Turabi on resisting modernizing influences:
          ``There was no defeat. I believe they [the modernizing 
        elements] have succeeded and have crushed the door of terrorism 
        and fundamentalism. For this reason, they might have begun to 
        propagate this impression and ease up against Sudan, and they 
        have enjoyed this victory for some time. But when I come back, 
        I will come many times more active than I was before. Now they 
        have launched a siege against us in the United States.''
            Al-Quds al-Arabi (London), Feb 7, 1997
Turabi on Jihad:
          ``In an article published by `Guiding Star' newspaper of 
        Khartoum, Thursday, 8th June 1989, the NIF [leader], Dr. Hasan 
        al-Turabi, called upon his Muslim supporters to be ready for 
        jihad to face those who oppose Shari'ah.''
            BBC Summary of World Broadcasts, June 16, 1989

          ``The intellectual, dialetic, and Jihad (military) potentials 
        should be combined in order to make cultural transformations . 
        . . The Qu'ran is clear. Allah orders us to invite people to 
        Islam with wisdom and beautiful preaching; and to argue with 
        them in ways that are the best and most gracious. But we should 
        be ready and cautious in order not to be deceived. We should be 
        ready for Jihad.''
            Palestine Times, May 1997

          ``The fact is that the current issue [democracy in Sudan] is 
        not one of human rights or democracy but of Islam, and the 
        Islam I mean is the Islam that refuses to suspend the duty of 
        jihad.''
            Al-Quds al-Arabi (London), Feb 7, 1997

          Interviewer: ``What is your opinion on the `jihad' current? I 
        am asking you now as an intellectual and leader in the modern 
        Islamic movement.
          Turabi: ``It complements the call's current which began 
        through preachers and writers. If this call has been 
        preoccupied with materialism of culture and money, this should 
        be complemented with jihad. This current emerged in countries 
        where its presence has become necessary because the other party 
        does not want to hold a dialogue. It only wants to fight.''
            Al-Wasat (London) Nov 7-13, 1994

          Turabi expressed the need for the Muslim peoples to mobilize 
        ``in a struggle--or a jihad, if you want to use the Arabic 
        word--to protect their territories and their holy land and 
        their wealth.'' Should war break out, he predicted that ``there 
        is going to be all forms of jihad all over the world because it 
        is an issue of foreign troops on sacred soil.'' He went on to 
        explain that this meant, ``demonstrations, fighting, targeting 
        the enemy everywhere.''
            The Independent (Amman) October 2, 1990
Turabi on the Palestinian/Israeli peace process:
          ``They [the Arabs] let it [Palestine] down, despite their 
        Arab prestige. Even the Arab League almost accepted the 
        establishment of a Palestinian state and an Israeli state, 
        because Palestine is the root and the Israelis have seized it 
        by force, terrorism, and looting . . . Now they are preparing 
        to drop yet another degree. We in Sudan do not want to turn 
        against them and thus we and not they become the focus of 
        cameras' attention. We do not want the Palestinians to turn 
        against each other so that both sides get killed, terrorism 
        gets forgotten . . .
            Al-Quds al-Arabi (London), Feb 7, 1997
Turabi on Hamas activities:
          ``If what they are trying is to completely alter the 
        situation in Arab Palestine, this cannot be achieved by killing 
        one or ten people. I believe that the people in Hamas want to 
        stop of some of their leaders by the Israeli security agencies. 
        They are taking an eye for an eye. If this really is the 
        situation, I can understand it.''
            Al-Nahar (Beruit), Mar 11, 1996
Turabi on Sharm al-Shaykh anti-terrorist summit in 1996:
          . . . it [the summit] seeks a confrontation with Islam as a 
        whole, the Islam which produces both extremists and moderates. 
        They want neither extremists nor moderates. They want to uproot 
        both.''
            Al-Nahar (Beruit), Mar 11, 1996
Turabi on Iran:
          ``Praising the Islamic revolution in Iran and its 
        accomplishments, al-Turabi said Iran and Sudan are at present 
        regarded as the united base of Islam. `This is threatening to 
        the enemies of Islam, and they work to crush these two 
        countries.' ''
            Al-Nahar (Beruit), Mar 11, 1996

          ``The secretary general of the Popular Arab and Islamic 
        Conference, PAIC, Dr. Hasan Abdullah al-Turabi, affirmed that 
        the special relations between Sudan and Iran do not represent 
        any malice against any country or body, explaining that these 
        relations emanate from religious values and future Islamic 
        conceptions.''
            Omdurman National Radio Unity Radio, Dec 13, 1995
Turabi's aide, assistant secretary-general of PAIC, Ibrahim al-Sanusi, 
        on Hamas and Hezbollah:
          . . . Hamas and Hezbollah groups have done nothing other than 
        carry out acts of resistance inside the Palestinian territory 
        because their aim is to regain the right and the land, which is 
        lawful matter guaranteed by international laws and indeed by G-
        d's laws throughout history. Jihad and resistance by those who 
        seek to retreive their lands and who resort to their legitimate 
        rights in this respect cannot be described as terrorism.
            British Broadcasting Company, Dec 4, 1996
Turabi on Zionist Conspiracy:
          Interviewer: ``Do you believe the Zionists and the Americans 
        are planning to drag the people of the Nile Valley into a major 
        estrangement?''
          Turabi: ``Whatever happens between the Egyptian and Sudanese 
        Governments, they are exploiting it to create a crisis between 
        the two peoples . . .
          Interviewer: ``They [Egyptians] are fuming with anger over 
        the act committed by the Ethiopean aggressive elements, who 
        raped women, burned mosques, slaughtered old people, and 
        enslaved young girls.''
          Turabi: ``Yes, they raped our girls, burned the Koran, and 
        looted property during Ramadan. They are the Ethiopeans and the 
        Zionists.''
          Interviewer: ``What about Zionists tampering with the Nile 
        sources?''
          Turabi : ``They are currently inciting Ethiopia to set up 
        dams and to turn land into agricultural land, and the same is 
        true of Uganda. Sudan gives part of its annual water share to 
        Egypt.''
            Al-Sha'b (Cairo), Feb 21, 1997
Turabi on the International Islamist Movement:
          Interviewer: ``Is there an Islamic international?''
          Turabi: ``Yes there is. Here at the seat of this Arabic and 
        Islamic People's Conference [PAIC] in Khartoum, we have Muslims 
        from all over the world, from Africa, the Middle East, Europe, 
        America, and Japan. We have very good links with the Islamists 
        in Tunis. We have advised Algeria's Islamic Salvation Front 
        [FIS] to devise a political, economic, and international 
        relations program.''
            La Vanguardia (Barcelona) July 16, 1995
                               __________
                         Amnesty International

             Sudan: A New Clampdown on Political Opponents

                               April 1997

    Arrests in Port Sudan and Khartoum in late March and early April 
1997 underline that the large scale round-up of suspected political 
opponents begun by the Sudanese authorites on 13 January 1997 
continues. Amnesty International has identified over 260 men and women 
arrested in towns and cities in northern Sudan (see attached list). 
Most still remain in detention without charge or trial. Some have been 
denied access to their families and necessary medical treatment. There 
are reports of torture.
    The arrests follow intensified military action in eastern Sudan by 
armed forces belonging to the National Democratic Alliance (NDA), an 
umbrella organization of banned political parties, trade unions and 
armed opposition groups in exile. On 12 January 1997 troops from the 
Sudan People's Liberation Army (SPLA) and Sudan Alliance Forces (SAF) 
captured army garrisons north and south of the Blue Nile and the towns 
of Kurmuk and Geissan close to the Ethiopian border. They then pushed 
towards the site of an electricity generating station which supplies 
Khartoum, Sudan's capital, with much of its power. The Sudanese 
authorities have accused Ethiopia of invading Sudan, which Ethiopia 
denies. In March the NDA mounted further attacks on targets close to 
the border with Eritrea.
    The NDA has said that it is aiming to weaken the government to pave 
the way for a popular uprising in Khartoum. On 21 January Sadiq al-
Mahdi, Sudan's Prime Minister ousted in the 1989 coup that brought the 
current government to power, called on the armed forces to rise against 
the government. Sadiq al-Mahdi left Sudan clandestinely in late 1996.
    Although many of those detained are suspected of being supporters 
of the NDA, the government has not charged them or produced evidence to 
suggest that they were involved in violent or treasonable activity. On 
29 January Hassan al-Turabi, Speaker of the National Assembly and the 
ideological mentor of the government, told journalists that the 
authorities had arrested ``10 to 15'' men from the Umma Party and 
Democratic Unionist Party (DUP) in order to prevent disorder. He went 
on to say that ``once we restore our territory, probably they will be 
released''. On the same day President Omar Hassan Ahmad al-Bashir 
described the arrests as a precautionary measure ``that will end when 
the foreign threat is removed''. He indicated that the detainees would 
not be charged and brought to trial. Amnesty International is concerned 
that the detainees are facing indefinite detention without charge or 
trial.
    Senior opposition politicians were among the first arrested, many 
are men who have been detained on several previous occasions. Several 
members of the banned Umma Party, which is led by Sadiq al-Mahdi, were 
arrested at their homes before dawn on 13 January. Senior adherents of 
the Ansar, one of Sudan's main Islamic orders (closely connected to the 
Umma Party), were taken to jail over the next few days; eight others 
were arrested on 17 February. Detained members of the banned DUP, 
Sudan's other major political party, include Sid Ahmad al-Hussein, the 
party's Secretary General and former Deputy Prime Minister. Communists, 
Ba'athists and members of banned southern Sudanese political parties 
were also among those arrested.
    Scores of trade unionists, students, lawyers, businessmen and 
others are also detained. They include the leaders of the banned Sudan 
Workers' Trade Union Federation and many other senior trade unionists. 
At least 11 doctors have been arrested; the Medical Association was one 
of many trade unions which played a key role in ousting the government 
of Ga'afar Nimeiri in a popular uprising in April 1985. Student leaders 
from Khartoum, al-Ahlia, al-Nilein and Northern Region Universities are 
also in detention.
    Most detainees are reported to be held in a security service-run 
section of Kober Prison, the country's main jail located in Khartoum 
North. Conditions are reported to be harsh and crowded. Some had been 
held incommunicado in security offices and secret detention centres 
before transfer to Kober. For example, Mohamed Ibrahim Abdu (also known 
as ``Kabaj''), was denied access to his family while being held at an 
unknown location after his arrest on 10 February. He is a diabetic and 
only received necessary insulin after his family were finally able to 
see him in Kober in early March. Other detainees who are reported to be 
receiving inadequate medical care include the prominent lawyer Ali 
Mahmud Hassanein and the veteran trade unionist Ali al-Mahi al-Sakhi.
    Reports of torture include the beating by security officers of a 
recently graduated student who was held for several hours on 16 March 
and forced to strip naked. This treatment was described as ``a 
graduation present''. He was told that every time the opposition 
attacked in the east he would be re-arrested and beaten again.
    On 13 January, the day the round-up started, Dr Gaspar Biro, the 
United Nations Special Rapporteur on the situation of human rights in 
Sudan, arrived in Khartoum at the start of a scheduled visit. On 14 
January the authorites told him that they ``were not able to guarantee 
his safety'' because of the ``anger of the Sudanese masses'' at the 
military threat in the east. The Special Rapporteur left Sudan after 
one day. Amnesty International believes that the government's action 
amounted to expelling the Special Rapporteur at a time when it was 
engaged in arresting political opponents.
    Amnesty International is calling on the Sudan Government to release 
prisoners detained unless they are to be charged with a recognisably 
criminal offence and brought promptly to a fair trial. The organization 
is also calling for detainees to be allowed access to lawyers, their 
families and all necessary medical treatment. Reports of torture should 
be investigated and those responsible brought to justice.

 Appendix One: Arrests Reported in Sudan Between January and March 1997

  1  Abdel Nabi Ali Ahmad, University lecturer & former Regional 
        Governor
  2  Adam Yousif, Ansar
  3  Fadl al-Nur Mohamed Jabir, Umma party
  4  Fadlalla Burma Nasir, former Minister
  5  Hashim Awad Abdel Magid, Lawyer
  6  Omer Mohamed Omer, Ansar
  7  Mohamed Mahil, Ansar
  8  Ali al-Omda Abdel Magid, Ansar
  9  Mohamed Satti Ali Mohamed, Ansar
 10  Mahdi Abderahman Ali, Businessman
 11  Mohamed al-Mahdi Hassan, Imam al-Ansar mosque
 12  al-Fadl Adam Ismail, Umma party
 13  Ibrahim Ali, Office Director of the former Prime Minister Released
 14  Abdel Mahmud Haj Saleh, former Minister Released
 15  al-Haj Abdelrahman Abdallah Nugdullah, former Minister
 16  Abdel Rasoul al-Nur, former Governor
 17  Mohamed Ismail al-Azhari, Democratic Unionist party Released
 18  Mustafa Abdel Gadir, Lawyer
 19  Bakri Ahmad Adil, former Minister
 20  Ali Mahmud Hassanein, Lawyer
 21  Nagib Nejm al-Din Hassan al-Tom, Doctor
 22  Fadlalla Mohamed Hashim, Bank employee
 23  Yahya Ali Abdalla, Trade unionist Reporting to security daily
 24  Abdel Latif Gimiabi, Umma Party
 25  Bushra Mahdi Bushra, Umma Party, student Released
 26  Ismail Adam Ali
 27  al-Fadl Ahmad Diab, Civil servant
 28  Mohamed al-Sil, Worker
 29  Babu Shaafi
 30  Mohamed Mahjub Mohamed Ali, Trade unionist, accountant
 31  Ali Ahmad al-Said, Lawyer
 32  Jamal Abdel Rahman, Musician
 33  Mohamed al-Hassan Nourain, Engineer
 34  Yahya Mudalal, Trade unionist
 35  Saudi Darraj, Trade unionist
 36  Taha Sid Ahmad, Trade unionist
 37  Abdalla Mohamed Malik, Trade unionist Released
 38  Nasr Ali Nasr, Trade unionist
 39  Kamil Abdel Rahman al-Sheik, Trade unionist Reporting to security 
        daily
 40  Siddiq Youssif al-Nur, Engineer, communist
 41  al-Haj Karoum, communist
 42  Mohamed Adam, Trade unionist
 43  Awad al-Karim Mohamed Ahmad, Trade unionist
 44  Abdel Karim Karoma, Businessman
 45  Abdel Aziz al-Rufa'i, Trade unionist
 46  Gaafar Bakri, Trade unionist, communist
 47  Kouko, communist
 48  Mohamed Abdin Osman, Democratic Unionist Party
 49  Ali al-Simat, President of Rail Workers Union Reporting to 
        security daily
 50  Sid Ahmad al-Hussein, Democratic Unionist Party, former Deputy 
        Prime Minister
 51  Hashim Babiker Tulub, Trade unionist
 52  Osman Hassan Sorkati, Doctor Reporting to security daily
 53  Fadl al-Nur
 54  Abdel Rahman Nugdalla, Businessman
 55  al-Tijani Mustapha, Lawyer
 56  Farouq Kadoda, Lecturer, communist
 57  Mahjoub al-Zubeir, Trade unionist
 58  al-Hadi Abdel Aziz
 59  Taha Sid Ahmad, Trade unionist
 60  Salah Abdel Karim, Economist
 61  Adam Madibu, Former Minister
 62  al-Fadl Mahir
 63  Mohamed Suleiman, Trade unionist Released
 64  Abdel Jalil Karoma, Worker
 65  Mohamed Di'a al-Din, Trade unionist
 66  Ali Khalifa, Trade unionist
 67  Mansour Hassan, Imam Majid
 68  Mohamed Babiker Mokhtar, Trade unionist Released
 69  Sayed Haroun
 70  Jad Karim, Businessman
 71  Mubarak
 72  Sabir
 73  Nur al-Din Medani, Office manager al-Khaleej newspaper
 74  Samira Hassan Ali Karrar, (F) Human rights activist Released
---------------------------------------------------------------------------
    (F) Female prisoner.
---------------------------------------------------------------------------
 75  Osman Idris Abu Ras, Ba'ath party
 76  Mohamed Dia al-Din, Ba'ath party
 77  Abdel Moneim Ahmad al-Haj, Communist Released
 78  al-Tijani Hussein Dafallah al-Sid, Ba'ath party
 79  Ishaq Ibrahim, Ba'ath party
 80  Abdel Mahmud Abbo
 81  al-Tahir al-Rigayek, Trade unionist
 82  Mohamed al-Mahil, Doctor
 83  Abdel Karim Abdel Galil, Trade unionist
 84  Mirghani Yousif
 85  `Abd al-Fateh al-Rufa'i, Trade unionist
 86  Taj al-Din al-Bashir, Vet
 87  Yahya Mukwar, Doctor
 88  Abdel Wahab Khojali
 89  Moatisim Abdel Rahim Medani, Lawyer
 90  Sifay Hadish, Ethiopian
 91  Areha Tesfay, Ethiopian
 92  Mouez Haile Selassie, Ethiopian
 93  Woldegabriel Berhata, Ethiopian
 94  Hagos Haile Mariam, Ethiopian
 95  Yohanes Tsegay, Ethiopian
 96  Desta Negga, Ethiopian
 97  Woldu, Ethiopian
 98  Abaye, Ethiopian
 99  Goitom, Ethiopian
100  Halfome, Ethiopian
101  Habtu, Ethiopian
102  Habtamu, Ethiopian
103  Mekonnen Godefi, Ethiopian Released
104  Abdel Gadir al-Gilani
105  Mohamed Abdel Rahman Abu Shanab
106  Amin al-Rabi'e, Businessman
107  Ali Mahjub
108  Mohamed Abdullah al-Meshawi, Lawyer
109  al-Tahir Khalil, Bank employee
110  Tabera Habani, Businessman
111  al-Hadi Tanjur
112  Abdel Rahman Kajur
113  Mauwia al-Din Osman Mohamed
114  Deng Awak Achan
115  al-Fateh Gharballah
116  Mohamed Osman Abu Ras
117  al-Haj Osman al-Hassan, Trade unionist
118  Shehab al-Din Ahmad Gaafar, Lab technician
119  Adil Abdu, Journalist
120  al-Haj Osman Mohamed, Businessman
121  Minallah Abdelwahab, Trade unionist
122  Mokhtar Abdullah
123  Ali al-Mahi al-Sakhi, Trade unionist
124  Mustapha Zaki al-Hakim
125  Adil Saleh Mukwar, Businessman
126  Abdel Gadir Fahmi
127  Amin al-Shawafa, Businessman Released
128  Deng Wuol, Doctor
129  Ishaq al-Gassim Shadat, Lawyer
130  Abdel Rahim Mabiou
131  Salah Haroun, Doctor Reporting to security daily
132  Hassan `Abd al'ati, Lecturer Reporting to security daily
133  Ahmad Mirghani
134  Abbas al-Subiya, Businessman
135  al-Tayeb Kanouna, Civil servant
136  Hassan Abu Zeid, Agriculturalist
137  Mohamed Hamad Nadim
138  Mamoun Mohamed Hussain, Doctor
139  Sabri Fakri
140  'Abd al-Aziz Mohamed al-Amin, Brigadier in army
141  'Abd al-Rahim Hamid Fadl, Brigadier in army (retired)
142  al-Ha Langi, Brigadier in army
143  Mohamed Hamed Ahmad, Brigadier in army
144  Sayid `Abd al-Karim, Lieutenant colonel in army (retired)
145  Omar `Abd al-Majid, lieutenant colonel in army
146  Ezekiel Kodi, former minister
147  Joshua Dau Diu, School owner
148  Kwai Malak, Teacher
149  Mustafa Ahmad Ibrahim, Student al-Ahlia University Released
150  John Michael, Driver Released
151  Widaat Hassan Ali Karrar, (F) Human rights activist Released
---------------------------------------------------------------------------
    (F) Female prisoner.
---------------------------------------------------------------------------
152  Mohamed Ahmad al-Rayah, Brigadier in army (retired)
153  Yousif al-Habum, Ba'ath party
154  Abu Khalid al-Mahi, Ba'ath party
155  Usama Mohia Abdel Majid, Ba'ath party
156  Moataz Hassan, Ba'ath party
157  Mohamed al-Simat
158  Mohamed Abdallah al-Duma
159  Yahya Malik
160  Mustapha Abdel Gadir, Lawyer
161  Sadiq Yahya, Trade unionist,
162  Dr Hashim
163  al-Tijani Da'oud, Trade unionist
164  Mohamed Abdel Nabi, Doctor
165  Ali Yousif, Academic
166  Abakar al-Tayib
167  Sirr al-Khatim
168  Adil al-Mardi, Civil servant Reporting to security daily
169  Atif Hassan, Student al-Ahlia University
170  Ahmad Hassan
171  Rashad Hamid al-Said
172  al-Zoheir Khalil
173  Abdel Rahman Sharif Mamoun, Graduate Released
174  Sidiq Sharif Mamoun, Graduate al-Ahlia University
175  Mohamed Ibrahim Abdu ``Kabaj''
176  Mohamed al-Howar, Ansar Affairs Secretariat
177  Abdel Karim al-Amin al-Malih, Ansar Affairs Secretariat
178  al-Faki Abdallah Ishaq, Ansar Affairs Secretariat
179  Abbas Awad al-Karim, Ansar Affairs Secretariat
180  Mohamed Musa, Ansar Affairs Secretariat
181  Abdallah Adam Ali, Ansar Affairs Secretariat
182  Sabur Abdel Rahman, Ansar Affairs Secretariat
183  Abdel Rahman Mohamed Issa, Ansar Affairs Secretariat
184  Babiker Deqna, Businessman
185  Adam Farajallah, Civil servant (retired)
186  Ismail Bilol, Civil servant (retired)
187  Mohamed Mohamed Tom, Trade unionist
188  Jalal al-Din al-Sayed, Lawyer
189  Ali Qurun, Businessman
190  Yasir Issa, Bank employee
191  Bashir Hamid Suleiman, Trade unionist (retired)
192  Ahmad Adam, Student of Majid al-Imam `Abd al-Rahman
193  Sadiq Shams al-Din, Driver
194  Abdelrahman al-Siddiq Mustapha, Businessman
195  al-Sadiq Babiker, Businessman
196  Adam Ibrahim, Graduate
197  Adam Abu Taqiya, Security officer
198  Mohamed Ahmad Jakumi, Businessman
199  Sadiq Mohamed Tom, Graduate
200  Ibrahim Musa, Worker
201  Ahmad Babiker Nihar, Doctor
202  Ahmad Bishara, Businessman
203  Omar Faiq, Lab technician
204  Mahmud Ahmad al-Zubeir, Labourer
205  Ismail Wali, Student Khartoum University
206  Abdelgadir Nasr, Businessman
207  Mohamed al-Hassan, Doctor
208  Mahmud Kharif, Trade unionist
209  Ahmad Mohamed Ahmad, Trade unionist
210  Mohamed al-Mahdi, Doctor
211  Isam al-Shubagi, Student al-Nilein University
212  Imad al-Amin, Graduate Khartoum University
213  Omar Mohamed Ali, Student Khartoum University
214  Yasir Abdel Hamid, Student Khartoum University
215  Mohamed Farouq, Student Khartoum University
216  Usama Siddiq Youssif, Student al-Ahlia University
217  Tariq Abdel Majid, Student al-Ahlia University
218  Usama Said, Student al-Ahlia University
219  Mohamed Taj al-Sirr, Student al-Nilein University
220  Mamoun Ibrahim Karrar, Student al-Nilein University
221  Osman al-Sair, Student al-Ahlia University
222  Ali Mohamed Osman al-Simat, Student al-Ahlia University
223  Issa Ahmad Issa, Colonel in army (retired)
224  Adam Musa, Umma party
225  Khatim Hassan al-Tahir, Umma party
226  Sidiq Mohamed Tom, Umma party
227  Mubarek Mohamed Saleh, Umma party
228  Mohamed Adam, Umma party
229  Mohamed Zaki, Umma party
230  Nasr Mohamed Nasr, Umma party
231  Yousif al-Nur Hamed, Umma party
232  Yousif Mohamed al-Agab, Umma party
233  Abdelkarim al-Jabalabi, Umma party
234  Abdalla Ahmad Adam, Umma party
235  Salih Abdel Mahmud al-Haj Saleh, Student Khartoum University
236  Isam Mohamed Farah, Student al-Nilein University
237  Abdelrahman Adam, Student al-Nilein University
238  Yousif Mohamed Salih, Student al-Nilein University
239  Ibtesam al-Said Abdalla, (F) Student Northern Region University
---------------------------------------------------------------------------
    (F) Female prisoner.
---------------------------------------------------------------------------
240  Tahani Bashir Mohamed Ali, (F) Student Northern Region University
241  Afaf Haidar Mohamed al-Haj, (F) Student Northern Region University
242  Qesma Mohamed Ahmad Kafour, (F) Student Northern Region University
243  Muna Mustapha Khalid, (F) Student Northern Region University
244  Mohamed Idris Ali, Student Northern Region University
245  Hamid Abdelhakim Hederbi, Student Northern Region University
246  Hassan al-Samani, Student Northern Region University
247  Hamza Abdelkarim Abdelazim, Student Northern Region University
248  Ramadhan Jadallah, Student Northern Region University
249  Abbas Abdelkarim Abdelazim, Student Northern Region University
250  Abdelmottalib Abdelazim, Student Northern Region University
251  Abdelmottalib Abdalla al-Sheikh, Student Northern Region 
        University
252  Mohamed Said Mohamed al-Kheir
253  Sid Ahmad al-Khatib, Doctor
254  Kheirallah Rahamtalla Koko
255  al-Sir Khedir
256  al-Sadiq al-Fadl Sail
257  Atif Yousuf Ahmad Dau al-Beit, Student Khartoum University
258  Jalal Ismail Awadallah, Businessman
259  Abdallah Musa, Port worker
260  `Abd al-Rahman al-Amin, Trade unionist
261  Bedawi Abdallah, Democratic Unionist Party
262  Moatism Siyam, Trade unionist
263  Adam Mohamed Sharif, Lawyer
264  Hussein Saleh, Lawyer
265  Ahmad Abdel Hafiz, Lawyer
266  Sara Abdallah Abdelrahman Nugdallah, (F) Umma party
---------------------------------------------------------------------------
    (F) Female prisoner.
---------------------------------------------------------------------------

                               <greek-d>

      
</pre></body></html>
